<html>
<title> - AN UPDATE ON AMERICAN DIPLOMACY. TO ADVANCE OUR NATIONAL SECURITY STRATEGY</title>
<body><pre>[Senate Hearing 115-802]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-802

                     AN UPDATE ON AMERICAN DIPLOMACY
                        TO ADVANCE OUR NATIONAL
                           SECURITY STRATEGY

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 25, 2018

                               __________


       Printed for the use of the Committee on Foreign Relations

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                   Available via the World Wide Web:
                         http://www.govinfo.gov

                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-413 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------


                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                ROBERT MENENDEZ, New Jersey
MARCO RUBIO, Florida                 BENJAMIN L. CARDIN, Maryland
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        


                              (ii)        

  
                          C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1

Menendez, Hon. Robert, U.S. Senator From New Jersey..............     3

Pompeo, Hon. Mike, Secretary of State, U.S. Department of State, 
  Washington, DC.................................................     5
    Prepared statement...........................................     8

              Additional Material Submitted for the Record

Responses of Hon. Mike Pompeo to Questions Submitted by Senator 
  Bob Corker.....................................................    63

Responses of Hon. Mike Pompeo to Questions Submitted by Senator 
  Robert Menendez................................................    66

Responses of Hon. Mike Pompeo to Questions Submitted by Senator 
  Marco Rubio....................................................    90

Responses of Hon. Mike Pompeo to Questions Submitted by Senator 
  Benjamin L. Cardin.............................................    91

Responses of Hon. Mike Pompeo to Questions Submitted by Senator 
  Jeanne Shaheen.................................................    95

Responses of Hon. Mike Pompeo to Questions Submitted by Senator 
  Tim Kaine......................................................    96

Responses of Hon. Mike Pompeo to Questions Submitted by Senator 
  Edward J. Markey...............................................    97

Responses of Hon. Mike Pompeo to Questions Submitted by Senator 
  Cory A. Booker.................................................   100

Buzzfeed News Article Submitted by Senator Tim Kaine.............   107

Arab News Article Submitted by Senator Tim Kaine.................   116

Statement of President Donald J. Trump Submitted by Senator Cory 
  A. Booker......................................................   127

                             (iii)        

 
                    AN UPDATE ON AMERICAN DIPLOMACY.
                        TO ADVANCE OUR NATIONAL
                           SECURITY STRATEGY

                              ----------                              


                        WEDNESDAY, JULY 25, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3:05 p.m. in room 
SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Risch, Rubio, 
Johnson, Flake, Gardner, Young, Barrasso, Isakson, Portman, 
Paul, Menendez, Cardin, Shaheen, Coons, Udall, Murphy, Kaine, 
Markey, Merkley, and Booker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    I know that sometimes these hearings can generate a little 
emotion. I just want to say again we have been very generous on 
the committee in the past when people have been arrested. When 
you are hauled out of here, you are arrested. And I have gone 
down in the past and caused people to be un-arrested. But that 
cannot happen anymore. So if you would, please respect others 
who are here. This is what great democracies do. We are glad to 
have our outstanding witness here, and we will begin our work.
    Secretary Pompeo, we are glad to have you here today. We 
are grateful for your service to our country. I have faith in 
your leadership and I appreciate what you are doing to change 
the culture of the State Department in positive ways.
    But I want to get straight to the point. You come before a 
group of Senators today who are filled with serious doubts 
about this White House and its conduct of American foreign 
policy. There are a number of reasons to be concerned. Among 
them is the lack of information the administration has provided 
to members of this committee. It is our hope that you will 
reduce our level of concern by providing us with clear answers 
that might help convince us that those at the White House know 
what they are doing and that, to be candid, you know what they 
are doing.
    I cannot say it more forcefully. We really need a clear 
understanding as to what is going on, what our President is 
agreeing to, and what our strategy is on a number of issues.
    Last week, President Trump held a summit with Vladimir 
Putin, someone who has violated the most fundamental 
international norms through his efforts to annex Crimea, has 
interfered with elections, including our own, has supported the 
brutal Assad regime in Syria, has used chemical weapons to 
poison a Russian agent and his daughter in the United Kingdom, 
has occupied portions of Georgia, continues to violate the INF 
Treaty, has reportedly hacked U.S. utilities. The list goes on 
and on, and you know the list.
    In the face of these hostilities and the summit's 
aftermath, we saw an American President who appeared submissive 
and deferential. We have heard that some agreements were 
reached but as of yet have little idea what those might be, 
even though the President has already extended an invitation to 
Putin to come to Washington to discuss the implementation, 
quote on quote, ``of these undefined agreements.''
    The President also recently met with North Korean leader 
Kim Jong Un, one of the most ruthless leaders on the planet, 
who has continued to develop nuclear weapons and ballistic 
missiles that could hit the United States, has executed his 
half-brother with poison in Malaysia, and reportedly killed his 
uncle back home, has essentially murdered an American college 
student, and has enslaved millions of his own people. One in 10 
North Koreans are living in slavery today, and 1 in 5 children 
are stunted due to malnutrition. In the face of these 
realities, the President has called him very talented and that 
he loves his people. Really?
    At the recent NATO summit, the President not only pushed 
NATO member countries to dedicate more of their budgets to 
defense, a goal we all share. He went on to berate them, 
question the very premise of NATO, in my opinion used false 
information to turn public opinion in the United States against 
the alliance. He even went so far as to cast doubt on the 
United States' willingness to enforce article 5 of the NATO 
treaty. We want to know if this is real or just another off-
the-cuff statement.
    And the confronting of our partners goes beyond traditional 
security and extends to the economic space as well. I know you 
are aware of my strong feelings about the administration's 
abuse of its authorities in using section 232 to implement 
tariffs in the name of national security. So far, we have zero 
clarity from the administration as to what the end game is on 
the Trump-Pence tariffs, which in reality are a massive tax 
increase on American consumers and businesses. And now the 
administration appears ready to offer welfare to farmers who 
would rather have trade than aid.
    As you know, Senators have gone to the White House in 
groups to discuss these actions, and not a single person that I 
am aware of has left those meetings with the sense that there 
is a coherent strategy driving these policies. The 
administration tells us do not worry, be patient, there is a 
strategy here. But from where we sit, it appears that in a 
ready, fire, aim fashion, the White House is waking up every 
morning and making it up as they go.
    This is the first in a series of hearings we will hold in 
coming weeks dealing with the troubling dynamic I have 
described, one in which we are antagonizing our friends and 
placating those who clearly wish us ill. This series will deal 
specifically with Russia as perhaps the most troubling example 
of this emerging reality. I hope that in your position you will 
do all in your power to provide us with the answers we need 
today and as we move forward in our future hearings.
    I look forward to your testimony, and I want to thank you 
again for being with us and for the many outstanding people you 
are bringing on to the State Department to work with you.
    With that, I will turn to Senator Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman.
    Let me start by saying I applaud you for making this the 
first of a series of rigorous oversight hearings on Russia. The 
committee has gone for about a year without a full committee 
hearing on either Russia or North Korea. So I appreciate your 
leadership in this regard.
    And now it seems to have taken a three-ring circus of a 
debacle of a meeting with President Putin, a walk-back of 
whether the President's trusts his own intelligence officials, 
the suggestion that it might be even okay for a U.S. diplomat 
to be interrogated by Russian intelligence, and a reality TV 
summit that was little more than a photo op with a brutal 
dictator to merit one hearing with the Secretary of State.
    Having said that, Mr. Secretary, welcome and thank you for 
your service to our country.
    The members of this committee are strongly supportive of 
strategic, well-crafted diplomacy to advance America's foreign 
policy interests. Unfortunately, all we have come to expect is 
a saber-rattling President who embraces and provides 
legitimacies to some of the world's most notorious bad actors 
and who denigrates our closest allies, whose sons and daughters 
have gone to war alongside Americans. We have not seen any 
substantive deals or strategies that put Americans or American 
national security first. We have seen our President look weak 
as he stands beside our adversaries and intends to roll out the 
red carpet at the White House. I hear that is postponed till 
January, but nonetheless, to invite Putin to the White House, a 
thug who is actively trying to undermine our elections.
    Well, Mr. Secretary, we in this body are taking heed of our 
intelligence and law enforcement officials and working to 
protect our country from the flashing red lights of ongoing 
Russian aggression. Senator Graham and I and others plan to 
introduce legislation in the coming days to ensure we have the 
toughest tools to go after Russian bad actors.
    As of this moment, we find ourselves in an unimaginable 
situation. The American people, elected officials in this body, 
and members of the President's own cabinet have heard more 
about the meeting in Helsinki from Putin and his associates 
than from our President. We know that the Kremlin state-run 
media operations have a dubious commitment to the truth, but we 
do not know what the truth is because nobody else was in the 
room where it happened. The American people expect and I 
believe they deserve to know what happened.
    I also have serious questions about the summit in Singapore 
that took place nearly 2 months ago. In that time, we have yet 
to hear or see anything that provides us with real confidence 
that North Korea, as the President gloated, quote, ``no longer 
poses a threat to the United States'' or that we have a 
coherent strategy to achieve a verifiable denuclearization 
agreement. We have only seen a vague agreement of promises to 
make more promises but of weaker commitments that North Korea 
has previously made. The United States and North Korea seem to 
remain far apart on even basic issues such as the definition of 
denuclearization. In fact, over the past 18 months under this 
administration's watch, North Korea has perfected its 
intercontinental ballistic missiles and tested its largest 
nuclear detonation rather than any verifiable steps to 
dismantle their program. It seems Kim Jong Un got everything he 
wanted in Singapore, including international recognition and 
the suspension of U.S. military exercises.
    Now, this week's reports of dismantlement at a launching 
station may be good news, but it may simply be a signal that 
North Korea has completed all the testing it needs to. Frankly, 
the Singapore agreement seems more the art of concessions than 
the art of the deal. And we are weaker for it.
    Last week, Russia and China blocked a U.S. request to 
impose penalties on sanctions violations, calling our maximum 
pressure posture into question. As you know, I have introduced 
bipartisan oversight legislation, along with Senator Gardner, 
to provide the sort of support and guidance that this 
diplomatic effort needs and exercise the oversight 
responsibility Congress owes to the American people. Goals that 
you previously laid out before this committee are incorporated.
    Finally, let me raise one more deeply alarming issue that 
broke this week. I understand that despite its ability to stop 
this ridiculous notion, the State Department is about to allow 
Internet posting of do-it-yourself 3-D printable firearm 
blueprints. Why on earth would the Trump administration make it 
easier for terrorists and gunmen to produce undetectable 
plastic guns?
    I remain deeply concerned by the administration's 
incoherent and contradictory views. We need comprehensive 
strategies across the world because the result of the lack 
thereof is chaos and confusion or even worse.
    I recognize the President considers himself to be a 
masterful deal-maker and a very stable genius. But we need to 
call the President's statements out for what they are. At this 
point, I find him to be misleading and untruthful. So I look 
forward to your testimony to find out what the truth really is.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Mr. Secretary, we welcome you again. If you could summarize 
your comments. If you have any written materials you would like 
entered into the record, we will do so. And with that, we look 
forward to your testimony.

    STATEMENT OF HON. MIKE POMPEO, SECRETARY OF STATE, U.S. 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Pompeo Good afternoon, Chairman Corker, Ranking 
Member Senator Menendez, and distinguished members. Thank you 
for the opportunity to be with you today.
    During my confirmation hearing, you asked me to work on a 
host of world problems, and for 12 weeks, I have been doing 
just that. I hope we get a chance to talk about each of those 
today. In the last few weeks, I have been engaged in three 
areas of particular interest to this committee: North Korea, 
NATO, and Russia.
    On the subject of Russia, I want to bring something to your 
attention right off the bat today. Today the Trump 
administration is releasing what we are calling the Crimea 
Declaration. I will not read the whole thing. I will submit it 
for the record. It has been publicly released as well. But one 
part reads as follows. ``The United States calls on Russia to 
respect the principles to which it has long claimed to adhere 
and to end its occupation of Crimea.''

    [The information follows:]

                           crimea declaration


    Russia, through its 2014 invasion of Ukraine and its 
attempted annexation of Crimea, sought to undermine a bedrock 
international principle shared by democratic states: that no 
country can change the borders of another by force. The states 
of the world, including Russia, agreed to this principle in the 
United Nations Charter, pledging to refrain from the threat or 
use of force against the territorial integrity or political 
independence of any state. This fundamental principle--which 
was reaffirmed in the Helsinki Final Act--constitutes one of 
the foundations upon which our shared security and safety 
rests.
    As we did in the Welles Declaration in 1940, the United 
States reaffirms as policy its refusal to recognize the 
Kremlin's claims of sovereignty over territory seized by force 
in contravention of international law. In concert with allies, 
partners, and the international community, the United States 
rejects Russia's attempted annexation of Crimea and pledges to 
maintain this policy until Ukraine's territorial integrity is 
restored.
    The United States calls on Russia to respect the principles 
to which it has long claimed to adhere and to end its 
occupation of Crimea. As democratic states seek to build a 
free, just, and prosperous world, we must uphold our commitment 
to the international principle of sovereign equality and 
respect the territorial integrity of other states. Through its 
actions, Russia has acted in a manner unworthy of a great 
nation and has chosen to isolate itself from the international 
community.

    Secretary Pompeo. I want to assure this committee that the 
United States does not and will not recognize the Kremlin's 
purported annexation of Crimea. We stand together with allies, 
partners, and the international community in our commitment to 
Ukraine and its territorial integrity. There will be no relief 
of Crimea-related sanctions until Russia returns control of the 
Crimean peninsula to Ukraine. This Crimea Declaration 
formalizes U.S. policy of non-recognition.
    There is another indicator of diplomatic progress I want to 
mention. This morning, Pastor Andrew Brunson, who was in prison 
in Turkey for nearly 2 years, has been let out of jail in Buca. 
He is still under house arrest, so our work is not done. But it 
is welcome progress, one that many of you have been engaged in 
and something the State Department has been working on 
diligently as well. We will continue to work for the speedy 
return of all Americans unjustly held captive abroad. President 
Trump will never forget about our own.
    Our diplomacy on these issues is advancing the goals of 
President Trump's National Security Strategy, which laid down 
guiding principles for American foreign policy in December. In 
late April, I started executing on the strategy of Secretary of 
State, and today here we are and I want to present you some 
progress.
    The National Security Strategy established protecting the 
American people, the homeland, and the American way of life as 
the pillars of our national security. On July 17th, President 
Trump stated his firm conviction that diplomacy and engagement 
are preferable to conflict and hostility. These principles have 
guided our actions on North Korea. President Trump's diplomacy 
deescalated a situation in which the prospect for conflict was 
rising daily. Americans are safer because of his actions.
    As far as the Trump administration's goals on North Korea 
are concerned, nothing has changed. Our objective remains the 
final, fully verified denuclearization of North Korea, as 
agreed to by Chairman Kim Jong Un.
    As a follow-up to the President's successful summit with 
Chairman Kim, on July 5th I traveled to North Korea to make 
progress on the commitments that were made in Singapore. We are 
engaged in patient diplomacy, but we will not let this drag out 
to no end. I emphasized this position in the productive 
discussions I had with Vice Chairman Kim Yong Chol.
    President Trump remains upbeat about the prospects for 
North Korean denuclearization. Progress is happening. We need 
Chairman Kim Jong Un to follow through on his commitments that 
he made in Singapore. Until North Korea eliminates its weapons 
of mass destruction, our sanctions and those of the United 
Nations will remain in effect. Multiple U.N. Security Council 
resolutions require North Korea to eliminate all of its weapons 
of mass destruction and ballistic missile programs. Those 
resolutions were passed unanimously and they remain binding. We 
absolutely need every single nation to maintain the enforcement 
of those sanctions to which every nation has committed. The 
path ahead is not easy, but our hopes for a safer world and a 
brighter future for North Korea endure.
    The National Security Strategy also calls for peace through 
strength. President Trump's engagement on NATO has resulted in 
greater burden sharing that will strengthen the entire alliance 
against myriad conventional and unconventional threats. Allies 
have spent more than $40 billion in increased defense spending 
since 2016, and there will be hundreds of billions of dollars 
more in the years ahead.
    Last year's $14.4 billion in new spending was a 5.1 percent 
increase. It was the largest in a generation. Eight allies will 
meet the 2 percent this year; 18 are on track to do so by 2024. 
The Trump administration is demanding that every country make 
its own commitment.
    NATO will remain an indispensable pillar of American 
national security. We know weakness provokes our enemies, but 
strength and cohesion protect us. The more every NATO member 
contributes, the better the alliance can fulfill its mission of 
deterring threats to each of our nations. This is the increased 
commitment that the President wants.
    From the outset of this administration, the National 
Defense Strategy and the Russia Integrated Strategy--our 
approach has been the same: to steadily raise the cost of 
aggression until Vladimir Putin chooses a less confrontational 
foreign policy, while keeping the door open for dialogue in our 
national interest. Between our two nations, the United States 
and Russia possess over 90 percent of the world's nuclear 
weapons. President Trump believes that two great nuclear powers 
should not have a contentious relationship. This is not just in 
our interest but in the interest of the whole world. He 
strongly believes that now is the time for direct communication 
in our relationship in order to make clear to President Putin 
that there is the possibility, however remote it might be, to 
reverse the negative course of our relationship. Otherwise, the 
administration will continue imposing tough actions against 
Russia in response to its malign activities.
    We cannot make progress on issues of mutual concern unless 
we are talking about them. I have heard many of you on this 
panel say that for years and years. I am referring to key 
issues like stopping terrorism, obtaining peace in Ukraine, 
stopping the civil war in Syria and delivering humanitarian 
assistance, ensuring security for Israel, and shutting down all 
of Iran's malign activity.
    And on the subject of Iran, President Trump has said that 
Iran is not the same country it was 5 months ago. That is 
because our campaign of financial pressure, our withdrawal from 
the nuclear deal, and our full-throated support for the Iranian 
people, which I articulated in a speech this past Sunday, are 
having an impact.
    In Helsinki, we sought to explore whether Russia was 
interested in improving our relationship but made clear that 
the ball is in Russia's court. We defended America's 
fundamental strategic interests in Syria and Ukraine, and I 
personally made clear to the Russians there will be severe 
consequences for interference in our democratic processes.
    I would also add that President Trump is well aware of the 
challenges that Russia poses to the United States and our 
partners and allies. He has taken a staggering number of 
actions to protect our interests. As just a few pieces of 
proof, I would like to cite the following: 213 sanctions on 
Russian entities and individuals in the Trump administration; 
60 Russian spies expelled from the United States of America and 
the closure of Russia's consulate in Seattle in response to 
Russia's chemical weapons use in the United Kingdom; the 
closure of Russia's consulate in San Francisco, cutting U.S. 
diplomatic staffing by Russia by almost 70 percent. 150 
military exercises have been led or participated in Europe this 
year alone. More than $11 billion have been put forward for the 
European Defense Initiative. We made defensive weapons 
available to Ukraine and to Georgia, and just last week, the 
Department of Defense--this is after Helsinki--added an 
additional $200 million in security cooperation funds to 
Ukraine. None of this happened for the 8 years that preceded 
President Trump.
    If it is not enough for you, there is a long list. I am 
happy to go through them. And I am guessing sometime today I 
will get that opportunity. I look forward to it.
    Finally, I want you to know, President Trump has stated 
that he accepts our intelligence community's conclusion that 
Russia meddled in the 2016 election. He has a complete and 
proper understanding of what happened. I know. I briefed him on 
it for over a year. This is perfectly clear to me personally. I 
am also certain he deeply respects the difficult and dangerous 
work that our patriots in the intelligence community do every 
single day, and I know that he feels the same way about the 
amazing people that work at the United States Department of 
State.
    Thank you, Chairman Corker.
    [The prepared statement of Secretary Pompeo follows:]

                 Prepared Statement of Hon. Mike Pompeo

    Good afternoon, Chairman Corker, Ranking Member Menendez, and 
distinguished members.
    Thank you for the opportunity to brief you today.
    During my confirmation hearing you asked me to work on a host of 
world problems--so I did. In the last few weeks I've been engaged on 
three areas of great importance to SFRC members: North Korea, NATO, and 
Russia.
    Our diplomacy on these issues is advancing the goals of President 
Trump's National Security Strategy, which laid down guiding principles 
for American foreign policy in December. In late April, I started 
executing on the strategy as Secretary of State. And today in July I 
present to you the progress we are making.
    The National Security Strategy established ``Protecting the 
American People, the Homeland, and the American Way of Life'' as one of 
the pillars of our national security. On July 17th, President Trump 
stated his firm conviction that ``diplomacy and engagement are 
preferable to conflict and hostility.'' These principles have guided 
our actions on North Korea. President Trump's diplomacy de-escalated a 
situation in which the prospect for conflict was rising daily. 
Americans are safer today because of his actions.
    As far as the Trump administration's goals on North Korea are 
concerned, nothing has changed. Our objective remains the final, fully-
verified denuclearization of North Korea, as agreed to by Chairman Kim 
Jong Un.
    As a follow-up to the President's successful summit with Chairman 
Kim, on July 5th I traveled to North Korea to make progress on the 
commitments that were made in Singapore. We are engaged in patient 
diplomacy, but we will not let this drag out to no end. I emphasized 
this position in the productive discussions I had with Vice Chairman 
Kim Yong Chol.
    President Trump remains upbeat about the prospects of North Korean 
denuclearization. Progress is happening. We need Chairman Kim Jong Un 
to follow through on his commitments made in Singapore. Until North 
Korea eliminates its weapons of mass destruction, our sanctions, and 
those at the United Nations, will remain in effect. Multiple U.N. 
Security Council resolutions require North Korea to eliminate all of 
its weapons of mass destruction and ballistic missile programs. Those 
resolutions were passed unanimously, and are binding. We absolutely 
need every single nation to maintain the enforcement of those sanctions 
to which every nation is committed. The path ahead is not easy, but our 
hopes for a safer world--and a brighter future for North Korea--endure.
    The National Security Strategy also calls for ``Peace through 
Strength.'' President Trump's engagement on NATO has resulted in 
greater burden sharing that will strengthen the entire alliance against 
myriad conventional and unconventional threats. Allies have spent $41 
billion in increased defense investment since 2016.
    Last year's $14.4 billion in new spending, a 5.1 percent increase, 
was the largest in a generation. Eight allies will meet the 2% pledge 
this year, and eighteen are on track to do so by 2024.
    NATO will remain an indispensable pillar of American national 
security. We know weakness provokes our enemies, but strength and 
cohesion protect us. The more every NATO member contributes, the better 
the Alliance can fulfill its mission of deterring threats to our 
nations. This increased commitment is what the President wants.
    From the outset of this administration, as outlined in the National 
Security Strategy, the National Defense Strategy, and the Russia 
Integrated Strategy, our approach has been the same: to steadily raise 
the costs of aggression until Vladimir Putin chooses a less 
confrontational foreign policy, while keeping the door open for 
dialogue in our national interest. Between our two nations, the U.S. 
and Russia have 90% of the world's nuclear weapons. President Trump 
believes that two great nuclear powers should not have such a 
contentious relationship. This is not just in our interest, but in the 
interest of the whole world. He strongly believes that now is the time 
for direct communication in our relationship in order to make clear to 
President Putin that there is the possibility to reverse the negative 
course of our relationship. Otherwise, the administration will continue 
imposing tough actions against Russia in response to its malign 
activities.
    We can't make progress on issues of mutual concern unless we are 
talking about them. I am referring to key issues like stopping 
terrorism, obtaining peace in Ukraine, stopping the civil war in Syria 
and delivering humanitarian assistance, ensuring security for Israel, 
and shutting down all of Iran's malign activity.
    On Iran, President Trump has said that ``Iran is not the same 
country it was five months ago.'' That's because our campaign of 
financial pressure, our withdrawal from the nuclear deal, and our full-
throated support for the Iranian people, which I articulated in a 
speech this past Sunday, are having an impact.
    In Helsinki, we sought to explore whether Russia was interested in 
improving the relationship, but made clear that the ball is in Russia's 
court. We defended America's fundamental strategic interests in Syria 
and Ukraine, and I personally made clear to the Russians that there 
will be severe consequences for interference in our democratic 
processes.
    I would also add that President Trump is well-aware of the 
challenges that Russia poses to the United States and our partners and 
allies. And he has taken a staggering number of actions to protect our 
interests. As just a few pieces of proof that President Trump holds 
Russia accountable when warranted, I cite, as a sample:

   the 213 sanctions we have imposed on Russian entities and 
        individuals,

   the 60 Russian spies expelled from America and the closure of 
        Russia's consulate in Seattle in response to Russia's chemical 
        weapons use in the U.K.,

   the closure of Russia's consulate in San Francisco, in response to 
        Russia's cutting U.S. diplomatic staffing in Russia by almost 
        70 percent,

   the 150 military exercises we have led or participated in in Europe 
        this year alone,

   the more than $11 billion we have put forward for the European 
        Deterrence Initiative,

   and the defensive weapons we have helped make available to Ukraine 
        and Georgia.

   And just last week the Department of Defense announced an 
        additional $200 million in security cooperation funds to 
        Ukraine.

    If that is not enough for you, I brought a long list with me today 
of other actions the administration has taken in response to Russian 
malign activity.
    Additionally, I want to assure this Committee that the United 
States does not, and will not, recognize the Kremlin's purported 
annexation of Crimea. We stand together with allies, partners, and the 
international community in our commitment to Ukraine and its 
territorial integrity. There will be no relief of Crimea-related 
sanctions until Russia returns control of the Crimean peninsula to 
Ukraine. To this end, today we are formalizing United States policy of 
non-recognition by releasing a Crimea Declaration.
    Finally, President Trump has stated, ``I accept our intelligence 
community's conclusion that Russia's meddling in the 2016 election took 
place.'' He has a complete and proper understanding of what happened. 
This is perfectly clear to me personally based on the many hours I have 
spent briefing President Trump on Russia-related issues as CIA Director 
and Secretary of State.
    I am also certain he deeply respects the difficult and dangerous 
work that our patriots in the intelligence community do every single 
day.
    I'm now happy to take your questions.

    The Chairman. Thank you very much.
    The Secretary's staff has asked that we absolutely stay to 
the 7-minute deal. So if we could not ask five-part questions 
and end at 6:58, if you give the respondent time to answer 
within the 7 minutes too, I would appreciate it.
    With that, I will defer to Senator Menendez. I withhold my 
time for interjections along the way. Senator Menendez?
    Senator Menendez. Well, thank you, Mr. Chairman.
    Mr. Secretary, when the President meets alone with 
President Putin, it allows the Kremlin-sponsored state media 
and the Russian Ministry of Defense to provide more 
information, at least from their perspective, not only to the 
American people, but sometimes it seems to the members of the 
President's own cabinet. So I would like to ask you some 
questions to get to understand what actually happened.
    Has the President told you what he and President Putin 
discussed in their 2-hour closed door meeting in Helsinki?
    Secretary Pompeo. The Presidents have a prerogative to 
choose who is in meetings or not. I am confident you have had 
private one-on-one meetings in your life as well. You have 
chosen that setting as the most efficient way to----
    Senator Menendez. I just asked you a simple question. Did 
he tell you whether or not--what happened in those 2 hours?
    Secretary Pompeo. Yes, Senator. The predicate of your 
question implied some notion that there was something improper 
about having a one-on-one meeting. I completely disagree with 
the premise of your question.
    Senator Menendez. I did not ask you a predicate. I asked 
you a simple question. I hope we are going to get through it. 
Did he tell you what transpired----
    Secretary Pompeo. I have had a number of conversations with 
President Trump about what transpired in the meeting. I was 
also present when he and President Putin both gave us a sense 
of what they discussed in the meeting that followed immediately 
after. I have also had the chance to speak with Sergey Lavrov 
twice about the Russian view on what took place. I think I have 
a pretty complete understanding of what took place in that 
meeting.
    Senator Menendez. Good. Did you speak to the translator who 
was at that meeting?
    Secretary Pompeo. No, I have not.
    Senator Menendez. Have you seen any of her notes?
    Secretary Pompeo. Senator, I have never--I have been in 
lots of meetings. I have had lots of notetakers and lots of 
translators. I have never relied on the work that they did to 
understand what took place in that meeting, and it does not 
need to done here.
    Senator Menendez. Did the President discuss----
    Secretary Pompeo. And it will not be.
    Senator Menendez. Did the President discuss relaxing U.S. 
sanctions on Russia, including CAATSA sanctions?
    Secretary Pompeo. Senator, the U.S. policy with respect to 
sanctions remains completely unchanged.
    Senator Menendez. So the President did not--is what you are 
telling me--I asked a very specific question.
    Secretary Pompeo. Yes, Senator, and I gave you a very 
specific answer.
    Senator Menendez. Did the President tell you that he 
discussed relaxing Russia sanctions or not? Yes or no?
    Secretary Pompeo. Senator, Presidents are entitled to have 
private meetings. I am telling you what U.S. policy is. I came 
here today----
    Senator Menendez. No. But you told me that you had a 
conversation----
    Secretary Pompeo. That is right.
    Senator Menendez. --in which he told you what transpired. I 
think the nation and all of us who are policymakers deserve to 
know so that we can fashion policy accordingly. Did he tell 
Putin that I will release or ultimately relax sanctions?
    Secretary Pompeo. Senator, what you need to conduct your 
role, your appropriate role, I will provide you today, that is, 
United States policy with respect to the issues you request. 
You asked me about U.S. policy with respect to sanctions, and I 
can confirm to you that no commitment has been made to change 
those policies in any way.
    Senator Menendez. Did the President at this meeting call 
upon President Putin to withdraw from Crimea and eastern 
Ukraine?
    Secretary Pompeo. Senator, I began my statement today with 
the United States Government's policy with respect to Crimea.
    Senator Menendez. I understand the declaration. I welcome 
it. I am glad--it seems like we had to do a lot of effort to 
get there, but the question is, when he had a chance, did he 
confront Putin and say we do not recognize your annexation of 
Crimea, we do not recognize your continuing hostilities in 
eastern Ukraine, and there are consequences for that?
    Secretary Pompeo. Senator, the President was very clear 
with Vladimir Putin about U.S. positions. They are the U.S. 
positions that are the Trump administration's positions, and he 
spoke about them very firmly and clearly when he met with 
Vladimir Putin.
    Senator Menendez. And he told you that.
    Secretary Pompeo. Senator, I am telling you what he had a 
conversation with Vladimir Putin about, and I am telling you 
what U.S. policy is today. Senator, I understand the game that 
you are playing.
    Senator Menendez. No, Mr. Secretary, with all due respect, 
I do not appreciate you characterizing my questions. My 
questions is to get to the truth. We do not know what the truth 
is. And the only way that we will know what the truth is, what 
transpired in those 2 hours, a highly amazing period of time to 
spend alone one-on-one, is by understanding at least that if 
you were briefed by the President, what he told you. I do not 
think that is unfair to know, to understand what policy is.
    Let me ask you this. Did the President say that we are 
going to change our force structure in Syria?
    Secretary Pompeo. Senator, Presidents are permitted to have 
conversations with their cabinet members that are not repeated 
in public. I owe the President the capacity for him to have 
conversations with him, provide him the best foreign policy 
advice that I can. It is what I was brought on to do.
    Senator Menendez. Let me ask you, Mr. Secretary. Here is 
something you can answer for me because you are not going to 
answer any of the questions that would get us to the truth.
    As CIA Director, you stated in an interview with the BBC 
that you fully expect Russia to continue its attacks on our 
democracy by attempting to interfere in our midterm elections 
as we speak. In his conversation with Putin, I hope the 
President laid out the consequences of interference in the 2018 
election. But I know you cannot tell me that.
    Secretary Pompeo. Actually I can tell you that.
    Senator Menendez. Okay. You want to share that one with me.
    Secretary Pompeo. No, I cannot----
    Senator Menendez. That one you want to share with me?
    Secretary Pompeo. No, Senator, I can tell you that because 
the President has disclosed that. The President disclosed what 
he said to Vladimir Putin about Russian interference in our 
elections, and he said that he is confident that as a result of 
that conversation, Vladimir understands that it will not be 
tolerated.
    Senator Menendez. I wish he had said that in public in 
Helsinki.
    Let me ask you this. Senator Graham and I and others are 
working on a new bill to hold Russia accountable. Given that 
you assert the administration is tough on Russia, will you 
commit to working with us on a new Russia sanctions bill?
    Secretary Pompeo. Yes, sir.
    Senator Menendez. Thank you.
    North Korea. When you last appeared, I asked you a series 
of critical questions about what is our policy in North Korea, 
and to your credit, I must say that I largely agreed with what 
our goals are.
    Now I want to ask you, since we have not heard anything, 
not a classified briefing, not anything as it relates to North 
Korea, did North Korea agree with our definition of 
denuclearization, meaning the dismantlement, removal of all 
nuclear weapons, facilities, technology, and material from 
North Korea?
    Secretary Pompeo. I think I can answer your question, but 
let me begin by saying I am engaged in a complex negotiation 
with the North Koreans, so I do not intend in this public 
setting to share the details of every conversation that took 
place in those. But I will attempt to answer your questions 
without disclosing the contents of the negotiation.
    I am very confident that the North Koreans understand our 
definition of denuclearization, a very broad one that goes from 
infrastructure and nuclear warheads through chemical, 
biological weapon----
    Senator Menendez. We understand it because you laid it for 
the record.
    Have they agreed with you that that is the definition----
    Secretary Pompeo. I believe they thoroughly understand 
that.
    Senator Menendez. They understand it, but they did not 
agree.
    Did they agree to end their production and enrichment of 
uranium and plutonium for military programs?
    Secretary Pompeo. Senator, I would welcome the chance to 
respond to your questions. If you would let me finish----
    Senator Menendez. It is a simple yes or no.
    Secretary Pompeo. --I think it would be most illuminating 
for the folks watching.
    Senator Menendez. It is a simple yes or no.
    Secretary Pompeo. Could you repeat the question, please, 
Senator. It was the previous question I did not have a chance 
to answer.
    Senator Menendez. Surely. Did North Korea agree to end the 
production and enrichment of uranium and plutonium for military 
programs?
    Secretary Pompeo. They have agreed to denuclearize fully. 
Yes, Senator. And it certainly includes the full range of----
    Senator Menendez. I would love for you to come to a 
classified setting and tell all members what exactly transpired 
because we do not know.
    The Chairman. Thank you.
    Senator Risch?
    Senator Risch. Mr. Secretary, thank you for doing this job. 
The President made a wise decision appointing you as Secretary 
of State, and you are acquitting yourself very well here today 
and we appreciate that. You have always been straightforward 
with us, and I appreciate that. I know many of my colleagues--
not all, but many of my colleagues fully appreciate that.
    Secretary Pompeo. Are you prepared to say ``most,'' 
Senator, or are you just going to go with ``many''?
    Senator Risch. I am going to stay with ``many.''
    [Laughter.]
    Senator Risch. Let me say that as far as what happened at 
the NATO summit, very few Americans heard anything except the 
argument that went on about funding. Now, I know the President 
believes and I know you believe and I believe and I think most 
everyone believes that NATO is the most successful military 
alliance in the history of the world. And as you pointed out, 
it is certainly one of the pillars of our national security and 
one that we need to support and one that we need to work well.
    There are very few downsides of NATO, but there is one 
blemish. And the President has underscored that publicly and 
well. His predecessor attempted to do it. All their 
predecessors attempted to do it. All those of us that meet with 
the Europeans from time to time underscore it, and that is the 
funding, or the lack thereof, that the Europeans have done. 
Only eight of the NATO nations are actually meeting the 
commitment of 2 percent. First of all, the President is to be 
commended for underscoring this, as only he can do in his 
unique way, and actually getting them to start talking about 
and now finally starting to agree to that.
    But there were other things that were lost as far as that 
meeting is concerned, and I would like you to talk about those 
things for a few minutes.
    Number one is on the deterrence side, the four 30s 
commitment to increase NATO readiness and speed up the time it 
takes allies to assemble and deploy forces. And that is a huge 
step forward.
    The efforts to improve mobility and establish a process to 
enhance the speed at which NATO can make decisions.
    The fight against terrorism and increase in allied 
resilience against terrorist threats through a new framework to 
share biometric data is a major accomplishment.
    And finally, the opportunity for Macedonia to receive an 
invitation to join NATO and fulfill the promise from the 
Bucharest summit. That was a positive step for the alliance and 
for the Balkans.
    Could you comment on those very important steps forward 
that happened at this NATO summit?
    Secretary Pompeo. Senator Risch, it was an incredibly 
productive NATO summit. From my conversations with Secretary 
General Stoltenberg, he said among the most productive that he 
had ever been part of, and he has been doing this a little 
while.
    You talked about the four 30s, 30 squadrons, 30 battalions, 
and 30 naval combatants ready to go in 30 days. It is something 
NATO has not been able to do for quite some time. There is now 
a real commitment. We have to follow through to make sure that 
the implementation of that occurs. It would be a great thing to 
deter Russia if we can get those countries and our allies to 
get to that level.
    You talked about the increase in burden sharing. It seemed 
to get all the focus. It is certainly important that the 
Europeans are as committed to deterring Russia as the United 
States of America and need to demonstrate that through their 
defense not only dollars but readiness as well. We have seen 
reports about the absence of German readiness. They need to 
truly be ready.
    The President also raised another issue about energy and 
energy security at the NATO summit. He talked about the 
Nordstream 2 pipeline and the risk that that creates to the 
alliance in the event that Russia should decide to use energy 
as a weapon to coerce either formally or informally Germany or 
other European countries. He raised it to the forefront, and 
frankly, there are European countries that understand that risk 
and support America and our position on that as well.
    And then finally you talked a little bit about the NATO 
mission, its new role in fighting terrorism. I want to say 
thanks to so many of the European countries that have stepped 
forward. Even just this past few--I guess it is now 2 weeks 
since the NATO summit--over 1,000 additional commitments from 
allied NATO partners headed to assist us in Operation Resolute 
Support in Afghanistan. That is a great commitment, something 
that President Trump worked hard on at the summit and really 
good outcomes for America.
    Senator Risch. Well, thank you so much. You are to be 
personally commended for those great successes, as is the 
President, for leading in that regard.
    It is unfortunate that our friends and allies' feathers 
were ruffled a little bit just because we said they were not 
paying their bills, but that has been going on for some time 
and I think we are going tolerate that. But they have got to 
step up, and I know you underscored that and the President has 
certainly underscored that with them.
    I want to talk about Iran for just a moment. One of the big 
unreported stories as far as foreign relations is concerned is 
the issues and the difficulties that the Iranian people are 
having internally, financially and otherwise. And I know we are 
not in a classified setting, but there is some open reporting 
on these sources. And the regime that is there is struggling 
with this. Indeed, I think that is probably why they tried to 
poke the President the other day to try to take the heat off, 
the heat they are getting at home.
    Could you talk a little bit about what is going on 
internally, again knowing that we are in an open setting?
    Secretary Pompeo. Senator, there is an enormous economic 
challenge inside of Iran today. It is an economic structure 
that simply does not work. When you are a country of that scale 
that foments terror through Lebanese Hezbollah, through Shia 
militias in Iraq, into Yemen, conducts assassination attempts 
in European countries, provides enormous support for Hafez al-
Assad outside of Lebanese Hezbollah in Syria, that is 
expensive.
    And I think the Iranian people are beginning to see that 
that is not the model that they want, that the Iranian 
expansionism that the Supreme Leader and Qasem Soleimani so 
favor is not what they are looking for. And I think you are 
beginning to see the economic impact combined with 
understandings inside of Iran of the kleptocracy that it is 
leading to fundamental decisions that the Iranian people will 
ultimately have to make.
    Senator Risch. Do you agree with me that that acceleration 
of that understanding by the Iranian people has been very rapid 
over the last 6 months?
    Secretary Pompeo. Yes. I think it has been going on longer 
than that, but yes.
    Senator Risch. It has been going on longer, but I am 
talking about the acceleration.
    Secretary Pompeo. Yes, Senator, I think that is a fair 
statement.
    Senator Risch. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. If I could, just one interjection. I know the 
phrase ``paying their bills'' has been used, and every NATO 
country needs to be contributing 2 percent to defense. And I 
have noticed those near the Russian border always do. But that 
is a misnomer, is it not? What we want them to do is contribute 
at least 2 percent. These NATO countries are not paying bills 
to the United States, as sometimes is projected. Is that 
correct?
    Secretary Pompeo. The shortfalls that the President 
identified really are in two buckets. There is a NATO common 
fund that is contributed to by every nation, and the United 
States is, by far, the largest contributor to that fund. And 
then there are monies that are paid for nations to raise their 
own militaries and to defend themselves. That is the 2 percent 
number to which we have been referring.
    The Chairman. Right, right. But it would be a 
mischaracterization to make it appear that they are not paying 
bills to the United States.
    Secretary Pompeo. That is correct, Senator. That is 
correct.
    The Chairman. Senator Cardin?
    Senator Cardin. Mr. Secretary, thank you for being here.
    It is my understanding that the President is going to 
invite Mr. Putin to the United States to follow up on the 
understandings reached in Helsinki. Can you just briefly tell 
me what those understandings or agreements reached in Helsinki 
at the meeting are?
    Secretary Pompeo. Sure. I can certainly share with you the 
things that we have been tasked to follow up on by President 
Trump following that meeting. There is a handful.
    So there is an agreement to establish some business-to-
business leadership exchanges as historically had been 
undertaken but have fallen away. These would be business 
leaders that would participate in this. I understand that this 
went on for years and years and was ceased a handful of years 
ago.
    Senator Cardin. If we could do it briefly. I understand you 
want to give a complete thing, and I appreciate that.
    Secretary Pompeo. It is what you asked for.
    Senator Cardin. I understand that. Business-to-business. 
Next issue?
    Secretary Pompeo. The President asked us to look at 
reestablishing a counterterrorism council that was held at the 
level of the Deputy Secretary of State for many years, but had 
also ceased to happen. I think at this point I think that makes 
sense----
    Senator Cardin. Counterterrorism cooperation.
    Secretary Pompeo. We are working to see in Syria what are 
the possibilities that can be achieved so that the now between 
6 million and 7 million externally displaced persons have the 
opportunity to return. We made clear this should happen through 
the political process in Geneva. But we are working to see if 
we cannot get Russia to be more cooperative in terms of driving 
towards a political resolution there that would take down the 
violence levels and create some opportunity to begin a 
political resolution of the process in Syria.
    Senator Cardin. Any discussions on sanctions? You said 
there was no easing of the sanctions.
    Secretary Pompeo. No, Senator, no easing of the sanctions.
    Senator Cardin. Was there any discussion about Magnitsky? 
Because certain names associated with Magnitsky came out in 
Helsinki. Was there any discussion with the President on the 
Magnitsky sanctions?
    Secretary Pompeo. No. There has been no change in U.S. 
policy with respect to Magnitsky.
    I think I know what you are referring to. Let me make 
clear. The United States will defend our team in the field and 
the team that has been in the field when it retires and leaves 
the field. We understand that Americans deserve the protection 
of the United States of America both during their time in 
service and thereafter.
    Senator Cardin. Was there any agreements reached in regards 
to Ukraine?
    Secretary Pompeo. No, Senator. That is an agree to 
disagree. That is, the U.S. policy has not changed and you can 
see that. Right? $200 million since the Helsinki summit 
provided to the Ukrainians. I think there was lots of concern, 
and I saw it. I could find you all's quotes if you would like 
me to go drag them out--concerns that President Trump would 
make a change in position with respect to Ukraine.
    Senator Cardin. And you made that clear.
    Secretary Pompeo. And there is none. It is a policy that 
the previous administration refused to undertake. So I hear 
comparative--it is important, Senator. Comparison matters here 
because there is a narrative that has developed that somehow 
President Trump is weak on Russia, when in fact the converse is 
true.
    Senator Cardin. I heard you talk and brag about the number 
of sanctions----
    Secretary Pompeo. Senator, these were just facts.
    Senator Cardin. The fact is that the Congress passed the 
CAATSA statute that required sanctions to be imposed, and there 
are sanctions that are to be imposed under CAATSA that have not 
been imposed. And the facts are the administration has sought a 
waiver in regards to CAATSA in regards to the National Defense 
Authorization Act. So I just really want to point out--and we 
have had this from previous administrations, but not as much as 
we are hearing today, that what Congress is requiring you to do 
all of a sudden you found religion and have taken credit for 
it. But in reality you have not implemented on time the 
sanctions that have been passed by Congress.
    Secretary Pompeo. Senator, first, well, that is not true. 
We have passed a number of sanctions under the CAATSA 
provisions and it is also true--at least my best recollection 
of the Constitution is the President signed that law as well . 
. .
    Senator Cardin. And he complained when he signed it.
    Secretary Pompeo. . . . So I thank you for presenting that 
law. We appreciate it. We think it makes good sense. The 
President signed it as well. We have passed sanctions under 
that very law, and we have passed sanctions previous 
administrations did not do.
    Senator Cardin. Please read the President's comment when he 
signed the law because it is very interesting--his comments.
    Let me move on to our policy in regards to nuclear 
proliferation in Iran and in North Korea because I am having a 
hard time understanding the comparison between these two 
countries.
    In North Korea, we have a country that has a nuclear 
weapon. The President has met with the leader of that country 
and has at least given a signal to some countries that in fact 
there may be relaxation of those. We are having problems with 
China today, as I understand.
    In Iran, we had a commitment for a short-term ending of 
their nuclear program. We were able to isolate Iran, getting 
the support of China, Russia, and Europe. And we were able to 
keep the temperature down in regards to their nuclear program. 
Now by pulling out, we are now seeing we do not have any 
commitments on the short term if Iran walks away from the 
agreement because there are already sanctions now under the 
United States. We have been isolated, not Iran. And of course, 
Iran today was not pursuing a nuclear program. I agree with you 
there may be long-term issues.
    So I am having a hard time understanding our strategy in 
regards to preventing nuclear proliferation.
    The last point I would make. We had a hearing in this 
committee as to what is necessary to move forward with North 
Korea on giving up nuclear weapons. And the first thing they 
talked about, you have to have a full declaration of its 
nuclear arsenal and a timeline for dismantling. And I am 
getting my information now from the South Koreans, not from the 
Americans. The South Koreans have been reported to say that you 
asked for that information and you have not been able to get 
that information from Kim Jong Un or his representatives.
    So what have we gotten in North Korea, and why are we 
allowing North Korea to continue to have a nuclear weapon when 
the strategy is that as long as Iran is doing any types of 
enrichment, we are going to impose sanctions against them?
    Secretary Pompeo. Senator, let me try--that was a long 
question. Let me try and unpack it a little bit.
    So let me give you the common theme. We want neither Iran 
nor North Korea to have the capacity to proliferate nuclear 
weapons, to enrich uranium, or build their own weapons program. 
That is the mission set. It draws them together. That sets the 
conditions for President Trump's understanding of how one 
achieves nonproliferation in the world, and that is the 
missions we are undertaking in each of those two countries. 
They are in different places, and we are working on an approach 
in each place that we think increases the likelihood that we 
are able to successfully achieve that, a mission I know you 
share.
    The Chairman. Before turning to Senator Rubio, a second 
interjection. I know mention was made of a waiver in the NDAA 
by Senator Mattis--I mean, Secretary Mattis. Yes, he would not 
want to be demoted to that level I know. But I support that. 
And the purpose of that waiver, was it not, was to allow 
countries that we are dealing with that we wish to buy American 
military equipment to be weaned off Russian equipment. They 
still had to buy parts to do so, so that we can more fully 
implement strategies with them, working with them to really 
push back against other countries? Is that correct?
    Secretary Pompeo. Senator Corker, you captured it very 
well. Secretary Mattis and I both put forward this proposal, a 
request to the Senate for these waivers. These are countries 
that have historic Russian weapon systems. If we deny them to 
have the capacity to have spare parts or to round out that 
process, then we are likely to drive them into the hands of the 
Russians. I do not think that was the aim of the sanctions 
themselves, and so we are working to effectuate the intent of 
the statute by seeking this waiver. It is pretty narrow.
    The Chairman. Senator Rubio?
    Senator Cardin. Would the chairman yield so I could clarify 
that?
    The Chairman. Rubio may yield. Go ahead.
    Senator Cardin. My point is that this is an issue we talked 
about in the development of the CAATSA bill. There was 
absolutely no debate in this committee on the waiver request by 
the administration. I disagree with our distinguished chairman 
as to whether it was handled right. The countries had over a 
year to resolve that.
    The Chairman. Yes. It had become an acute issue, and it is 
a defense-related issue. And I am glad that we have been able 
to resolve it in a manner that will allow these countries to 
wean off Russian equipment and begin buying ours.
    Senator Rubio?
    Senator Rubio. Thank you. Just watching to see if they 
reset my clock. It is like an NBA game.
    The Chairman. Reset the clock.
    Senator Rubio. That is all right. We will figure it out. I 
will tell you when the time is up. Do not worry.
    When Vladimir Putin decided to interfere in our elections, 
you would agree he undertook a cost-benefit analysis. This is 
what the price would be for doing this. This is the benefit I 
think I would gain from it.
    And so where it leaves us is we have to do two things. We 
have to defend against potential interference, election systems 
and the like. But I think the other is we have to make sure 
that the price is higher than the benefit.
    And that actually points to one of the things you have 
already mentioned and that is what we have already done. If you 
start to line up some of the things that we have done in 
response to that and other things, it is a pretty extensive 
list, including things we have been asking for, for 4 years 
that have finally happened: the Javelin anti-tank missiles for 
Ukraine and Georgia, the support of NATO's new posture in 
Central and Eastern Europe, the variety of designations under 
both Ukraine and cyber-related executive orders that were from 
the Obama administration, sanctions under CAATSA and others 
more to come for cybersecurity, several rounds of designation 
of individuals for weapons proliferation, terror and 
transnational crime, export restrictions on entities that 
violated the INF Treaty. We closed consulates in San Francisco 
and in Seattle. We closed an annex in DC. We closed the trade 
office in New York after the poison nerve gas attack in the 
U.K. We have expelled 60 other diplomats. All of those things 
happened under this administration, and these are pretty 
substantial, including the sanctions.
    But, obviously, even that price is not high enough because 
the intelligence community continues to tell us that they are 
postured and are actively engaged in both attacking our 
democracy and posturing to do more of that in the future.
    So my question is along the lines of a piece of legislation 
that Senator Van Hollen and I and a group of other Senators 
have jumped on board on, and it aims to do three things. One is 
sort of define interference. It is not just five Russian guys 
on Twitter. I mean, define it in terms of its meaning to our 
republic. Require the Director of National Intelligence to 
issue a report within 30 days of the election about whether or 
not interference occurred. And then put in statute a menu of 
very crippling sanctions. And the purpose of that would be so 
that Vladimir Putin knows before he makes this decision going 
to 2018 or in the future this is the price I will pay if I do 
this again. That is why it is called the DETER Act to get on 
the front end of it.
    I do not ask you to opine on the bill because I know you do 
not have it before you, but on the concept of building in 
deterrence on the front end, is that not an approach that we 
can take to hopefully deter him from doing this in the future 
by making him clearly understand how high the price would be in 
comparison to the benefit?
    Secretary Pompeo. Senator, I completely agree with you that 
there is a cost-benefit calculation that is undertaken before 
the Russians act. So it follows necessarily that putting on 
notice with essentially a failsafe, if you will, about things 
that will follow has the likelihood of being successful in 
raising the costs in terms of how he calculates risk associated 
with a wide range of actions.
    Senator Rubio. You will be asked plenty about Russia, so I 
do not want to undermine that. But I think the single biggest 
national security threat in the long term to the United States 
is China. I mean, for the first time since the end of the Cold 
War, we are in competition with a near peer adversary. And it 
is not just military. It is economic. It is technological. It 
is geopolitical and the like. We have seen their impressive and 
massive military buildup, the quantum leaps they are making in 
technology. We see that the work they are undertaking to sort 
of destroy the U.S. world order and rebuild it to one more of 
their liking. We have seen the gains they have made on 5G 
alone. I mean, China Mobile will be the only company in the 
world that can build standalone 5G networks by 2020. And what 
is really outrageous is many of these advances are not the 
result of hard work and ingenuity. They are also the result of 
intellectual property theft, forced transfers, and the like.
    This is part of a tactic that they have been using for a 
while. And I think the South China Sea is a great example of 
it. They do not make these big, sweeping changes. It is sort of 
a sustained sort of slow and incremental but more assertive 
demands each time creating new normals along the way. And what 
they have done in the South China Sea is evidence of that.
    And the only ways that seems to work in response to their 
aggression are two things. The first is committed and sustained 
escalation across the relationship, meaning you do not carve 
out pieces of it. They do it that way. We have to do it that 
way. Our whole relationship, sustained and committed pressure. 
And the other is invoking the help of our foreign partners.
    And what I am troubled by in regards to the administration 
posture on this is invoking the help of our foreign partners 
has become complicated because we are currently engaged with 
trade disputes with the EU and Japan, Mexico, and Canada, which 
we should have teamed up with to confront them. And I 
understand that trade is an issue that needs to be addressed, 
but I do not know why we did not address China first together 
and then dealt with our allies second.
    And the other is the sustained and committed escalation 
across the entire relationship. And on that front, I am puzzled 
by the decision the administration made on ZTE. And I know that 
was not a State Department decision. It was a Commerce one. 
Because I agree that if the ZTE issue was simply a sanctions 
violation, the penalties imposed have been devastating. But ZTE 
is more than a sanctions threat to the United States. It is 
part of a broader telecommunication threat that the Chinese 
industries pose to the United States. And to threaten to shut 
them down and then pull back from it is not the sort of 
committed and sustained escalation across the entire 
relationship. The carving out of one company sends them the 
message that they can pick away at different parts of that 
relationship and undermine our willingness to sustain pressure 
on them to get a better equilibrium.
    So I do not know what the State Department's role was in 
that decision, but moving forward, what is our broader 
strategic approach to the threat that China poses? Because they 
do not seek parity. They seek to overtake us.
    Secretary Pompeo. Senator, you have laid out what I think 
is the principal challenge for the United States over the 
coming years, maybe a decade, the issue of China. They have got 
a lot of folks and a big economy. That puts them in the 
position to be a competitor of the United States in a way a 
country like Russia with an economy smaller than Italy's cannot 
maintain over some period of time. And so we do need a broad, 
comprehensive response.
    And I think all of the West, not just the United States, 
was too slow in seeing this. Your point about how they turned 
up the heat slowly over time. I think that recognition is 
there, but I do not believe that the structures are in place 
today to respond to that comprehensively.
    I was with Australian partners yesterday at a meeting with 
Secretary Mattis and myself and our Australian counterparts. 
They too--they just passed a set of non-interference rules on 
China. They are getting up to speed in the same way that as you 
all took a look at CFIUS and FIRRMA. We are getting up to 
speed. We are beginning to strike that comprehensive response 
versus China that I think will ultimately do what has 
historically happened, allow America to prevail.
    Senator Menendez. Thank you very much.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Mr. Secretary, I want to thank you, Assistant Secretary 
Mitchell, and our charge in Turkey, Phil Kosnett, for your hard 
work and coordination on the efforts to release Pastor Brunson. 
As you pointed out, his move from prison to house arrest is a 
positive development. Obviously, we have a lot more work to do 
in terms of getting him back to the United States and also 
pressing the Turkish Government to release the other Americans 
that they are holding. But it is a positive step, and thank you 
for that.
    I am concerned, Mr. Secretary, because it has been 1 week--
a little over a week--since the Helsinki meeting between 
President Trump and Vladimir Putin, and yet other than the 
brief description you just gave us, we do not really know what 
was discussed in that meeting. We have heard DNI Coats, General 
Votel, and a number of State Department officials, including 
those who were present in last week's committee meeting on 
Iran, indicate that they still do not have a full understanding 
of what was discussed in that meeting. And we are seeing almost 
daily attempts by the Kremlin to take advantage of this 
opportunity as they release their own readouts of the 
conversation and broadcast news of various agreements that they 
say were reached in that meeting. So for me, that is why I am 
so concerned and why I want to know exactly what was agreed to 
in that meeting.
    On Syria, President Trump said at his joint news conference 
that the two leaders discussed Syria at length. The Russian 
Ministry of Defense has indicated that the two leaders agreed 
to military cooperation in Syria. Did they do that?
    Secretary Pompeo. Senator, the United States policy with 
respect to de-confliction with Russia has not changed. I will 
defer to the Department of Defense for details around that, but 
I can tell you that the policy that was in place with respect 
to their efforts to keep American pilots safe and keep American 
forces safe in Syria--that policy has not changed.
    Senator Shaheen. Do you know if they discussed that policy?
    Secretary Pompeo. Senator, I do know that they discussed 
Syria. They absolutely discussed Syria. The focus of that 
discussion--I think President Trump assured this was an effort 
to find a political resolution there and to get the displaced 
persons the opportunity to return to Syria.
    And I think the President has talked about one more item. 
So as the President shared it, I feel like I can as well. I 
think he also talked about America's continued commitment to 
ensure that Israel was secure from threats in Syria as well, 
and that topic was discussed by them as well. I think the 
President has previously shared that.
    Senator Shaheen. Do you know if there was any sort of 
downgrading of our U.S. presence in Syria that was discussed?
    Secretary Pompeo. Senator, there has been no change in U.S. 
policy with respect to our activities in Syria.
    Senator Shaheen. I understand, but that is not exactly the 
question I am asking.
    Secretary Pompeo. Senator, it is what matters. It is what 
matters. What matters is what President Trump has directed us 
to do following his meeting with Vladimir Putin. It is that he 
has told his senior leadership team to do and how he wants us 
to deploy his foreign policy strategy.
    Senator Shaheen. And do you know if the frozen 
stabilization funds for Syria, the $200 million--was that ever 
discussed?
    Secretary Pompeo. Senator, we are still working to review 
that policy. That is a State Department policy. We are still 
working to review it. The policy was the same day before as it 
was the day after the President's meeting with Vladimir Putin.
    Senator Shaheen. And do you know if Iran was referenced in 
the context of Syria in their discussions?
    Secretary Pompeo. Senator, again, it is not for me to 
disclose the contents of those conversations. I can tell you 
that each time I have spoken with President Trump both before 
the Helsinki summit and after, Iran has been a central point 
that we have focused on with respect to U.S. policy in Syria. 
It, I am confident, will remain so.
    Senator Shaheen. So in an interview, General Votel was 
asked about whether a deal had been made on Syria between 
President Trump and Vladimir Putin. And he said, as you 
indicated, that he had received no instructions to change what 
he is doing. And he went further on to say--and I quote--``I 
would want to make sure that this is not something that we 
stepped into lightly. I am not recommending that, and that 
would be a pretty big step at this point.''
    In response to his comments, the Russian Ministry of 
Defense put out a statement and also posted on social media--
and again, I am quoting the Russian media. They say--ministry, 
I mean. With his statements, ``General Votel not only 
discredited the official position of his supreme commander-in-
chief but also exacerbated the illegality under international 
law and U.S. law of the military presence of American service 
men in Syria.''
    Can you tell me what our response has been to the Russian 
Ministry of Defense with respect to this statement?
    Secretary Pompeo. Senator, my guess, the response would be 
most appropriately from the Department of Defense and not from 
the Department of State. But I will humbly suggest to you that 
you ought to have more confidence in statements from General 
Votel than the Russian Ministry of Defense.
    Senator Shaheen. I do have more confidence in General 
Votel's statement. That is why I am raising this question 
because it seems to me that our response to the Russian 
Ministry of Defense ought to be very strong to say they have 
nothing to say about what our generals are doing in Syria. That 
is not their business. That is our business. And I would hope 
that that is a point that we make very strongly.
    I had the opportunity to visit Syria a little over 2 weeks 
ago, and I was very impressed with the work that our military 
has been doing in northeast Syria along the Turkish border. I 
was very impressed with the work of the Syrian Democratic 
Forces. And what I heard over and over again, both from the men 
and women who were serving and from the Syrian civilians on the 
ground, was please do not leave us here to the fate of either 
Assad or the Russians or other forces that may come into that 
part of Syria. And please, just a little bit in help for 
reconstruction efforts would go a very long way.
    That part of Syria has stabilized. They are into 
reconstruction. They are sending back people who have been 
displaced to their homes, and it would be, I believe, a real 
terrible reversal of policy for us to leave those folks after 
what we have done and to turn them over to the Russians or to 
Assad's forces.
    Secretary Pompeo. Senator, if I might, just so the facts 
are clear, the previous administration is the one that enabled 
Russia to have the capacity that they have in Syria today.
    Senator Shaheen. I am not defending the previous 
administration, Mr. Secretary. I want this administration to 
continue doing what is working.
    Secretary Pompeo. It is policy, this administration's 
policy. You are advocating for the continuation of this 
administration's policy. I think that is important for everyone 
to understand.
    The Chairman. Senator Flake?
    Senator Flake. Thank you, Mr. Chairman.
    Thank you, Secretary, for your testimony.
    I wanted to commend the State Department, you in 
particular, for quick statements with regard to the nature of 
the conversation, as it was between President Putin and 
President Trump, regarding certain individuals like Mr. McFaul 
and others traveling to Russia to be interrogated by the 
Russians. The State Department came out and said that was 
inappropriate despite the President's statement that it was an 
incredible offer. It took the White House a full 2 days or 3 
days to contradict that statement that President Putin had 
made. The State Department quickly said that that was 
inappropriate. So thank you for doing that.
    Secretary Pompeo. Thanks. But, Senator, you give me a 
little bit too much credit. I am doing my level best every day 
to implement the President's policies. And that statement was 
from the United States President's State Department.
    Senator Flake. Okay. But the United States President said 
that it was an incredible offer, and so that is why I am 
pointing out the difference and commending you. Please take it.
    [Laughter.]
    Senator Flake. With regard to what else was said during 
that meeting, I know you have given some indication of what was 
discussed. Let me just give a sense of how Russia is 
characterizing that meeting. And this is the problem with a 
private meeting like this. Many of us voiced strong concerns 
about having a private meeting like this with no readout 
officially for what happened.
    And here is what happens when a private meeting like that 
is held. Vladimir Putin's meeting with Donald Trump was, quote, 
``better than super'', Russia's top diplomat has said. The 
leaders' summit in Helsinki was fabulous. I think that was 
Lavrov who also said that. The remarks reported by Russian news 
agencies summed up the mood that Mr. Trump sided with the 
Kremlin over his own intelligence agencies. So they are 
reporting that as well. Here is how one paper in Russia 
characterized it. Trump has failed to dominate Putin. Another 
tabloid said, ``a quiet, modest Trump has paled in comparison 
with Vladimir Putin''. It is clear that Putin has outmaneuvered 
the U.S. President. That is the Russian media characterizing a 
meeting, and we have no readout to dispute any of it. All we 
have are the statements made by the President that they had 
made an incredible offer, for example, to have former U.S. 
diplomats shipped off to Russia to be interrogated.
    I am glad to hear that, one, a little more time will be had 
before a new meeting takes place between the two principals. By 
the way, I think that it is good that our President and the 
Russian president speak and meet together. That is a good 
thing. I do not think it is a good thing to meet in private 
with only an interpreter present with no readout so that 
whatever is characterized is only characterized by the Russian 
side.
    Do you have any response or thoughts on that?
    Secretary Pompeo. So I have a personal experience. I had a 
private conversation with the North Koreans. We did not issue a 
readout on the conversations, quite intentionally, and the 
North Korean press chose to characterize it. We thought it was 
in America's best interest not to respond tit for tat about the 
nature of that conversation. We knew the truth. We knew what 
had taken place there. And you know, it is the North Korean 
press. And so I assume that most reasonable people will 
discount it fairly significantly the same way that one might 
the Russian press.
    These are important decisions about how much to disclose 
about private conversations that were had because everyone 
knows that you may have an expectation that you will have 
another private conversation one day. And the absence of their 
belief that that private conversation has the capacity to 
remain in that space reduces the freedom to have those 
conversations.
    I know you have had this in your life too, Senator. I know 
you have had private conversations and you valued them. It was 
just you and someone else in that room, and it was important. 
And you did not give anyone a readout from it because you 
wanted to have the chance to do that again because you thought 
you could make real progress with that person.
    Senator Flake. Let us talk about North Korea. You brought 
it up. You mentioned that you traveled to North Korea to 
continue on, as you put it, I guess to follow up on commitments 
made in Singapore. Let us talk about those commitments for a 
minute. You mentioned that they have committed to 
denuclearization. They may have a different readout than we do 
on what that entails. But so far, they seem to be walking back 
any commitment, real commitment that was made there.
    What commitment, firm commitment, other than discussion of 
returning remains--I am not discounting that, but in terms of 
denuclearization, what real commitments were made?
    Secretary Pompeo. I am not going to get into the private 
commitments that have been shared.
    I do not think it is fair to characterize them walking back 
from commitments. Remember where we were. Right? So it all 
depends on what you draw as the projected line to say are we in 
a better place or a worse place then we would have been absent 
the Singapore summit. One can draw counter-factual--we will 
never know where we might have been.
    But I will concede there is an awful long way to go. I am 
not trying to oversell the accomplishments that we have had 
towards the path of denuclearization to date. There remains a 
great deal of work to do. It will be highly contested. That is, 
the modalities, the means, the timing of this will be things 
that I am confident we will be discussing for a period of time.
    There have been public reports. And I know the United 
States is tracking the disassembly of a missile engine test 
site, something that Chairman Kim committed orally. It was not 
in the written agreement itself, but Chairman Kim committed in 
his conversation with President Trump to do. They are beginning 
to dismantle that. It has to do with their missile program. It 
is a good thing. Steps forward.
    Senator Flake. Thank you.
    Quickly before the time is out, something completely 
different. The country of Rwanda right now--and you may be 
familiar with this because of this week's focus on religious 
freedom--has indicated a move toward severe restrictions on 
religious freedom, particularly from outside groups. What are 
the plans of the State Department to let them know that that is 
not in their own interests nor ours?
    Secretary Pompeo. Senator, I share your concerns. I will 
need to get back to you in terms of what actions we think we--I 
know we will call it out. I know we will label it for what it 
is. It is tragic. Anyway, I share your concern, Senator. It is 
a huge challenge for us.
    Senator Flake. Thank you.
    The Chairman. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    Thank you, Mr. Secretary.
    Mr. Secretary, just a couple of thoughts. I was very 
discouraged at the Helsinki summit when the President basically 
was offered a choice in some of the questions, did he believe 
U.S. intel or did he believe Vladimir Putin's protestations 
that he had engaged in hacking of the election. And he 
basically said my own people have made a great case to me, and 
Vladimir Putin has made a great case to me. I do not see why 
Russia would have done this. He came back and corrected it the 
next day in the United States, but at the end, he said I 
believe my intel community but there are a lot of people out 
there. It could have been someone else. And then this dragged 
on for a couple of days.
    You know where I live. You know I have a lot of 
constituents who used to be your employees at the CIA. People 
come up to me all the time in Virginia and say I am with the 
IC. And they are very demoralized by this. They are very 
demoralized that when standing next to Vladimir Putin, the 
President's words were to suggest that he trusted Vladimir 
Putin over them.
    There was the suggestion when President Trump said it was 
an incredible offer about Ambassador McFaul, that he was also 
potentially willing to throw not just intel folks under the bus 
but State Department diplomats under the bus. They live in 
Virginia too. They feel the demoralization about your comments 
today that we are going to go to bat for a current reformer. 
That is very, very helpful.
    But what I want to ask you about is our military and our 
military leadership. There was an article yesterday in ``The 
Washington Post.'' General Joseph F. Dunford, Chairman of the 
Joint Chiefs of Staff--as of Monday, Dunford still had not been 
briefed on Helsinki even though it directly affects 1 million 
troops Dunford oversees.
    Do you know why there would have been no briefing of 
General Dunford about the discussions that took place at 
Helsinki?
    Secretary Pompeo. Senator, you have to ask the Department 
of Defense or Chairman Dunford.
    Senator Kaine. But you do not dispute that that was--you 
have no knowledge that there was a briefing of General Dunford 
today about the Helsinki discussion. Do you?
    Secretary Pompeo. Senator, you just read me a piece from 
``The Washington Post.''
    Senator Kaine. Yes, but I am asking your knowledge. Do you 
have any knowledge that the administration has shared 
discussions about U.S.-Russia military issues with the head of 
the United States Joint Chiefs of Staff?
    Secretary Pompeo. I have actually spoken with Chairman 
Dunford about it. I was with him yesterday in a series of 
meetings, and we had a chance to have a conversation about it. 
Yes, absolutely.
    Senator Kaine. So yesterday may have been the first time he 
was briefed about it.
    Secretary Pompeo. That is possible, yes.
    Senator Kaine. I was going to ask about General Votel, the 
information that Jeanne Shaheen, Senator Shaheen, mentioned 
earlier. He expressed wariness about working with Russia and 
the Russian Defense Ministry. This is an interesting statement. 
They went after General Votel, the head of CENTCOM, who 
oversees, as you know, U.S. military operations in the Middle 
East, including Syria. Quote: With his statements, General 
Votel not only discredited the official position of his supreme 
commander-in-chief. Are you aware of what the official position 
is that is being referenced in that statement?
    Secretary Pompeo. You would have to speak with the Russian 
Ministry of Defense to know what it was he was referring to.
    Senator Kaine. But you can understand why we are concerned 
if it is being reported in the Russian press, as Senator Flake 
and Senator Shaheen said, that they are talking about official 
positions that the President has outlined. As far as you know, 
General Votel's statements did not violate any official 
position of the United States. Did they?
    Secretary Pompeo. You seem to be giving a great deal of 
credit to the Russian Ministry of Defense.
    Senator Kaine. Let me ask you about General Votel.
    Secretary Pompeo. They might not share that same----
    Senator Kaine. Let me ask you about General Votel.
    Secretary Pompeo. I have great belief in his truthfulness.
    Senator Kaine. So you do not believe that any of the 
statements that he has made, including those that I read, 
violate any official position of the United States. Do you?
    Secretary Pompeo. Senator, if you would, it is best to 
approach General Votel, the Department of Defense. I mean, we 
are now three orders removed.
    Senator Kaine. If I could introduce for the record--there 
is an interesting article in BuzzFeed News just recently, 
today, that just lists a whole series of headlines. And I think 
these are instructive, Mr. Chair. Trump's announcement that he 
will end U.S.-Korea drills catches Pentagon off guard. Pentagon 
and Seoul surprised by Trump pledge to halt military exercises. 
Pentagon caught off guard by Space Force announcement. Trump 
signals withdrawal of various U.S. troops from Syria surprising 
Pentagon and the State Department. Pentagon, caught by surprise 
by Trump's travel ban, pushes for some Iraqis to get special 
consideration. U.S. Joint Chiefs blindsided by Trump's 
transgender ban. NORTHCOM caught off guard as Trump orders 
troops to U.S.-Mexico border. If I could introduce this for the 
record, Mr. Chair.
    The Chairman. Without objection.

    [The information referred to is located at the end of the 
hearing]

    Senator Kaine. I worry about an administration that would 
take the Putin position over our intel community. I worry about 
the administration that would suggest it might be a great deal 
to consider handing over a former diplomat for questioning. I 
worry about an administration that is catching the Pentagon off 
guard, that is not consulting with General Dunford or briefing 
him for a week after a summit of this importance to our 
military.
    Mr. Secretary, you are aware of the NDAA prohibition, the 
current prohibition, on Russian and U.S. joint military 
operations. Are you not?
    Secretary Pompeo. I am aware of the existence of that 
provision. Yes.
    Senator Kaine. The provision prohibits any use of funds--it 
is in the NDAA--to support joint Russia and U.S. military 
operations, and it also gives the Secretary of Defense the 
ability to undertake a national security waiver if he thinks 
that that is the right idea.
    Does the administration accept the legality and binding 
nature of that provision of law?
    Secretary Pompeo. Senator, I think the DOD General Counsel 
would be the right person to ask about the intricacies of an 
NDAA provision that had to do with complex issues that span the 
gap between--I think what you are getting--between 
deconfliction and coordination. It is a complex undertaking, 
not a waiver that the State Department has the authority.
    But broadly, yes, this administration follows the law.
    Senator Kaine. So sitting here today, you are not aware of 
a legal concern that the administration has about this NDAA 
provision. Are you?
    Secretary Pompeo. I am not aware of one.
    Senator Kaine. And you are not aware that the Secretary of 
Defense has issued any kind of a waiver to allow U.S.-Russia 
military joint operations. Are you?
    Secretary Pompeo. No, Senator.
    Senator Kaine. With respect to North Korea, we were told by 
our expert witnesses--and I echo a little bit what Senator 
Cardin said that a first test of their seriousness is will they 
disclose what they have. In your discussions with North Korea, 
have they reached a point yet where there has been any 
agreement made about them discussing the extent of their 
nuclear infrastructure?
    Secretary Pompeo. I would prefer not to answer questions 
about the nature of our negotiations other than to say that 
your proposition that a good first step is the disclosure of 
the range of their nuclear infrastructure capabilities. An 
initial declaration, so to speak, is something that is at the 
very forefront of what it is--we think makes sense to get them 
to a point where we can verify their full denuclearization.
    Senator Kaine. Thank you.
    And, Mr. Chair, I would like to put one other additional 
item in for the record, which is an article just recently 
written by the Saudi Ambassador to the United States, Prince 
Khalid bin Salman, why Iran's malign behavior must be 
confronted, not appeased. And the thing that I think is 
interesting for us is he basically makes this argument and says 
that Saudi Arabia stands very willing to help the United States 
undertake all the actions that he suggests should be taken. I 
am very concerned about this too, but my time would not allow 
further questions on it. But I would like to put it in the 
record.
    The Chairman. Without objection, it will be entered.

    [The information referred to is located at the end of the 
hearing]

    The Chairman. Senator Barrasso?
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Thank you, Mr. Secretary. Good to see you again.
    It seems every time we have a chance to visit, I bring up 
the issue of energy security, and I was very happy to see 
President Trump talking with our NATO allies and specifically 
with Germany about their ongoing dependence on Russia for 
energy and specifically the upcoming concern with the 
Nordstream 2 and increasing that dependence by Germany of 
Russian energy.
    I know the President met today with the European Commission 
president to talk about energy security issues.
    I would just ask your assessment of our NATO allies and if 
they understand the security threat and the leverage that they 
are giving Russia by this over-reliance on Russian energy 
resources because it does not seem to be acting in their own 
security best interests.
    Secretary Pompeo. Senator, it is a fair question. I think 
their willingness to acknowledge that risk varies. I think some 
European countries accept that risk or are prepared to act in a 
way that might cost them a little bit more money to prevent 
that risk. I think there is probably a continuum of European 
countries. This issue has been raised by this administration 
consistently in every forum, directly with the Germans as well. 
The Germans just do not see it that way.
    Senator Barrasso. Are our NATO allies and the European 
Union doing anything in their discussions with Germany in terms 
of ending this Nordstream 2 pipeline project?
    Secretary Pompeo. Again, mix within the European Union. 
There are some countries that share our position. There are 
some that do so publicly. There are others that do so 
privately, that is, they have concerns about speaking out 
against other European Union countries, so their conversations 
have been--or their sharing of their view on Nordstream 2 with 
us has been private, I suspect private with the other parties 
that they are opposing as well.
    Senator Barrasso. Well, I appreciate everything that you 
continue to do and am grateful for what the President is doing 
in terms of trying to lessen this influence of Russian energy 
on the European Union and certainly on Germany.
    Russian officials after the meeting with President Trump--
and I know you made the point about not--the President not 
making additional statements on specific agreements. I guess 
the Russian Ambassador has talked about important verbal 
agreements on New START and INF at the Helsinki summit. So I 
just wanted to ask a little bit about that.
    Have specific agreements been made between President Putin 
and President Trump on arms control treaties?
    Secretary Pompeo. No. We are still working our way through. 
These issues were raised. I think the President said that. We 
are trying to get the Russians back inside the INF, trying to 
use every tool possible to get them to acknowledge that they 
are in noncompliance and get them moved back inside the box. 
And then we are--President Trump's administration is 
considering how best to respond to that, both on the INF Treaty 
and the New START. What are the best modalities to achieve what 
we are looking for to decrease the risk of proliferation or a 
potential nuclear conflict between our two countries?
    Senator Barrasso. I appreciate your efforts there. I think 
it did seem that President Trump is taking the right decisions 
in terms of--with these intermediate nuclear weapons in terms 
of providing for Poland the missile capacity there to defend. 
The previous administration pulled out of that capacity. And so 
I am happy to see that.
    With New START, I always felt that was a treaty that had 
significant concessions on our side and very little, if 
anything, from Russia in terms of the number of the missiles 
because they did not have to give up much, if anything, and we 
had to give up quite a bit. So I would be very concerned about 
what that next treaty may look like.
    Secretary Pompeo. The INF Treaty similarly restricts just a 
couple countries, and the world has changed dramatically since 
that treaty began. So we are conducting a full-on review so 
that we can respond and then work with Russia to get an outcome 
that is in America's interests with respect to the full scope 
of the proliferation agreements between the two countries--the 
nuclear proliferation agreements between the two countries.
    Senator Barrasso. The President yesterday was at the VFW 
convention in Nashville, convention of Veterans of Foreign 
Wars. I wanted to talk a little bit after the discussion in 
Singapore with the North Korean leader and the signing of a 
declaration committing to the return of remains of American 
soldiers to the United States. I know there were many U.S. 
troops lost in North Korea. I understand that our military has 
moved coffins to the Demilitarized Zone to prepare for North 
Korea's return of the remains. This is an issue that comes up 
when I talk to veterans in Wyoming, and I would not be 
surprised if it came up when the President was there with the 
VFW.
    Could you give us any update on North Korea's compliance 
with what they had agreed to do relating with the remains of 
our veterans?
    Secretary Pompeo. So they reaffirmed their commitment to 
return remains that they have in their possession, as well as 
to begin to work on--there is an agreement that had been in 
place previously about how we would conduct recovery operations 
inside of North Korea. And we will, in relatively short order, 
if the North fulfills its commitment, begin to put things back 
in place such that we can begin not only the return, the 
repatriation of existing remains, but the recovery of remains 
that have not yet been recovered. I understand that it is not 
directly on point with denuclearization. I get that. But, boy, 
for the families that are missing loved ones, it is a big deal, 
and I am very hopeful that the North Koreans will continue to 
move towards honoring the commitment that Chairman Kim made.
    Senator Barrasso. Well, thank you very much, Mr. Secretary. 
I am very grateful for your continued commitment to all these 
efforts. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, sir.
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman.
    Mr. Secretary, President Trump is claiming that North Korea 
is, quote, no longer a nuclear threat. And we do know that is 
absolutely not true. We have yet to see any tangible progress 
towards denuclearization. And I know that it is clear to 
everyone that North Korea's dismantling of an outdated missile 
test facility, as well as a previously dismantled ICBM assembly 
building, which can be rebuilt within 3 days, are empty 
gestures and not indicative that North Korea has changed its 
tune. They are continuing to use the Kim family playbook going 
back to his grandfather where they frontload rewards to 
themselves while exploiting ambiguity and delaying real 
concessions to the United States and to the West.
    We do not have nuclear inspectors yet on the ground in 
North Korea. Is that correct, Mr. Secretary?
    Secretary Pompeo. That is correct.
    Senator Markey. North Korea continues to produce fissile 
material, nuclear bomb material. Is that correct?
    Secretary Pompeo. Senator, I am trying to make sure I stay 
on the correct--yes, that is correct. I am just trying to make 
sure I do not cross into classified information. I am not 
trying to hesitate. Yes, they continue to produce fissile 
material.
    Senator Markey. Yes. So North Korea is continuing on both 
of those fronts.
    Is North Korea continuing to pursue submarine-launched 
ballistic missiles?
    Secretary Pompeo. I cannot answer that for you here in 
this----
    Senator Markey. You cannot answer that?
    Secretary Pompeo. No, Senator.
    Senator Markey. Well, I look forward to your providing that 
in a classified setting so that the members of this committee 
and ultimately the American people can know what is happening. 
I think it is pretty clear they are, but we will move on.
    Has North Korea committed to you that it will destroy its 
chemical weapons stockpiles?
    Secretary Pompeo. The North Koreans understand precisely 
our definition of denuclearization and have agreed to 
denuclearize.
    Senator Markey. Have they committed to destroying chemical 
weapons stockpiles?
    Secretary Pompeo. We have talked about CBW, their CBW 
programs, as being part of that denuclearization. And as I 
said, they have indicated that they fully understand the scope 
of what denuclearization entails.
    Senator Markey. Have they committed to destroying their 
biological weapons?
    Secretary Pompeo. In the same way I just described, 
Senator.
    Senator Markey. They have committed?
    Secretary Pompeo. Senator, what I said is as follows. We 
have made very clear that the entirety of the North Korean CBW 
program is contained in the U.S. understanding of 
denuclearization, and I am confident that the North Koreans 
understand clearly America's definition. And they have agreed 
to denuclearize.
    Senator Markey. Does the United States have an inventory of 
North Korea's warheads, materials, facilities, and other 
programs?
    Secretary Pompeo. Senator, I cannot answer that here.
    Senator Markey. Has North Korea committed to halting its 
human rights abuses?
    Secretary Pompeo. Senator, their human rights abuses 
continue today.
    If I might say with respect to each of these questions, 
each of the activities that you have described was taking place 
on January 19th, 2017. And we are working to stop them in ways 
that were not being undertaken prior to the time the Trump 
administration took office. There were full-on trade with North 
Korea----
    Senator Markey. And I appreciate all that. I guess what I 
am saying is I appreciate that.
    Secretary Pompeo. I think it is important to understand the 
progress that we have made and the efforts and the modalities 
we are using to stop the activity that had gone on for decades.
    Senator Markey. I am just going back to the statement made 
by President Trump that North Korea is no longer a nuclear 
threat, and I am just trying to determine what that means.
    Secretary Pompeo. I am happy to help--I am happy to 
articulate what I think is----
    Senator Markey. Is there any verifiable evidence of 
progress towards denuclearization?
    Secretary Pompeo. Oh, yes, absolutely.
    Senator Markey. What is verifiable?
    Secretary Pompeo. We are sitting at the table having 
conversations. We have had lots of discussions that I am not 
going to get into here today.
    But I would tell you, you discounted the destruction of the 
missile engine test facility. That missile engine test facility 
was functional, viable, and operational and in use in January 
of 2017 before this administration took office.
    Senator Markey. I guess you and I----
    Secretary Pompeo. Just facts.
    Senator Markey. You and I interpret that gesture 
differently.
    Secretary Pompeo. Senator, I have made no interpretation.
    Senator Markey. In terms of verifiable progress, I am 
talking about not trusting Kim Jong Un without verifying North 
Korea's actions. So that is really what the discussion is 
about. What has been verified? I understand that you are 
talking, but here is what I also understand, that the United 
States has unexpectedly suspended military exercises with South 
Korea, that North Korea has not started returning American war 
dead despite the President's announcement that the returns had 
already taken place. China and Russia continue to export oil to 
North Korea in violation of the U.N. resolutions and U.N. 
sanctions.
    Secretary Pompeo. Sanctions that did not exist before this 
regime took office.
    Senator Markey. And North Korea still has chemical and 
biological weapons and brutalizes its own people. And again, 
there is no verifiable evidence that North Korea is 
denuclearizing.
    Secretary Pompeo. Senator----
    Senator Markey. So I am afraid that at this point the 
United States--the Trump administration is being taken for a 
ride.
    Secretary Pompeo. Fear not, Senator. Fear not.
    Senator Markey. There is no evidence to the contrary.
    Secretary Pompeo. Fear not, Senator.
    Senator Markey. There is no evidence.
    Secretary Pompeo. Senator, fear not. May I----
    Senator Markey. Please.
    Secretary Pompeo. I guess you did not ask a question. So I 
will----
    Senator Markey. No. That is all right.
    Secretary Pompeo. Fear not. This administration has taken 
enormously constructive actions that have put us in a place 
that is far better than in either of the two previous 
administrations, one Republican and one Democrat. We have put a 
sanctions regime in place that is unequaled. We are continuing 
to enforce that sanctions regime. We have made incredibly clear 
that we will continue to enforce that sanctions regime until 
such time as denuclearization, as we have defined it, is 
complete. Pressure on the regime is clearly being felt. We have 
lots of work to do.
    But unlike previous administrations, Senator, we have no 
intention of allowing the U.N. sanctions, the world's sanctions 
that we led the charge to have put in place, to allowing those 
sanctions to either be lifted or not enforced. And until such 
time as Chairman Kim fulfills the commitment he made, which I 
am incredibly hopeful that he will, those sanctions will 
remain.
    We have not been taken for a ride, Senator. I hope you can 
sleep a little bit better tonight.
    Senator Markey. One quick issue, which is something I know 
you are familiar with, is the State Department export controls 
that are designed to help ensure that weapons do not get into 
the wrong hands abroad. So I want to bring to your attention a 
special exemption from those export control rules that the 
State Department plans to use to issue this Friday. It will 
allow blueprints for downloadable guns to be published online 
and acceptable worldwide. I do not think that we really want to 
be in a world where Hamas in the Gaza has an ability download a 
capacity for an AR-15 that could endanger security in that 
region and the same thing could happen around the world. I ask 
the State Department to please reconsider this decision. I 
think it has long-term national security and domestic security 
considerations for our country.
    Secretary Pompeo. You have my commitment. I will take a 
look at it.
    The Chairman. Senator Paul?
    Senator Paul. Thank you for your testimony.
    There has been a great deal of gnashing of teeth and 
wringing of hands and dozens and dozens of Senators saying that 
the President should have met with President Putin. And I guess 
I wonder because if somehow we have become a little bit 
sidetracked by partisanship because in the past President Obama 
met with President Putin. President George Bush met with Putin. 
And I guess the question I have is whether or not we are 
entering into sort of a naive time where we think unless 
someone is a perfect Jeffersonian democrat, we are not going to 
meet with them.
    We also have people saying, well, he should have shook his 
fist at him and he should have called him a murderer and a 
thug.
    Do you think that there is a possibility that we can have a 
relationship where we criticize the human rights records of 
other countries but still also sit down and attempt to have 
diplomacy and at least channels so we do not escalate things? 
Do you think that it was a right idea for President Trump to 
meet with President Putin?
    Secretary Pompeo. I think you asked two questions, and it 
is yes to each of them. I think we can accomplish that. I think 
we can meet with less than perfect citizens of the world and 
hopefully move the ball in the right direction.
    Second, I think it was more than appropriate that President 
Trump meet with Vladimir Putin.
    Senator Paul. And my own personal opinion is I think we 
need to deescalate some of the partisan tensions in our country 
and try to look towards ways that we can have discussions with 
foreign leaders and not be so simplistic that somehow they have 
to have a perfect record or that we have to shout and scream. I 
mean, I think back to Reagan talking to Gorbachev. He said tear 
down that wall. He called him an evil empire. But I just do not 
imagine Reagan sitting down with Gorbachev and yelling and 
screaming and shaking his fist and saying murderer, thug, and 
reciting Stalin's human rights abuses. So I think there is a 
difference for anybody who has ever thought about this between 
sitting down and how diplomacy would occur between individuals 
and reciting a litany of human rights abuses.
    In that vein, I think there seems to be sort of a limitless 
appetite for more sanctions, but maybe insufficient interest in 
describing what actions are needed to remove sanctions.
    And so Senator Rubio mentioned this DETER Act. I guess my 
concern with some of this is that the definition of who might 
be meddling in an election in our country is not limited just 
to Russia. It could include even allies who spend money on 
social media somehow in our country. It does not seem to 
differentiate between social media and actually hacking into 
our electoral system and changing thousands of votes. It also 
takes the power away from the President and gives it to the 
Director of National Intelligence. This is the DETER Act we are 
talking about.
    And I know you indicated that, well, sanctions are probably 
a good idea to deter them. But do you think it is a good idea 
to take the sanction power, give it to the DNI, and then the 
sanctions have to remain in place for 8 hours with the 
President not having any ability to decide whether there has 
been some kind of change in behavior by the malefactors?
    Secretary Pompeo. Senator, without having seen the 
legislation, I do not think that is a good idea.
    Senator Paul. I liked in your statement where you said that 
President Trump believes that now is the time for direct 
communication in our relationship in order to make clear to 
President Putin that there is the possibility to reverse the 
negative course of our relationship. And I think that gets at 
the heart of why we have these discussions. So if you heap 
sanctions on and Congress puts them on and they have to stay on 
for 8 years and they could never could off, if there is no off 
ramp, if there is no discussion, that is sort of what diplomacy 
is supposed to be about.
    So I do commend you for talking to Kim. Are we here to 
extol Kim's record on human rights? Obviously not. But at the 
same time, for sanctions to have an effect, you have to have 
negotiation.
    So what I would say to my colleagues who have been all over 
TV saying there should not have been a meeting, think again. We 
just keep heaping these sanctions on and you do not want any 
ability to talk to the adversary about how we would actually 
remove the sanctions if behavior changed. You have got to have 
communications, not to mention the fact that we have planes 
flying within a mile or within 100 yards of each other in 
Syria. We have to have open lines of communication.
    So what I would ask is that we try to deescalate the 
partisanship in our country so we can once again be open to 
some kind of diplomacy.
    I have one question with regard to Iran. And you and I 
differ on the possibility of a further Iranian agreement. I 
think it is actually much more difficult. And I had my own 
criticisms of the nuclear agreement. I did not think it was 
perfect. And yet, I would have tried to have built upon it 
rather than destroy it.
    We had a lot of money at the time that was a carrot to try 
to bring Iran to the table, but now instead of a smaller group 
of issues, we have a bigger group of issues. The nuclear issues 
are back on the table if we have to renegotiate the nuclear 
agreement and the ballistic missile issue.
    And the point that I think that we need to think through in 
discussions with Iran is that I think Iran from their 
perspective would see getting rid of their ballistic missile 
program as basically unilateral surrender. It is not my 
viewpoint. I think it is what I believe their viewpoint.
    I think they also see Saudi Arabia as a great adversary, 
and I think they see Israel as a potential adversary. You know, 
it would be great if you got all three to come together and 
have a multilateral agreement on not developing nuclear weapons 
and not having ballistic missiles. I do not see the other two 
coming to the table, frankly, to do that.
    And so I think in moving forward, I think it is just 
important that you understand this is not going to be easy. The 
first Iran agreement also was a multilateral agreement. You had 
multilateral sanctions. You now have more unilateral sanctions, 
and you are going to have a unilateral agreement that is sort 
of your own agreement. So I just think we should not be so 
optimistic.
    And I guess I would like to hear from you what makes you 
believe that Iran will come to the table to discuss ballistic 
missiles.
    Secretary Pompeo. Senator, I am under no illusions about 
how important Iran views its ballistic missile program. I agree 
with you there.
    The question that President Trump faced was the JCPOA good 
enough. He concluded it was not remotely good enough. I think 
he said it was one of the worst deals in history. I do not want 
to get the language wrong. And so he concluded we would find 
ourselves in a better place with an opportunity to revisit all 
of these issues, the broad spectrum of issues, not just the 
nuclear portfolio but the missile program, their malign 
activity around the world, all of them in a package. It did 
accept the understanding that there would be those that would 
not come alongside of us.
    But you should know there is a coalition. It is not America 
and America alone. We have others who believe that this was the 
right decision too, the Israelis, the Saudis, the Emiratis, the 
Bahrainis, other smaller European governments, not the E-3 
themselves. But there are a number of folks who are beginning 
to coalesce around an understanding of how we can appropriately 
respond to Iran to take down the nuclear risk to the United 
States, as well as the risk from these other malign activities.
    The Chairman. Thank you.
    Senator Udall?
    Senator Udall. Thank you, Mr. Chairman.
    And thank you, Secretary Pompeo, for your service.
    Secretary Pompeo, we have quite the record of President 
Trump's business relations with Russia. Extensive reporting and 
public records show a large amount of money from former Soviet 
states and Russia into Trump projects. Trump International 
Tower and Hotel in Toronto, the Trump Hotel in Panama, the 
Trump project in SoHo in New York City are a few of the big 
examples where. And here is another one. A Russian oligarch 
bought a property from President Trump for--candidate Trump at 
the time or maybe a little before--for $95 million in 2008, 
less than 4 years after President Trump paid $41 million. So he 
more than doubled his money.
    Donald Trump, Jr. in 2008 stated at a real estate 
conference in New York--and I quote here--Russians make up a 
pretty disproportionate cross section of a lot of our assets. 
End quote.
    Donald Trump tried to build a Trump tower in Moscow for 30 
years. He even tweeted in 2013, Trump Tower Moscow is next. 
That is in quotes.
    In 2015, answering a question from indicted Russian 
operative and alleged spy Maria Butina, candidate Trump made 
clear his desires with Russia stating I would get along well 
with Putin and that I do not think we need the sanctions.
    Now the Russian Ambassador to United States has said the 
President made--and this is his quote--important verbal 
agreements with President Putin. And he seems to know more 
about Helsinki and what happened there than the Senate Foreign 
Relations Committee.
    As we saw in Helsinki and throughout his presidency and the 
campaign, this President is extremely sympathetic to the very 
Russian Government that attacked and continues to attack our 
democracy and those of our allies. It is a fact of political 
life today that many Americans are concerned about the 
unthinkable, that a U.S. President could have a compromising 
relationship with a foreign power. The President could clear 
this all up in three simple ways: releasing his tax returns and 
those of the Trump organization and the taxes from the various 
family businesses, some of which we do not even know about.
    After Helsinki, do you think that the American people 
deserve to know what is in President Trump's tax returns and 
business interests that are intertwined with Russia?
    Secretary Pompeo. Senator, I am going to try to stay out of 
the same political circus that you and I ended up in last time 
I was sitting here and simply respond by saying this same 
President, with which you seem to express such deep concern, is 
engaged in a massive defense buildup which threatens Vladimir 
Putin's regime. He instructed us to put together a nuclear 
posture review that has set Vladimir Putin on his ear because 
of its robustness and the recapitalization of our nuclear 
program. He has kicked out 60 spies. We banned Kaspersky. He 
put $11 billion----
    Senator Udall. Mr. Secretary, you have already----
    Secretary Pompeo. No, Senator. Actually I have not even 
begun describing----
    Senator Udall. No, no, no. But you have not answered my 
question. So let me try it a little different way.
    Would you not want to know as Secretary of State--I mean, I 
am taking you and your sincerity here as Secretary of State--
whether all these Russian financial interests, oligarchs, and 
others are part of the decision-making of the President? I 
mean, would you not want that out in the open and to understand 
what went on at Helsinki? It is an easy kind of yes or no 
question.
    Secretary Pompeo. Senator, I do not need secondhand 
understandings of what President Trump is instructing his 
administration to do to push back against Russia. I have 
firsthand understandings.
    Senator Udall. Well, let me ask the question a little bit 
differently here.
    Secretary Pompeo. We have opposed Nordstream 2. We have got 
a four by 30 out of NATO that also is a big setback for Russia. 
I mean, I am happy to continue the list. I am happy to cease 
there. But I will submit the entirety of this administration's 
actions against Russia for the record, if I might.
    Senator Udall. Please do.
    Secretary Pompeo. We will back a truck up and get it on in 
here.

    [The information was not available at time of print]

    Senator Udall. Candidate Trump has failed to keep his 
promise to disclose his tax returns. Every presidential 
candidate since Richard Nixon has disclosed. Jimmy Carter even 
sold his peanut farm to avoid a conflict of interest. The 
situation with President Trump's potential foreign policy 
conflicts of interest is unprecedented and unacceptable. And 
under the Emoluments Clause, I think it is unconstitutional as 
well.
    But let me just ask a couple of questions about Helsinki. 
You talked about what you were tasked with. The Director of 
National Intelligence Coats stated at the Aspen Security Forum 
that he did not know what happened during the one-on-one 
meeting in Helsinki.
    Did the President personally debrief you on this 
conversation, and are you 100 percent confident that you know 
everything that President Trump discussed with President Putin? 
That is a very easy yes or no. If you do not want to answer it, 
I will move on to the next one. Is it a yes or a no?
    Secretary Pompeo. I am very confident that I received a 
comprehensive debriefing from President Trump.
    Senator Udall. Good. Okay.
    Now, do you know for a fact whether President Trump or 
President Putin discussed any investments in Trump properties 
or any Trump projects such as the previous attempt to build a 
Trump real estate project in Moscow?
    Secretary Pompeo. Senator, again, I am going to try and 
stay out of the political circus. That question gets to the 
political circus.
    Senator Udall. Sir, were you tasked with that? You gave us 
a list of what you were tasked ----
    Secretary Pompeo. I came here to talk about American 
foreign policy today. I have attempt to articulate President 
Trump's policy with respect to Russia.
    Senator Udall. All of these business interests are 
entwined, sir, with our foreign policy.
    Secretary Pompeo. Yes, a foreign policy that has led to a 
massive defense buildup, a nuclear posture review that has 
frightened Vladimir Putin, 60 spies, I mean, 213 sanctions.
    Senator Udall. Let me also ask you about an additional 
question on Helsinki.
    Secretary Pompeo. When I was a Member of Congress, I tried 
desperately to get President Obama to do one of those things 
and was unsuccessful.
    Senator Udall. When President Trump hosted top Russian 
officials at the White House last year, he bragged about how he 
had fired James Comey. At his press conference with Putin, 
President Trump called Special Counselor Mueller's 
investigation a disaster for the country.
    Can you tell us what President Trump discussed about the 
investigation during his private meeting with President Putin?
    Secretary Pompeo. I am not going to talk about private----
    Senator Udall. Well, were you tasked with anything in that 
respect?
    Secretary Pompeo. Senator, when I am tasked about something 
for American foreign policy, I promise you this committee will 
know.
    Senator Udall. Okay. And you were not tasked with anything 
there.
    Secretary Pompeo. Senator, when I am tasked with something 
by the President that relates to foreign policy, I assure you 
that this committee will be made aware of it.
    Senator Udall. Thank you very much.
    The Chairman. Thank you.
    Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for your service to the 
country and your time with us today.
    When you were last here, I asked you a question about 
whether or not you agreed with Secretary Mattis that North 
Korea is the most urgent security threat the United States 
faces. In light of recent developments, do you still agree with 
that? At the time, you said that you did.
    Secretary Pompeo. Yes. It is still a real priority.
    Senator Gardner. Do you believe it is the most urgent 
national security threat?
    Secretary Pompeo. I do. But having said that, I do not 
recall the precise timing when I was here.
    Senator Gardner. I think it was in April perhaps.
    Secretary Pompeo. Yes. So it is. The fact that we are 
having conversations and we have not had additional missile 
tests and nuclear testing--maybe it is still a priority. I do 
not know how to think about it, but I am optimistic that we are 
headed on a path that is the right direction and we just got to 
get the rate of change right.
    Senator Gardner. The testimony--you used the term ``final, 
fully verified denuclearization.'' In previous testimony, you 
have used the word ``permanent,'' verifiable, irreversible 
denuclearization. U.S. law says complete, verifiable, 
irreversible denuclearization. U.N. resolutions call for 
complete, verifiable, irreversible denuclearization.
    Are these the same terms? Do they mean the same thing?
    Secretary Pompeo. Precisely the same thing.
    Senator Gardner. Exactly. Full, complete, total 
denuclearization according to U.S. law and U.N. security 
resolutions.
    Secretary Pompeo. Yes, Senator.
    Senator Gardner. Why the different words?
    Secretary Pompeo. Sometimes one needs to just break away. I 
am happy to use the term ``complete, verifiable, irreversible 
denuclearization.'' Yes, they mean the same thing.
    Senator Gardner. Okay.
    The CVID declaration or determination--was that directly 
addressed at the Singapore summit with President Trump and 
Chairman Kim?
    Secretary Pompeo. It was.
    Senator Gardner. And it was brought up--the complete, 
verifiable, irreversible denuclearization. Why was it not in 
the communique following the Singapore summit?
    Secretary Pompeo. I would rather not talk about the course 
of the negotiations and how we arrived at the language that we 
did.
    Senator Gardner. Okay.
    Is North Korea still moving or making advancements, 
undertaking a nuclear program?
    Secretary Pompeo. May I answer that question in a different 
setting?
    Senator Gardner. You cannot answer that question here?
    Secretary Pompeo. Yes, I would prefer not to.
    The Chairman. We would love to provide that setting for you 
soon.
    Secretary Pompeo. Happy to do it if we need to. I am happy 
to do that.
    Senator, I am not trying to be cute. We are engaged in a 
complex negotiation with a difficult adversary, and each of the 
activities that we undertake is not going to be fully apparent 
to the world at the moment it is undertaken. And there will be 
processes and discussions that will be had that are important 
that they not be real-time disclosed. And as I answer one 
question and then choose not to answer another, it becomes 
patently obvious why I chose not to answer one or the other. 
And therefore, it seems to me that a blanket prohibition on 
heading down that path is the only way to ensure that I have 
the opportunity to negotiate this thing in a way that is not 
being done in ``The Washington Post'' and ``The New York 
Times.''
    Senator Gardner. I understand. I think is a very important 
point of information that we get, though, to know whether or 
not North Korea is either overtly, covertly, however they are 
doing it, making advancements in their nuclear program or still 
continuing a measure of their nuclear program. I think it is 
very important for us----
    Secretary Pompeo. So I did answer one question that touches 
on that at least. I answered a question--I think it was from 
Senator Markey--about whether they are continuing to create 
fissile material. I answered that, indeed, that they are.
    Senator Gardner. The goal originally I think was complete, 
verifiable, irreversible denuclearization by the end of the 
President's first term. Is that correct?
    Secretary Pompeo. Yes.
    Senator Gardner. Does that remain the goal?
    Secretary Pompeo. Yes, more quickly, if possible.
    Senator Gardner. When will we know if North Korea is moving 
toward denuclearization, concrete, verifiable steps?
    Secretary Pompeo. I do not know. I do not know the answer 
to that. I could not tell you what day.
    And by the way, I am guessing this group would disagree 
about when that moment took place. That is a process for sure. 
And some will find the first step along the way a demonstration 
of--I think you said--substantial progress. Others may want to 
wait until we are almost done to declare substantial progress. 
So I cannot answer that. It is definitely a process and will 
definitely take time.
    Senator Gardner. We have had a lot of discussions in this 
committee on strategic patience. The statement you used uses 
patient diplomacy. Is the U.S. doctrine toward North Korea 
still one of maximum pressure?
    Secretary Pompeo. It is. I will tell you that difference is 
a little bit subtle and perhaps--I do not want to overstate the 
difference in the language. Here is what is different. 
Strategic patience was in our judgment standing around hoping 
that something worked right. Here we have a strategic objective 
backed up with diplomatic and economic pressure, which we 
believe gives us a pathway to achieve the objective and also an 
off ramp in the event that we conclude that it does not work, 
to head another direction to achieve the denuclearization of 
North Korea.
    Senator Gardner. Maximum pressure utilizes section 102 of 
the North Korea Sanctions Policy Enhancement Act, which 
requires the President to initiate investigations into possible 
designations of persons upon evidence that they are violating--
proliferating activities, et cetera so that we can apply 
additional sanctions.
    How many investigations into new designations are taking 
place right now?
    Secretary Pompeo. I do not know how many, Senator, but I 
may try and answer your question in another way and see if this 
meets the bill. It is the case that this administration is 
continuing to work on enforcement actions for the existing 
sanctions regime. That is, we are not going to let it wander 
off. We are not going to let it weaken. You cannot rename a 
ship and get out from underneath the sanctions regime. There is 
active enforcement work being done at the State Department and 
at the Department of the Treasury related to North Korea.
    Senator Gardner. So it is your view that there are 
additional North Korean or Chinese entities that could be 
identified for additional sanctions. Is that correct?
    Secretary Pompeo. Oh, yes, sir.
    Senator Gardner. And those designations are not being 
upheld or laid off. They will continue?
    Secretary Pompeo. We are going to use them in a way that we 
think increases the likelihood that Chairman Kim fulfills the 
commitment that he made to President Trump.
    Senator Gardner. And why have we not seen any designations 
recently?
    Secretary Pompeo. I cannot answer that question.
    Senator Gardner. I would like to get an answer for that, if 
we could.
    Has South Korea made additional requests to the United 
States for sanctions relief as it relates to additional 
activities with North Korea?
    Secretary Pompeo. So I think the requests that South Korea 
has made are public and have occurred through the committee up 
at the United Nations. So I think the list of things that the 
South Koreans are requesting in terms of either making sure 
that their activity is consistent with the sanctions regime--
there are exceptions. There are humanitarian exceptions. And so 
there are----
    Senator Gardner. And is the U.S. considering any of those 
sanctions, granting any of those sanctions?
    Secretary Pompeo. We are reviewing each of the requests 
that the North Koreans made. We approved one----
    Senator Gardner. South Koreans.
    Secretary Pompeo. I am sorry. South Korea, yes. I am sorry. 
Thank you for the correction.
    We approved one that had to do with a military-to-military 
communications channel. The others are currently under review.
    Senator Gardner. If we could perhaps get an understanding 
of what some of those measures are, that would be great.
    You gave a speech, a very good speech, Sunday, July 22nd on 
Iran policy at the Reagan Library, as you mentioned. If you 
were to substitute the word ``Iran'' out and substitute in the 
word ``North Korea,'' would your speech still accurately 
describe the state of affairs in North Korea?
    Secretary Pompeo. Boy, it was a long speech, Senator.
    Senator Gardner. Basically----
    Secretary Pompeo. I think in large part it would be 
consistent. There is a difference in terms of their operational 
capacity for their nuclear program, but the nature of the two 
regimes is similar.
    Senator Gardner. I am out of time, Mr. Chairman. Thank you.
    Thank you, Mr. Secretary.
    The Chairman. Before turning to Senator Merkley, I am going 
to use a little bit of my time.
    You obviously acquit yourself very well, and those of us 
who know you and work with you have mostly--I know many of us--
I will include me and I will say most of us actually. We have 
tremendous faith in your ability to make things happen, and we 
thank you for all the issues you are taking on. You are 
building a great culture in the State Department, bringing on 
people that are truly exemplary.
    We feel the same way about Secretary Mattis, the way he 
conducts himself and what he does. I think there is tremendous 
faith on both sides of the aisle in his abilities and what he 
does.
    Much of what you are hearing today has nothing whatsoever 
to do with you, and I would agree with you that the policies 
that we are putting in place in many cases are stronger than 
have ever been put in place. I agree with you.
    It is the President that causes people to have concerns. 
And I would love to have some insights into you as to--for 
instance, at the Helsinki conference to create an equivalence 
between our intelligence agency and what Putin is saying, that 
shocks people. I mean, you can imagine. You saw Dan Coats' 
response afterwards and yours today I think candidly was 
related to what he said at Helsinki.
    And then the notion of even thinking about exchanging 
diplomats, sending diplomats over to be interrogated by Putin, 
to even think about that, to let that be said as an official 
statement coming out of the White House to--this is my opinion, 
and I believe it is right.
    To purposely cause the American people to misunderstand 
about the NATO contributions and to cause them to doubt NATO 
and to really drive public opinion against NATO--that to me was 
purposeful, not unlike what happened right after 
Charlottesville.
    And then article 5. To go on television and say, you know, 
why would we honor--I am paraphrasing, but why would we honor 
article 5 in Montenegro? You know, we passed a law--I think 
only two people dissented--to ascend them into NATO. He signed 
it. I mean, it would be a dereliction of duty if he did cause 
that to be the case.
    So why does he do those things? I mean, is there some 
strategy behind creating doubt in U.S. Senators' minds on both 
sides of the aisle, doubt in the American people as to what his 
motivations are when we, in fact, have tremendous faith in you? 
I think you are a patriot. Tremendous faith in Mattis. But it 
is the President's actions that create tremendous distrust in 
our nation. Among our allies, it is palpable. We meet and talk 
with them. Is there a strategy to this, or what is it that 
causes the President to purposely--purposely--create distrust 
in these institutions and what we are doing?
    Secretary Pompeo. Senator, I just disagree with most of 
what you just said there. You somehow disconnect the 
administration's activities from the President's actions. They 
are one and the same. Every sanction that was put in place was 
signed off by the President of the United States. Every spy 
that was removed was directed by the President----
    The Chairman. Go to the points I just made. Go to the 
points I just made. Talk to them. Talk to them. I know what we 
are doing. Talk to the points I just made.
    Secretary Pompeo. Here is what the world needs to know. 
With respect to Russia, this administration has been tougher 
than previous administrations, and I fully expect it will. The 
President's own words were he is happy to figure out if we can 
make improvements with respect to the relationship between he 
and Vladimir Putin and change the course. But if not, he will 
be their--I will get the words wrong. He will be their toughest 
enemy, most difficult enemy. I think I can prove that that is 
the case today. I think I have.
    And so somehow there is this idea that this administration 
is free floating. This is President Trump's administration. 
Make no mistake who is fully in charge of this and who was 
directing each of these activities that has caused Vladimir 
Putin to be in a very difficult place today.
    The Chairman. Well, look, you handle yourself in exactly 
the way you should in my opinion as it relates to comments. I 
notice that you are not responding to what I am saying.
    Secretary Pompeo. I think I responded to everything that 
you have said, Senator.
    The Chairman. No, you did not. And the fact is that--you 
just did not. Okay?
    Secretary Pompeo. We disagree, Senator.
    The Chairman. No. We do not disagree. Let us run the 
transcript again if you want to talk about it.
    But the fact is----
    Secretary Pompeo. All right. We will let the world decide.
    The Chairman.--it is the President's public statements that 
create concern amongst Senators on both sides of the aisle. And 
I was asking you if, in fact, there was some rhyme or reason 
that this type of distrust or discord will be created. I know 
you are not going to answer the question. I am trying to make a 
point as to why----
    Secretary Pompeo. I know you are.
    The Chairman. --why the opening comments and the questions 
and just the energy behind this hearing are what they are. It 
is not about you, and it is not about Mattis, and it is not 
what we are doing on the ground.
    Secretary Pompeo. Senator, you went through a long litany 
of statements. First of all, I will tell you I talk to the same 
allies you do. I speak to their foreign ministers directly. It 
is the case that they are behaving differently today. There is 
no doubt about that. They are now scrambling to figure out how 
to make sure that they are fully part of NATO. Some of that is 
a result of the statements that you referred to, Senator. Some 
of that is identifying Nordstream 2----
    The Chairman. I actually agree with that.
    Secretary Pompeo. Right. Well, there you go. I will let the 
record reflect that Senator Corker agreed----
    The Chairman. I will say some of----
    Secretary Pompeo. --that some of these statements actually 
achieve important policy outcomes for the United States of 
America.
    The Chairman. Some of them do.
    Secretary Pompeo. Yes.
    The Chairman. And some of them are very damaging.
    Senator Merkley?
    Senator Merkley. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary.
    So in response to Senator Barrasso's question on New START, 
I wanted to follow up a little bit. Both the United States and 
Russia came into compliance in February 2018, met the deadline 
on deployed nuclear warheads. But my impression from your 
dialogue was the U.S. does not yet have a position on whether 
to work to extend the New START agreement past 2021.
    Secretary Pompeo. That is correct. We are very hopeful that 
we can achieve--we view them--they are individual agreements as 
a legal matter, and they can be worked on independently. But 
the deterrence model, the underpinnings, the framework of these 
nuclear agreements--they are connected whether they be things 
covered by New START, things covered by the INF Treaty, other 
provisions. They are of a part, and it is the case that we 
are--as we begin to evaluate how to approach that, we are 
trying to do it in a holistic way.
    Senator Merkley. Thank you.
    I think I can anticipate that this will be something that 
you and your team will be working on in the year ahead, setting 
the groundwork for understanding the options there. Thank you.
    So Russia oil tankers reportedly supplied fuel to North 
Korea via sea transfers several times in 2017. President Trump 
made a reference in which he talked about saying that what 
China is helping us with, Russia is denting. And then he says 
specifically also Russia is not helping us at all with North 
Korea.
    Did this issue of Russia bypassing the U.N. sanctions come 
up in the conversation between President Putin and President 
Trump?
    Secretary Pompeo. I think I can answer that question 
because I believe President Trump has talked about this. In 
fact, Russia's commitment to help us achieve denuclearization 
of North Korea did come up. The two of them did discuss it. And 
the centrality of continuing to enforce the U.N. Security 
Council resolutions, resolutions that the Russians voted for, 
were raised between the two of them. I heard in a subsequent 
meeting, at which I was present--I heard Vladimir Putin 
reiterate his commitment to doing each of those two things.
    Senator Merkley. And to follow up on your conversation with 
Tim Kaine about the communique from the Singapore summit and 
the details that need to be worked out in regard to having a 
survey to just the starting point, if you will, of a detailed 
nuclear agreement, when you have an agreement regarding the 
details of how such a survey of North Korean missiles, nuclear 
materials, and so forth--when you have that agreement, will you 
brief this committee on that?
    Secretary Pompeo. Senator, I am sure we will be able to 
share some elements of that with you. I am harkening back to 
the Iran agreement, the JCPOA, in which they provided a 
declaration which was knowingly false--that is, the 
administration knew did not reflect accurately the history of 
the Iranian weapons program. I promise you I will not do that. 
I promise you I will not lie about the contents of their 
declaration. If we disagree or if we think they are wrong, we 
will acknowledge that. I will have to think through precisely 
how, in the appropriate way, we would share that information 
with you. But you have my commitment not to allow a false 
declaration to form a fundamental pillar of a nuclear agreement 
in the way that it did with JCPOA.
    Senator Merkley. I will tell you we all had privy not just 
to a briefing on it but to the actual document and details. And 
so we had that standard. In fact, those were made public as 
well.
    Would you expect to meet those two standards eventually----
    Secretary Pompeo. When the agreement is complete, yes. I 
was thinking you were talking about sort of during the process. 
I believe those documents were made public at the time that the 
legislation was being considered and when the agreement was 
final. We hope to bring this agreement to Congress, and it is, 
of course, the case that you would need to see the 
underpinnings of that agreement. And part of that would be--
there will probably be a series of declarations associated with 
it.
    Senator Merkley. I will tell you it did bother me some that 
because those details have not been worked out yet, that the 
President already conceded to setting aside the joint exercises 
with South Korea. Were the South Korean leaders briefed in 
advance of that announcement?
    Secretary Pompeo. Senator, I am going to leave that to the 
Department of Defense to answer. It would have been conducted 
between--in military channels.
    Senator Merkley. President Trump blamed poor relations with 
Russia on U.S. foolishness. And I am surprised he blamed U.S. 
foolishness rather than Russia annexation of Crimea, of their 
occupation of eastern Ukraine, of their attacks on individuals 
in Britain, of their support of the Syrian Government when the 
Syrian Government is using barrel bombs and gas on its own 
people, and given Russia's significant cyber-attack on our 
elections. Do you believe that the poor relations with Russia 
is a result of U.S. foolishness?
    Secretary Pompeo. Senator, I think there are countless 
reasons. You identified several. I could go on about the reason 
that we find ourselves in this place with Vladimir Putin and 
his regime today. Not a good place, to be sure, a place that 
the President is working to develop a relationship to try and 
reconfigure at least at the level of making sure these two 
leaders understand each other and know how each other are 
thinking about the problem set. I think that is important and 
appropriate, and hopefully he can be successful in that.
    Senator Merkley. It is a nice essay. It did not answer my 
question, but I will go on.
    The President has also said there is no longer a nuclear 
threat from North Korea and that we could all sleep well. Given 
that we do not yet have an agreement on even surveying the 
stockpile of what North Korea has or an agreement on 
eliminating their weapons or their missiles or an agreement on 
verification strategies, should we not more accurately approach 
this from the viewpoint that there is still a nuclear threat 
from North Korea? The President's team is working to eliminate 
it, but it is still a nuclear threat as of today.
    Secretary Pompeo. Yes. I think the President would agree 
that the primary systems that have threatened America continue 
to exist. I think what his comment was, was that the tension 
had been greatly reduced. We are at a point where it is 
possible that there could be a miscalculation.
    Senator Merkley. I have got 20 seconds. So I wanted to ask 
you one last question on a completely different topic.
    Fortify Rights, a human rights group that traveled to Burma 
to document what happened with the Rohingya, came out with a 
report detailing devastating atrocities, which you have also 
seen from elsewhere. And we also have the report that Senator 
Brownback, our Ambassador on Religious Freedom, is making.
    Is it time for the Senate to act on the sanctions against 
the Burmese military that we passed out of the Senate Foreign 
Relations Committee?
    Secretary Pompeo. I will leave it to Senators to decide if 
it is time for the Senate to act. I can only say that the 
underpinnings that you described, the atrocities you described 
are very real.
    Senator Merkley. Well, I would say this is the type of 
thing were executive leadership makes a difference in giving 
direction to this body. And so that is why I was seeking your 
and the President's opinion on whether it is time to really 
send a strong message against such ethnic cleansing and 
genocide.
    Can we expect such leadership from the President or 
yourself?
    Secretary Pompeo. I remember what Secretary Tillerson did 
before me on this issue. You can be sure that we will be 
serious and lead on this important issue.
    Senator Merkley. Thank you.
    The Chairman. Thank you.
    Senator Young?
    Senator Young. Mr. Secretary, thank you. I appreciate your 
stamina. You have been here for quite a while.
    I want to let you know how much I appreciate your 
leadership as you have filled this role during this tumultuous 
period in international relations. I have to say since you have 
taken this position, the interaction our office has had with 
members of the Department of State and with you individually 
has really markedly improved. And so I am appreciative of that.
    One of the axioms of diplomatic or military strategy is 
that you want to unite your allies and divide your enemies. And 
as I see it, this is one of the things that Vladimir Putin has 
been succeeding in doing. He seeks to divide and weaken NATO, 
for example. He wants to divide the American people. And the 
more we make Russia's meddling in our own elections a partisan 
issue, I think the more we play into Putin's hands.
    The intelligence community has been clear and consistent. 
Russia did, indeed, meddle in our elections. So I think we need 
to stand together as Americans, not as Republicans or Democrats 
with respect to this issue. What are your thoughts on this 
matter, Mr. Secretary?
    Secretary Pompeo. Senator, I think it is the case that the 
Soviet Union and now Russia's efforts to undermine Western 
democracy are long and continuous. I think they occurred in 
2016. I am confident that the Russians are endeavoring to 
divide, to separate us from our allies to create space to find 
partners for themselves around the world in the same way that 
we will go out and work diligently with our allies. I always 
think that having a united United States, folks who come at 
these problems with seriousness and thoughtfulness towards a 
shared goal, increases the likelihood of America prevailing in 
these challenges--against these challenges.
    Senator Young. Well, I happen to agree with you. I hope 
that my colleagues and I will adopt a tone and approach to this 
very serious issue which impacts all Americans in recognition 
of everything you just said.
    Mr. Secretary, just about an hour ago, President Trump 
convened a joint press conference with the President of the 
European Commission, Jean-Claude Juncker. And in the press 
conference, both the presidents announced they were going to 
launch a bilateral U.S.-EU set of negotiations with the goal of 
reducing terrorists, increasing economic cooperation between 
the EU and the United States, and working together to counter 
the predatory economic practices that we have seen from 
countries like China.
    I cannot tell you how encouraged I am by this. I think with 
our collective leverage brought to bear, perhaps even 
ultimately pulling in other G7 countries like the Japanese, we 
have a real possibility of reducing the intellectual property 
theft, reducing the incidents of forced technology transfer, of 
state-owned enterprises dumping things into our economy, 
precisely the sorts of objectives I know the administration 
has.
    So do you agree that the United States, moving forward, has 
to prioritize a trade dialogue with the EU in order to 
eliminate current retaliatory tariffs on farmers and 
manufacturers in places like Indiana, as well as to effectively 
combat China's nefarious activities?
    Secretary Pompeo. Yes. Do not forget Kansas farmers too.
    [Laughter.]
    Secretary Pompeo. So I do not have the benefit of having 
seen the press conference. I was sitting here. I did not see 
the announcement or what they said. I know this was one of the 
things that President Trump was trying to accomplish in his 
conversations with Mr. Juncker. It sounds like they made at 
least some progress in that regard.
    Look, the President has been clear with respect to trade 
policy. The Europeans will not accept our agriculture products. 
There are other markets that are closed to us. He is 
endeavoring to get them opened. He is trying to drive towards 
zero, zero, zero; zero tariffs, zero non-tariff barriers, and 
zero subsidies. That is the place he is trying to get the whole 
world, and he is confident that when we get there, Americans 
will out-compete the rest of the world. And whether it is 
manufacturers or innovators or farmers or all of the above, 
they will ultimately be very successful, and there will be 
enormous wealth creation not only in the states but elsewhere 
as well.
    Senator Young. Well, I will just add that I find this 
effort of working cooperatively with the EU and other major 
economies as coherent and workable, if we are trying to really 
address the greatest challenges, which is those seen by the 
state capitalist countries, China being the worst offender. I 
do not have as much clarity with respect to our trade strategy 
as I would like to. That is one of the reasons that I keep 
emphasizing I think we need to actually have a written one, 
just as we do a National Security Strategy. But I am very 
appreciative of President Trump's announcement today.
    Lastly, Mr. Secretary, I would like to call to your 
attention that my home State of Indiana is home to 23,000 
Burmese Americans. And as I travel the state and listen to so 
many of my constituents that are Burmese Americans, they 
reiterate to me three things. Number one, they express grave 
concern regarding the Burmese military's atrocities against the 
Rohingya, and they want to see those perpetrators brought to 
justice. Number two, they reiterate a desire to expand people-
to-people ties between Burma and the United States. And 
thirdly, they express concern regarding the treatment of Chin 
Christians in Burma.
    Now, I note that you are hosting this week the Ministerial 
to Advance Religious Freedom focused on combating religious 
persecution and discrimination. And as we appropriately address 
within that forum the Rohingya crisis, I would just ask the 
Department to continue to also make clear to the Burmese 
Government that all religious minorities, including Christians, 
should be respected.
    So, Mr. Secretary, will the Department of State work with 
my office to not only continue our joint efforts related to the 
Rohingya, which I support, but also to encourage the Burmese 
Government to end any policies whatsoever that treat Christians 
as second-class citizens?
    Secretary Pompeo. Yes, Senator, we will.
    Senator Young. Thank you.
    The Chairman. Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you, Mr. Secretary, for being here.
    I certainly associate myself with many of the comments by 
the chairman about the administration. The President is making 
up foreign policy on a day-by-day basis. I think you have got a 
tiger by the tail. You have a difficult and enviable job, and I 
appreciate you spending so much time with us here this morning.
    We focus on words from the President because our allies and 
our adversaries listen to those words, and they calibrate their 
actions based upon those words. While you are right that the 
President, about 20 to 30 hours later, did correct himself 
after the Helsinki summit to say that he did, indeed, agree 
with U.S. intelligence services and not with Putin, 5 days 
later he went back on Twitter and said this. So President Obama 
knew about Russia before the election. Why did he not do 
something about it? Why did he not tell our campaign? Because 
it is all a big hoax. That is why. That is the most recent 
statement from the President saying that Russia's interference 
in the election is all a big hoax.
    So I guess my question is why should we not accept this 
most recent statement from the President as U.S. policy rather 
than the statement that you referenced on July 17th?
    Secretary Pompeo. Well, Senator, I cannot go through the 
litany of all the statements you just gave. I have a list from 
January `17, June `17, July `17, again July in `17, November 
`17, March `17. I am happy to go through them, each of which 
the President confirmed that he understood that Russia had 
meddled in the election. And then I could give you--although I 
could not recount them, I could tell you numbers of times when 
I was personally with him where he told me directly he 
understood that and indeed, provided guidance to--at this time 
it was the intelligence community. But I think he gave similar 
guidance throughout the government that we needed to do all we 
could to push back on election interference. And I have a 
catalog of activities that this administration has undertaken 
to do just that.
    Senator Murphy. So then what do you make of his most recent 
statement----
    Secretary Pompeo. Senator, I will leave you--you can 
speculate. You can draw whatever inferences you want for 
whatever purposes you so choose. Here is what I can tell you. I 
can tell our allies----
    Senator Murphy. There is no inference. I mean, it is a 
statement from the President in which he says that the Russian 
interference in the U.S. election is a hoax from July 22nd. 
There is no inference that I need to draw from that. That is 
the President's statement.
    Secretary Pompeo. Senator, you are certainly trying to draw 
inferences about American policy, and I am laying out for you 
American policy.
    And I am happy--let me talk to you about what we have done 
on election interference, if I might.
    Senator Murphy. I understand. I understand that you draw a 
distinction between the President's comments and U.S. policy. 
What I am trying to suggest to you is that what the President 
says is U.S. policy because our allies and our adversaries make 
decisions based upon those comments.
    And so let me try to drill down on a specific issue that 
Senator Corker raised, and that is the comments the President 
made regarding our potential defense or non-defense of 
Montenegro.
    Tucker Carlson asked him a question, suggesting that 
Montenegro is too small to be defended, and the President 
responded by saying, I understand what you are saying. I have 
asked the same question. Montenegro is a tiny country with very 
strong people.
    Now, I know you are going to tell me today that the 
official policy of the United States is to defend Montenegro 
and to defend our NATO allies. But can you understand why we 
would be concerned that the President would draw a question as 
to whether we would defend Montenegro? Because in the end, that 
is a communication of Vladimir Putin about whether the 
President is going to come to NATO's defense. As you know, an 
attack on NATO will not be a Russian army moving across the 
border. It will be a hybrid attack, a disguised attack. There 
will be some question as to whether the United States should 
respond or not.
    So can you at least understand why we are concerned about 
the President raising questions about the utility of the United 
States defending Montenegro?
    Secretary Pompeo. So I think the President has been 
unambiguously clear. And I can go read you his policies.
    Senator Murphy. And if you are going to his policies or the 
separate statements, I am asking you about this statement.
    Secretary Pompeo. Senator, because----
    Senator Murphy. Explain it to us. What did he mean?
    Secretary Pompeo. Senator, the policies are themselves 
statements as well. Indeed, they are the most important 
statements that the administration makes.
    Senator Murphy. Well, policies are statements and 
statements are policies. It goes both ways.
    Secretary Pompeo. No, that is not true. That is absolutely 
not true. I make lots of statements. They are not U.S. policy. 
The President says things. The President makes comments in 
certain places. We have a National Security Council. We meet. 
We lay out strategies. We develop policies. Right?
    Senator Murphy. So how do I know the difference?
    Secretary Pompeo. The President then sets the course.
    Senator Murphy. How do I know the difference between a 
presidential statement that is not a policy and a statement 
that is?
    Secretary Pompeo. Senator, here is what you should look at. 
Compare the following. Barack Obama speaking tough on Russia 
and doing nothing.
    Senator Murphy. I understand you want to rewrite the Obama 
policy on Russia, but that is simply not true. You organize----
    Secretary Pompeo. Okay. Let us go. Let us go, Senator. Let 
us go----
    Senator Murphy. --all over the world to put a 
comprehensive, unprecedented set of sanctions on Russia.
    Secretary Pompeo. The man said he would have more 
flexibility after the election.
    Senator Murphy. I am not--listen, my question was not 
about--is not about--I know you want to turn constantly back to 
President Obama.
    Secretary Pompeo. No. I just want to look at facts and 
policies, Senator. I am trying to get to U.S. policy. It is 
what I do. I am America's chief diplomat implementing U.S. 
policy.
    Senator Murphy. I think you have been dealt a tough hand 
and you do a credible job with it.
    Let me turn--let me ask a less adversarial question to end 
with.
    You said two very important things on North Korea. You said 
that they have agreed to denuclearize and that they understand 
our definition of denuclearization.
    Secretary Pompeo. That is correct.
    Senator Murphy. What is most important is that those two 
statements link, is that they have agreed to denuclearize 
according to our definition of denuclearization. Is that your 
testimony today?
    Secretary Pompeo. The definition was set forward, and 
denuclearization was agreed to. I do not know how else to----
    Senator Murphy. I am not trying to give you a hard time. I 
am just trying to understand.
    Secretary Pompeo. And I am trying to articulate what has 
been agreed to. We made clear what we viewed as the scope of 
denuclearization. It is not dissimilar to what the U.N.--how 
the U.N. has characterized it and how the South Koreans have 
characterized it. And when we did that, the North Koreans said, 
yes, we agree to denuclearize.
    Senator Murphy. So your understanding is their commitment 
is upon our definition.
    Secretary Pompeo. It is, Senator. Yes.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman. Before turning to Senator Isakson, so in 
essence the communique that we saw coming out of the Singapore 
meeting--that is the sum total of the agreement we have with 
them.
    Secretary Pompeo. Yes. We have also had conversations after 
that. It is also the case that that agreement incorporated the 
Panmunjeom Declaration which, in turn, incorporated previous 
inter-Korean agreements as well. So the Singapore summit is 
stacked on a series of agreements, each of which is encompassed 
within the agreement between President Trump and Chairman Kim. 
So you can look to the full breadth and scope of those 
agreements about things the North Koreans have committed to.
    The Chairman. And, look, I do not think any of us would 
expect that there would be a meeting in Singapore and all the 
issues would be worked out. I think we all understand it is 
going to take a long time to get this all worked out.
    Senator Isakson?
    Senator Isakson. I spent all week trying to come up with 
intuitive, brilliant, incisive questions to ask you, 
recognizing how intelligent and articulate you are, and I ran 
into everything except one thing. I had it written down here it 
would be the first question I would ask you, and then, by 
golly, the president of the EU had an agreement while we are 
sitting in here listening to this that answered my question. 
But I want to repeat it anyway.
    Are you seeing consequences of the trade proposals of the 
President's, particularly the 232 and the tariffs being 
applied, having any impact diplomatically on the United States 
of America?
    Secretary Pompeo. Yes.
    Senator Isakson. I do too. And the reason I brought it up 
is this. Actions have consequences, and I hope the 
administration will look to the State Department for insight 
and advice on the effects of the tariffs on the diplomacy of 
the United States of America vis-a-vis the rest of the world 
because it has a significant impact because agriculture is the 
number one thing upon which we are going to get levied the 
punitive tariffs by the people we are trying to raise tariffs 
on now. We feed the world. We are the free world's bread 
basket. This committee has passed the Feed the Future 
legislation some time ago, but we are going to be in deep 
trouble if we do not have a policy that recognizes both our 
responsibility and the world's need and food's importance in 
peace and security.
    So not to lecture you because I would not do that. You have 
forgotten more than I know. But I do know that the President's 
proposals and the tariffs are serious business and he needs to 
consider the consequences on the diplomacy of the United States 
and hunger in the world.
    So I will let you respond to that.
    Secretary Pompeo. Senator, I think the President 
appreciates that. I think he understands that the tariffs that 
have been imposed have a diplomatic effect. They are part of my 
broader effort, to be sure. Some of those things create 
difficulties. Some of those things create real opportunities. 
We have seen each from the sanctions that have been levied to 
date. And I know President Trump--it sounds like he made some 
progress today with the EU. I have watched Secretary Mnuchin, 
Bob Lighthizer, and the team try to use the effect of those 
tariffs to achieve good outcomes so that farmers can have 
access to markets, so that we get energy sold to countries that 
refused to take our energy. Each of those things are important 
parts of the President's agenda to try and create wealth for 
ordinary Americans.
    Senator Isakson. And I commend the administration's 
commitment to zero, zero, zero being the goal, as far as the 
trade policy is concerned. But getting to that goal is going to 
require good communication between all facets of our 
government, including yourself and the State Department.
    Secretary Pompeo. Yes, sir.
    Senator Isakson. And that was the point I was trying to 
make.
    Secretary Pompeo. Yes, sir.
    Senator Isakson. I also am sorry Senator Paul left because 
I was going to begin my remarks by saying I agreed with him on 
something, and I do not always do that. But you all want to 
need to tell him that I prefaced my remarks.
    But he is right about not being afraid of meeting with 
Vladimir Putin and the Russians. Meetings with these people in 
my judgment are not as bad as a lot of people have professed 
them to be. I have seen some people who have said we ought to 
back up from meeting with him. But I think the more open we can 
be in meeting with the leadership of countries we are having to 
deal with one way or another, the more it forces them to be 
open.
    What the President has done, when he went to North Korea, 
is all of a sudden Kim Jong Un, sitting on the other side of 
the table, said I am sitting across the table with the 
President of the United States. The world media is here and 
they are looking to me for answers. And all of a sudden, after 
it is all over and the pomp and circumstance is all over, North 
Korea has got to be accountable or it is going to have pressure 
to be accountable. So I think the President's engaging these 
leaders makes an awful lot of sense in terms of bringing them 
out to surface in the dealings that we have with them. And I 
just wanted to throw that in there because I think it is an 
important thing.
    Lastly, on bipartisanship, Senator Coons is here who, by 
the way, had a significant role in your getting confirmed, as 
you know, and you and I have talked about that. So I am proud 
of my friend Chris Coons and I am proud of you, and you are a 
great choice for Secretary of State.
    But he and I have worked together on State Department 
issues and trade issues and tariff issues on behalf of poultry 
in the United States of America and particularly with the South 
Africans. We cracked down the door here 2 years ago and now we 
are getting 19 million metric tons of chickens from Delaware 
and Georgia sold to the South Africans who love them and are 
eating them.
    And it pointed out to me, once again, to reinforce what I 
did in my first statement about agriculture. We have such a 
powerful force with our agricultural productivity and the level 
to which we have taken it in our technology in agriculture. We 
need to use that as a tool for our relationships around the 
world. And I know you want to do that and want to be a part of 
that. You can help us in doing that because every time we make 
a trade deal that sells Georgia chickens or Delaware chickens 
to the South Africans, is good for Georgia and Delaware, but it 
is good for America too.
    Secretary Pompeo. Amen. I agree, Senator.
    Senator Isakson. Thank you for your service to the country.
    Secretary Pompeo. Thank you.
    The Chairman. Thank you. I am not sure Senator Coons wanted 
you to advertise that again. I am sure his social media account 
will have a lot of incoming in explaining.
    But with that, Senator Coons. I am thankful for the role 
you play.
    Senator Coons. Thank you, Mr. Chairman. And I was grateful 
for an opportunity to just show a little courtesy to a dear 
friend, Senator Isakson, in that previous incident you are 
referring. And I will, at the risk of not being as gracious as 
I should be, just share that when Senator Isakson and I met 
with the South African minister, that meeting was to hear their 
concerns about the impact of the steel tariffs on a very 
important alliance. Chairman Corker and I recently were in 
Sweden and had a chance to hear from them about their concerns 
about the steel tariffs.
    I am encouraged by the announcement that has just come out 
an hour ago about the meeting with the EU leadership, but 
remain very concerned that some of our closest allies around 
the world are getting the wrong message. In a dinner last night 
with the Canadian Ambassador, a large bipartisan group of us 
were there to try and reassure them. I do think that we should 
be corralling our allies and partners in confronting China's 
aggressive, prolonged, and inappropriate trade actions and 
avoiding some of the needless harm we have caused to close 
alliances. The point of the South African meeting was that they 
are preparing countervailing tariffs that might well shut down 
our access to their market. But I am not here to talk about 
chickens, as much as I do love talking about chickens with my 
friend, Senator Isakson.
    Mr. Secretary, I just want to say first thank you for this 
very long hearing. I want to confirm. A number of Senators have 
asked you pointed questions about progress with North Korea, 
with Russia, issues around Syria and Iran, and you have said 
not in this setting. Will you return soon to brief us in a 
classified setting? Because there is a number of important and 
pressing things we really have not been able to address today. 
Will you come back and give us that classified briefing?
    Secretary Pompeo. Of course.
    Senator Coons. Thank you.
    And a number of Senators on both sides have recognized that 
you have got an important role in a very difficult time. I want 
to, up front, just say I was pleased to hear about the Crimea 
Declaration. I think it is important for the administration to 
be forceful and clear about our position with regard to 
Russia's illegal annexation of Crimea.
    I remember my whole childhood, there was a little box in 
every American map that said we refused to recognize the 
illegal annexation of the Baltic States by the Soviet Union in 
1940. And for decades, folks just thought that was just 
aspirational and would never happen. Today the Baltic States 
are free. They are NATO allies.
    And the chairman and I recently visited Latvia as well and 
heard from them about their determination to remain free and to 
take strong steps against Russia's interference.
    Finland and Latvia, the Baltic States, other allies of ours 
in that region are prepared to invest more in their own defense 
and to strengthen their defenses against Russian interference 
in their upcoming elections. There are elections in Latvia and 
Modolva and Sweden that are happening soon.
    What best practices are you seeing among our European 
allies? What tools do you think the State Department can and 
should be using? And how should we be doing, as you put it, 
everything we can to push back on likely election interference 
by Russia to our vital allies, as well as to our upcoming 
midterm elections?
    Secretary Pompeo. Yes. It is a good question.
    We, the United States Government, my previous organization 
in the intelligence world did a great deal of work with our 
European partners. We did it with the German election, French 
election, to try to help identify threats and vectors, good, 
solid intelligence sharing. I think that is an underpinning so 
that these governments can understand the threat. Sometimes 
America is better positioned to see them and observe them than 
some of these other countries would that are smaller with fewer 
resources.
    And then I think it is also important--and we have begun to 
do this--that countries begin to share the actions that they 
observed, that is, not only the precursors, the indications, 
but what actually took place to download so that we can begin 
to understand how to push back.
    I think it was Senator Paul who said earlier there are lots 
of variations on the theme. There are overt efforts. There 
are--call them----
    Senator Coons. Covert efforts.
    Secretary Pompeo. The covert efforts. There are influence 
operations. There are lots of methods by which adversaries, not 
just Russia, can attempt to undermine elections in democracies. 
We have an obligation to the Europeans, and it benefits America 
as well if we try and help them ensure that their democracies 
are protected as well.
    Senator Coons. And I do think we would benefit from hearing 
more and more regularly more clearly what we are doing with our 
close allies to convey that we get what is happening to them 
and that we are concerned about what is happening to us.
    Frankly, I want diplomacy to succeed. I prefer an 
environment of diplomacy to one of a perception of imminent 
conflict with either North Korea or Russia.
    And you have been very forceful, even aggressive today in 
advancing the administration's position. As the chairman said 
earlier, a lot of the tension here I think comes from the gaps 
between your forcefulness and clarity and what I perceive and 
many perceive to be the President's lack of forcefulness and 
clarity. In your written statement, you say that President 
Trump has stated, quote, I accept our intelligence community's 
conclusion that Russia's meddling in the 2016 election took 
place. And then you go on to say, he has a complete and proper 
understanding of what happened.
    My concern, if I could just directly, is that our President 
has never made a clear and comprehensive speech outlining the 
threat posed by Russia, our strategy to respond to it, and 
criticizing directly President Putin for directing the attack 
on our election in 2016.
    Just a few days ago--now I guess more than a week ago--
Robert Mueller delivered indictments against 12 Russian 
military intelligence officers, GRU officers, calls them out by 
name, gives enormous detail of how Russia attacked our 2016 
election. And one of the ways in which our President then 
undermines the clarity and credibility of that action by our 
Department of Justice is by calling the Mueller investigation a 
rigged witch hunt or by standing next to President Putin in 
Helsinki and suggesting he is uncertain whether our 
intelligence account of what happened in 2016 is the more 
credible or the Russian one.
    Could you please clarify for me? If there are clear 
indicators that Russia continues to interfere in our election 
planning up to this November, would you advise the President to 
rescind an invitation to Vladimir Putin to come and meet in the 
White House? Do you think it is unwise to extend the 
credibility and the prestige of a White House meeting without 
being clear about Putin's threat to our upcoming elections?
    Senator Paul said--and I agree with him--we should meet 
with our adversaries. But as President Reagan did, we need to 
be clear-eyed about who they are and call them out for being 
adversaries before sitting down with them.
    Can you commit to being clear with the President and 
helping us understand whether or not the President clearly 
understands the attack on our election?
    Secretary Pompeo. So I have tried to do that earlier today, 
Senator Coons. I think the President is very clear about that. 
I find it surprising that statements that are made, especially 
a statement like a statement for the record. I mean, you should 
all know the White House cleared that secret. I uttered the 
words. These are President Trump's statements in that sense as 
well. These are statements from the United States Government, 
of which President Trump is very clearly in charge. And somehow 
there is this effort to suggest that they are not that. The 
statements that I have made today are fully consistent with--
unless I misspoke somewhere along the way, which is possible 
after a couple hours. These are, indeed, the administration--
President Trump's policies that we are implementing.
    Senator Coons. My core point, Mr. Secretary, was that while 
your statements have been clear, our President's statements 
have confused our allies, encouraged our adversaries, and have 
failed to be comparably clear. And I am concerned that an 
invitation to President Putin to the White House, without 
clarity about his threats to our election, his threats to our 
allies, puts at risk clarity. I welcome the Crimea Declaration 
today. I think that is an important step forward, but I urge 
you, if President Putin attacks our next election, advise 
President Trump to withdraw any invitation to President Putin.
    Thank you, Mr. Chairman.
    The Chairman. Senator Portman?
    Senator Portman. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for coming back to testify again. 
You have had a long afternoon. I think you ought to do it more 
often. I mean, while you have been here, we managed to 
negotiate a successful preliminary agreement with the European 
Union. You managed to issue a declaration supporting what many 
of us have been hoping to see with regard to Crimea. And there 
was a third thing that happened, and I do not know if it is 
good or bad. But my understanding is the White House has 
decided to postpone the visit of President Putin until after 
the first of the year.
    Secretary Pompeo. When I left my business, it began to 
succeed as well.
    [Laughter.]
    Secretary Pompeo. So I will come down here.
    Senator Portman. I think they are waiting until you are 
gone before they make all these decisions. No.
    I want to comment briefly on what you responded to with 
Senator Coons on what tools could we use with regard to pushing 
back on some of the interference in other countries' elections. 
I had hoped that you would say the Global Engagement Center 
because it is a tool you have. And frankly, although Senator 
Murphy and I wrote legislation to give you the authority to do 
it, you have more aggressively used that tool both by providing 
funding for it and now hiring the right people than your 
predecessors.
    And it is precisely this sort of situation. I will give you 
the recent example--it is very important--which is what is 
going on with Macedonia. As they go for their referendum to be 
part of Europe, these European integration efforts tend to be 
the place where the Russians see an opportunity and engage in 
significant disinformation, a great opportunity for us to push 
back in the appropriate way through the Global Engagement 
Center.
    Would you confirm to me that you have thought about that 
and you will think about that in the future?
    Secretary Pompeo. Yes, of course. May I add one thing that 
I think you will find interesting? When I was with my Russian 
counterpart, Sergey Lavrov, he is very aware of the Global 
Engagement Center.
    Senator Portman. He should be.
    Secretary Pompeo. He raised the issue with me when I met 
him. I think it was when I met with him in person. It may have 
been in a conversation by phone. But in my last interaction 
with him, he raised the issue.
    Senator Portman. As compared to the resources the Russians 
put into their efforts, it is minuscule, as you know, but it is 
significant. And I think it will be done professionally thanks 
to some of the work you have done, and I applaud you for that.
    We discussed at your confirmation hearing in April the need 
for us to focus more on Central and Eastern Europe, 
specifically Ukraine--I had just come back from a trip to 
Ukraine. I had been out in the contact line in April--where 
there is a hot conflict going on, I mean, where there are 
people dying. And it is, when you go there, pretty moving 
because you see how the Ukrainians have had to defend 
themselves and their territorial integrity really for the last 
4 years against Russian aggression.
    And I believe, as I think you do, that a successful pro-
Western Ukraine is not only critical to the region but I think 
it is the best antidote to Russian expansion in the region.
    Along those lines, I want to commend you for last week 
releasing the $200 million in military assistance. This goes 
for equipment training, other assistance. And I think we have 
not taken enough credit for what happened, which is we told the 
Ukrainians, you need to make reforms. And when I was there in 
April, I talked to President Poroshenko. I also talked to 
Speaker Parubiy then and again last month about this. In fact, 
I talked to him the day after they passed reforms, saying we 
need to see these reforms to your defense system by, frankly, 
getting away from the Russian influence system they had into 
one that is more consistent with European democracies having a 
civilian control of their military, among other things.
    They did that. You then were able to release the $200 
million. That is exactly how it should work. Right?
    So I commend you for that, and I think it is going to make 
a huge difference. The lethal weapons they now have to defend 
themselves makes a huge difference. And so the actions 
sometimes do speak louder than the words, and in those cases, I 
think it is very important.
    On the resolution which you issued today with regard to 
Crimea, I was really happy to read it. I know that many in our 
community in Ohio who follow this closely are pleased with it. 
They believe this puts the United States clearly in the 
position where we will not release sanctions until this issue 
is resolved.
    And I would ask you today, can you confirm that the 
Russians have a clear understanding that sanctions related to 
Crimea will not be able to be reduced or certainly eliminated 
so long as Crimea remains an issue?
    Secretary Pompeo. I think they did before the statement, 
and I am confident after the statement that the President 
released, that will reaffirm their understanding.
    Senator Portman. Do you believe the Russians have a clear 
understanding of the sanctions related to their actions in 
eastern Ukraine along the border cannot be altered without real 
implementation of the Minsk Agreement and the end to that 
aggression?
    Secretary Pompeo. I do.
    Senator Portman. There is a lot of talk about new 
sanctions, as you know, with regard to Russia. And I do support 
us having a better bilateral relationship with Russia. I think 
it is important. We are two major nuclear powers. We have got a 
lot of weapons pointed at us. I also support discussions that 
are prepared. I think it is very important that our statements 
both in private and in public are clear and consistent, and I 
think that needs to happen from the President all the way down 
to our diplomats such as yourself. And again, I think you have 
done that. I think that was the issue with Helsinki.
    In addition to what is going on in the eastern border of 
Ukraine and Crimea, I think there is a clear consensus in the 
national security community, not just the IC, but the national 
security community more broadly about the severity of the short 
and midterm threat that Russia poses. It is espionage. It is 
cyber. It is information capabilities, meddling in the 2016 
elections, and now in the 2018 elections, our intelligence 
communities seem to have a consensus around that, including you 
in your previous role.
    And we have sanctions in place, but they do not seem to be 
working. I mean, that long list that I just gave--they do not 
seem to be working.
    So let me ask you a question, and this is not an easy one 
to answer. But, one, why are they not working? Second, do you 
support new sanctions specifically related to the new 
information we have about 2016 and about 2018 interference in 
our democratic process? And if so, what kind of sanctions would 
be more effective?
    Secretary Pompeo. So your point is well taken. In spite of 
the work that has been done by this administration, there 
continues to be Russian malign activity. We have to use 
sanctions as a tool. You talked about the Global Engagement 
Center. I think there are many tools that we can use. In my 
role as a diplomat, we have a handful, and we are working to do 
what I think it was Senator Rubio at the beginning of this 
hearing described as raise the costs sufficiently and convince 
Vladimir Putin that it is not in his best interest to continue 
this behavior. That is going to be difficult. I know precisely 
who Vladimir Putin is. I know his history. But that is the 
task. The task is for us, the U.S. Government. That includes 
you and the executive branch to raise the costs on Russia 
sufficiently that they cease this malign activity that 
adversely impacts the United States.
    Senator Portman. Do you believe new sanctions are 
appropriate to raise the cost----
    Secretary Pompeo. I do.
    Senator Portman. --this new information we have received?
    Secretary Pompeo. I do, Senator. If we can find the right 
places and the right leverage point, the things that will 
actually make a difference to Russia, I think it would be 
constructive to head down that path.
    Senator Portman. And can you tell us what you think might 
more effective than the previous sanctions that have not been 
effective in accomplishing those means?
    Secretary Pompeo. I do not know that I have a great answer 
for you.
    Senator Portman. Do you think it is focusing more on 
individuals, on oligarchs? Do you think it is focusing more on 
some of the economic chokepoints?
    Secretary Pompeo. It would be my judgment that each of 
those is necessary. The things that impact the Russian economy 
are the things that I hear the Russians most concerned about.
    Senator Portman. Secretary, thank you. I am glad you are 
there, and we appreciate your testimony today.
    The Chairman. Thank you.
    Senator Booker?
    Senator Booker. Thank you very much. I guess I am batting 
cleanup. I appreciate the endurance of our Secretary. I know he 
has hard days, long days, and I am grateful for this 
opportunity to question him.
    I really want to pick up on some of the line of questioning 
that Senator Portman asked.
    It is important what Presidents say, and you and I come 
from that school, I imagine, where you have Ronald Reagan's 
clear, unwavering commitment to standing strong against then 
the Soviet Union. You saw it in the next George Bush. You have 
seen it in Presidents.
    And so here is a clear statement of fact that the President 
tweeted out. I am concerned that Russia will be fighting very 
hard to have an impact on the upcoming election, which is 
consistent with intelligence communities that they are 
continuing to attack. Of course, he said based on the fact that 
no President has been tougher on Russia than me, they will be 
pushing very hard for the Democrats. They definitely do not 
want Trump. They do not want Trump. Now, that obviously was 
surprising to see, given that we just heard from Vladimir Putin 
that he prefers Trump.
    But I am concerned that the President does not understand 
that this ongoing threat is happening. When he came out of his 
secret meeting with Putin that was shrouded in secrecy, he said 
our relationship has never been worse until it is now because 
that has changed as of about 4 hours ago.
    Has anything changed in the Russian attacks or ongoing 
threats to our 2018 elections?
    Secretary Pompeo. Senator, what I believe the President was 
referring to there--and obviously, he speaks for himself in 
that sense. But what I understood him to say was that he had 
had--for the first time in his administration, he had had a 
chance to have an extensive, candid conversation with the 
leader of Russia, lay out and articulate America's interests to 
him so that he understood unambiguously what those interests 
were, and to, in turn, hear from Vladimir Putin about the 
things that he thought mattered most to Russia. So when I heard 
him say things have changed, I think that is what he was 
referring to. It was the first time--they had met before but--
--
    Senator Booker. Mr. Secretary, I have got limited time. So 
I agree with Senator Rubio. There has got to be a cost to 
people when they attack the United States, not just attacking 
the United States. They have assassinated people on British 
soil. They are threatening our allies. They are intervening in 
Western democracies, annexing Crimea, ongoing hostilities in 
the Donbas region of Ukraine.
    And we passed legislation here, the CAATSA legislation, 
which you had an exchange with my colleague, Senator Cardin, 
about, and I think you said--this is the transcript that you 
said. You said, thank you for presenting the law. We really 
appreciate it. We think it makes good sense. The President 
signed it as well. We have passed sanctions under the law. But 
we have not used all of the sanctions.
    Now, I was excited to see Nikki Haley come out and say that 
we were about to put on new sanctions. In fact, the RNC got 
talking points from the White House telling their pundits to 
say exactly what Nikki Haley said before the United Nations, 
that we were going to put on additional sanctions. But we have 
not used those tools in our toolbox. They said that Nikki Haley 
was confused. She said, I am sorry, I was not confused. This 
was a step that the White House was going to take.
    And so I hope you understand that there are many of us in a 
bipartisan manner that feel like we have put tools in the 
toolbox, but the President has shrunk from taking them and 
using those tools to stand strong against people that are 
ongoing attacks on the United States of America.
    Nikki Haley said, absolutely, you will see that Russian 
sanctions will be coming down. Secretary Mnuchin will be 
announcing those. It has already said that they are going to go 
directly to any sort of companies that are dealing with 
equipment related to, in this case, Assad and chemical weapons 
use.
    So I am having trouble--and, again, I think I am one of 
those people who agrees with some of my Republican colleagues 
that Presidents should be allowed to meet with folks one-on-
one. But this is, as far as my staff can find, the only meeting 
with anybody in the G-20 that has been a one-on-one meeting 
without staff the details of which have not been disclosed.
    And it is particularly troubling given, as Senator Udall 
said, we have a long history of this administration having ties 
to the Russians. He read a list. whether it is the Russian 
oligarch close to Putin who bought property from Trump at a 
significant profit, whether it was tweeting about his deals, 
whether it was Trump, Jr. talking about Russians make up a 
disproportionate cross section of our assets, whether it was 
Maria Butina who is asking a question with Trump responding, I 
do not think we need more sanctions. I do not think we need 
sanctions. But this goes on.
    As Senator Coons just said, we have a President that right 
now sees that we have an ongoing investigation into the very 
attacks that the Russians did to us that have resulted in over 
80 charges, over 30 people being charged, people in the 
administration, and people of the campaign. And this is a 
President that is having private meetings with the Russians.
    Now, this is actually not the first private meeting that he 
had. I am sure you remember that this President pulled aside at 
a G-20 meeting and had a one-on-one discussion, unbeknownst to 
his staff, and had a conversation that he then said, when asked 
what they discussed--and I quote--he said ``we discussed 
adoptions''. Now, ``adoptions'' is a code word, as we see, for 
sanctions. It is the same code word that was used to describe 
pre-election meetings between Kushner, Manafort, Don, Jr., 
these ideas of adoptions.
    Now, I have listened very closely. I am the last person to 
ask questions, but you have refused to even say if relaxing 
sanctions, directly if relaxing sanctions was part of the 
meeting that the President had. And so I find it hard to 
believe that we are a nation that is under ongoing attack, and 
you cannot come forward and say--this is a president that you 
say you represent--that we are standing strong against the 
person. But we are not. The very President who actually invited 
some of this here when he said--and I quote--``Russia, if you 
are listening, if you are able to find the 30,000 emails that 
are missing''--he invited the very attacks that we are talking 
about.
    And so what I want and what I think my colleagues want on 
both sides of the aisle is to understand and believe that we 
are not having private discussions about relaxing sanctions, 
that we are showing the same kind of strength that past 
Presidents have shown when enemies attack the United States of 
America.
    And you just committed to Senator Portman that you believe 
more sanctions are needed. And so are we to expect in the 
coming days that we will be applying the sanctions that the 
Senate has provided this President in a bipartisan way to hold 
Russia accountable and show them that there will be a cost for 
their attacks on this nation?
    Secretary Pompeo. Senator, I think this administration's 
record, over 200 sanctions--200 sanctions, Senator--is 
reflective of this administration's steadfastness with respect 
to our willingness to push back against Russia. I think it is 
unquestioned. You just spoke for coming on 7 minutes about a 
whole litany of things political. Let me give you America's 
foreign policy. 200-plus sanctions----
    Senator Booker. Well, sir, clearly there have been 
divisions in the administration if Nikki Haley is talking about 
sanctions on one day and then you are not putting them on, on 
the next day.
    Secretary Pompeo. Senator, there is vigorous debate in this 
administration on lots of things. There is no doubt about that. 
The President did not hire a single shrinking violet, not one 
of us, and we often disagree about things. There is no doubt 
about that. And sometimes we prevail and sometimes we do not. 
The President calls the ball, and the President called the ball 
over 200 times to sanction Russian entities. That is pretty 
strong.
    Senator Booker. The President is not using the tools that 
the United States Senate----
    Secretary Pompeo. We have used CAATSA. We have complied 
with CAATSA. We will continue to comply with CAATSA. I put this 
administration's work on sanctions against Russia. Let us just 
rack and stack for the last 8 years.
    Senator Booker. Mr. Chairman, I want to conclude with 
entering into the record the President of the United States' 
statements on CAATSA. And I will read them and put the whole 
statement in the record. This is what he said on the day CAATSA 
was introduced.
    Since the bill was first introduced, I have expressed 
concerns to Congress about the many ways it improperly 
encroaches executive power, disadvantages our country, and 
hurts the interests of this nation. Still, the bill is 
seriously flawed, particularly because it encroaches on the 
executive branch's authority. Congress could not even negotiate 
a health care bill after 7 years. By limiting the executive 
ability's authority, this bill makes it harder for the United 
States to strike good deals.
    Secretary Pompeo. I actually agree with----
    Senator Booker. And hold on. The Framers of the 
Constitution--well, you did not agree with it when you were 
talking--I can read your words back about how great this CAATSA 
deal is.
    I put this in the record.

    [The information referred to is located at the end of the 
hearing]

    Senator Booker. And I finish my comments just simply by 
saying this is not a President who is using the tools. This is 
not a President who is strong against Russia. This is not a 
President that is standing up against people that are doing 
ongoing attacks on the United States of America that are 
continuing at this moment.
    Thank you, Mr. Chairman.
    The Chairman. Senator Menendez?
    Senator Menendez. Well, Mr. Chairman, let me thank the 
Secretary for being here. But I must say that after nearly 3 
hours, here are my takeaways.
    This administration is increasingly not transparent. It is 
not transparent as to what takes place at the summits. It is 
not transparent in terms of their--I hear that there is an 
effort not to have readouts when the President has 
conversations with foreign leaders, which has historically been 
the case. There is an increasing less number of briefings. We 
have not still had a briefing on North Korea in a classified 
setting nearly 2 months afterwards.
    So what I took away is that as it relates to North Korea, 
we have no agreements on anything. The best I can glean is that 
they understand what we mean by denuclearization, but they have 
not agreed to that definition.
    I really do not believe, Mr. Secretary, you know what 
happened during the President's 2-plus hour conversation with 
President Putin. And I really do not know much more about the 
summit after sitting here for 3 hours than I did before.
    I want to say to you I want you to think about the 
suggestion that what the President says is not the policy of 
the United States. When the President speaks----
    Secretary Pompeo. Can I clean that up, Senator? You are 
right. I misspoke there.
    Senator Menendez. If you want to clean it up----
    Secretary Pompeo. I would love to. Thank you.
    Senator Menendez. --because when he speaks, that is the 
policy of the United States.
    Secretary Pompeo. I would love to, Senator. I would love 
the chance to do that.
    Senator Menendez. Yes. Go ahead.
    Secretary Pompeo. Yes. I misspoke. It is the case. The 
President calls the ball. His statements are in fact policy. 
But it is the case that when all of us speak in informal 
settings in response to questions, we are not covering the full 
gamut of things that impact the world. That is what I intended 
to say. I saw the glee on your side walking away trying to make 
a political point from that. That is silliness. This President 
runs this government. His statements are in fact U.S. policy.
    Senator Menendez. All right. So now we understand that when 
the President speaks, it is the policy of the United States.
    Secretary Pompeo. Senator, you have seen his policies, 200-
plus sanctions. You have seen them, Senator.
    Senator Menendez. I am asking you questions. I understand 
you are summarizing here.
    Secretary Pompeo. Senator, I have now been here 3 hours, 
and you have got a political soliloquy.
    Senator Menendez. No. You know what? I have listened to 
your political soliloquy as a Secretary of State sitting at 
that table demeaning some members here because you said that 
Senator Shaheen believes more the Russian Defense Ministry. She 
was quoting them only because we do not what our own government 
is saying. So please, do not talk to me about politics. If you 
want to talk about politics, if President Obama did what 
President Trump did in Helsinki, I would be peeling you off the 
Capitol ceiling. Please.
    So here is the point. When the President speaks, it is the 
policy of the United States. And so when he says in one 
respect--I applaud this declaration about Crimea, but then he 
goes and says that Russia should join the G7. Well, the reason 
Russia is not in the G7 is because they invaded Ukraine. So 
which is the policy? Because when the President speaks, it is 
the policy. And I must say, sir, when you speak around the 
world, people believe that what you say is a reflection of the 
policy of the United States.
    So I want to close by saying one thing I heard here today 
that I can agree with you is that we need more sanctions, and I 
look forward to working with the chairman and Senator Graham 
and others who are interested in this regard. Hopefully we can 
come together in common cause to push back on Russia on 
sanctions that we can pursue.
    And secondly, I want to reiterate I believe that it is 
rightful for the members of this committee, even if it is in a 
classified setting, to speak to the translator and/or to see 
her notes because that is the only way we will know what truly 
transpired.
    The Chairman. Would you like to give any response?
    Secretary Pompeo. Not a word.
    The Chairman. You had earlier tried to lay out the things 
the administration was doing relative to the election and were 
cut off. Would you like to do that in a public setting?
    Secretary Pompeo. I am just fine, Senator. I think I have 
had the opportunity to respond adequately. I appreciate you 
having been so gracious to have permitted me to do that.
    The Chairman. And we had some exchange relative to a 
classified briefing. Let me say this. I know you are busy.
    Secretary Pompeo. I am happy to try and find a time that 
works for everyone to do that, as I think I committed to 
another Senator.
    The Chairman. We will keep the record open until the close 
of business tomorrow for written questions. I know you have got 
a lot to do. To the extent your staff could help answer those 
questions as briefly as they could, that would be most helpful.
    Secretary Pompeo. We will do it.
    The Chairman. I appreciate you coming before us today.
    And with that, the meeting is adjourned.
    [Whereupon, at 6:00 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


              Responses of Hon. Mike Pompeo to Questions 
                    Submitted by Senator Bob Corker

    Question. What would a failed denuclearization process with North 
Korea look like? At what point should the United States be prepared to 
walk away from negotiations?

    Answer. Peace is worth the effort. The United States and its allies 
are committed to the same goal--the final, fully verified 
denuclearization of North Korea, as agreed to by Chairman Kim Jong Un. 
Our focus right now is to make these negotiations successful. We take 
Kim Jong Un at his word that he intends to denuclearize. If we find 
that is not the case, we will respond accordingly.
    Sanctions will remain in full effect until North Korea 
denuclearizes. The full implementation of U.N. Security Council 
resolutions by the international community brought us to this moment 
and are necessary for a successful outcome of this process.

    Question. What role do human rights play in our engagement strategy 
with North Korea? Does the administration intend to continue to speak 
out about human rights abuses in North Korea, including the upwards of 
2.6 million North Koreans enslaved by their own government?

    Answer. The President raised North Korea's human rights record in 
his summit meetings with Chairman Kim Jong Un, and the United States 
will continue to raise these issues at all levels going forward. We 
remain deeply concerned by the egregious human rights violations and 
abuses committed by the North Korean government and will continue to 
promote accountability for North Korean leaders responsible for these 
acts. The United States also remains deeply concerned about the well-
being of the North Korean people.
    This administration has been very clear about defending human 
rights. We will continue to work with the international community to 
raise awareness, highlight abuses and violations, promote access to 
independent information, and keep pressure on the DPRK to respect human 
rights.

    Question. How does a peace treaty fit into the engagement process 
with North Korea? What, if any, sequencing on this issue has been 
agreed to with North Korea? What countries would be a party to such an 
agreement?

    Answer. Our objective is the final, fully verified denuclearization 
of the DPRK, as Chairman Kim Jong Un committed to during his summit 
with the President in Singapore. We have made clear to all parties 
involved that a final peace settlement on the Korean Peninsula, 
including a peace treaty to replace the armistice, will require the 
complete denuclearization of the DPRK.

    Question. What is the administration's message to South Korea on 
joint economic projects with the North? Is the administration prepared 
to provide sanctions exemptions?

    Answer. We have been clear with our South Korean ally that 
sanctions remain in effect and will be enforced. The international 
community cannot let up on pressure until the DPRK denuclearizes. We 
support the deepening of inter-Korean ties, but we will not get pulled 
into a cycle of providing economic benefits to the DPRK without action 
on the denuclearization issue. We are closely aligned with the Republic 
of Korea on this message.

    Given high degree of United States national security interest 
across the Horn of Africa from Somalia to Sudan, recent political and 
policy decisions in Ethiopia and Eritrea provide a significant moment 
for historical transformation that could stabilize and provide 
significant opportunity for economic and security reforms and 
development.

    Question. As China invests significant amounts in new and 
influential ways in the region, from a military base and personnel in 
Djibouti to a range of economic incentives that put national sovereign 
independence at risk, how is the United States ensuring its national 
security interests and influence remains dynamic in the face of such 
incipient influence?

    Answer. Africa offers real opportunities thanks to some of the 
world's fastest growing economies and an expanding labor force. The 
United States must do more to present our African partners with better 
alternatives so Africa can realize its full economic potential while 
advancing our national security interests. For example, the African 
Growth and Opportunity Act (AGOA) and the Generalized System of 
Preferences trade preferences program, for which both Djibouti and 
Ethiopia are eligible in 2018, encourages continued progress in good 
governance and other areas including the rule of law, anti-corruption, 
poverty reduction, workers' rights, advancing a market-based economy, 
and cooperating in anti-terrorism activities to support U.S. national 
security.
    We are not seeking an adversarial relationship with China. We will 
not shy away, however, from speaking forthrightly about and contesting 
Chinese policies and actions that aim to undermine U.S. interests in 
Africa. We will continue to ensure our allies and partners are secure 
from military threat or coercion. We will also seek to expand and 
modernize U.S. development finance tools to send a clear message that 
we continue to lead the world in supporting sound, responsible, and 
fair economic growth, as well as sustainable and fair business 
practices.

    Question. Similarly, Russia is investing in direct ways intended to 
undercut and displace American bilateral influence in the Horn and 
beyond. How does the U.S. perceive recent increases and rhetoric by 
Russia and what efforts are being made to appropriately address our 
national interests as they pertain to these efforts?

    Answer. We will remain vigilant in our observation of Russian 
developments, such as arms deals and basing, to adequately address them 
if they encroach on our national interests. The United States will 
continue to pursue our compelling interests in advancing good 
governance and maintaining our security through security cooperation 
efforts in Africa.

    Turkey and Qatar are in a continuing and escalating battle with 
Saudi Arabia and the UAE that has had problematic and wide-ranging 
effect from South Africa to Egypt. The Red Sea and Sea of Aden are home 
to critical chokepoints that remain strategically important to 
international trade and our military's proper use of the maritime 
environment. Today, reports indicate that Saudi Arabia suspended its 
oil shipments through the region due to threats from Iranian backed 
Houthi in Yemen.

    Question. Given the high and strategic interest of the region to 
the United States, is there any strategy to address the creeping 
influence that puts our own at risk? Is there any consideration for a 
regional senior diplomatic official that can effectively identify and 
address the accelerating regional contest between the two jurisdictions 
of Africa and the Gulf?

    Answer. We are committed to countering Iran's malign regional 
influence through our comprehensive Iran strategy. This strategy 
includes efforts in Yemen, where our goals are: persuading parties to 
resolve the conflict under U.N. auspices, countering Iranian influence, 
addressing the dire humanitarian situation, preventing terrorists from 
exploiting Yemen's vulnerability, and protecting allies and partners in 
the region as well as freedom of navigation in the Red Sea. We are 
concerned about recent attacks on commercial vessels and other threats 
to freedom of navigation in the Red Sea and through the Bab al Mandeb. 
Senior Department officials encourage all sides of the Gulf rift to 
resolve their differences peacefully and with mutual respect. Working-
level officials in the Bureaus of Near Eastern Affairs and African 
Affairs coordinate closely. We emphasize to all sides that the Gulf 
rift undermines our shared goal of building a unified front against 
Iranian influence in the region. It is important that states in the 
Horn of Africa should not feel the need to ``pick sides'' in the Gulf 
rift. New developments in the Ethiopia--Eritrea relationship show the 
welcome potential for peace in the region and present an important 
opportunity for U.S. engagement.

    Question. The Pakistan elections appear to have resulted in the 
Pakistan Tehreek-e-Insaf party of former cricketer, Imran Khan, in a 
lead coalition position. What would a Khan government likely mean for 
U.S. efforts to gain greater cooperation from the Pakistan government 
in counter terrorism and reconciliation in Afghanistan?

    Answer. I am reluctant to speculate on the specific policies of 
Pakistan's new leaders, particularly since coalition-building is 
ongoing, and a civilian government has not yet been formed. We will 
stress to Pakistan's new leadership that Pakistan is important to the 
success of the President's South Asia strategy, but we will not 
continue with business as usual as long as Pakistan does not address 
U.S. concerns about its destabilizing policies, including its failure 
to curtail the Taliban, Haqqani Network and other externally-focused 
militant and terrorist groups. Our requests to Pakistan have been 
specific and consistent, and we will continue our frank discussions 
with the new government.

    Question. The Pakistan elections appear to have resulted in the 
Pakistan Tehreek-e-Insaf party of former cricketer, Imran Khan, in a 
lead coalition position. He has made inflammatory comments about the 
United States during his long run to power. Is he considered 
independent of the Pakistan military or a product of its manipulations?

    Answer. While Imran Khan has made some concerning statements in the 
context of political campaigns, I am hopeful that we will be able to 
work with the new government towards a productive bilateral 
relationship. We have been consistent, however, that, for this to 
happen, Pakistan must take decisive action against all militant groups 
based in Pakistan and play a constructive role to facilitate the Afghan 
peace process. I would refer you to the State Department's July 27 
statement regarding concerns with the pre-voting electoral process and 
our belief in the importance of further strengthening legitimate 
democratic institutions. I will continue to look for opportunities to 
further these objectives with the new government.

    Question. The Pakistan elections appear to have resulted in the 
Pakistan Tehreek-e-Insaf party of former cricketer, Imran Khan, in a 
lead coalition position. Are extremist groups and terror groups more or 
less likely to gain influence with a Khan government?

    Answer. I am reluctant to speculate on the specific policies of 
Pakistan's new leaders, particularly since coalition-building is 
ongoing and a civilian government has not yet been formed. One positive 
outcome of Pakistan's July 25 elections is that candidates associated 
with the designated terrorist group Lashkar-e Tayyiba (LeT) lost in 
every race they contested. Our requests to Pakistan to curtail the 
Taliban, Haqqani Network and other externally-focused militant and 
terrorist groups have been specific and consistent, and we will 
continue our frank discussions with the new government.

    Question. The administration's recently completed inter-agency 
Stabilization Assistance Review was well informed by a wide range of 
experienced actors and drew both internally and externally from 
activities taking place today and historical experience to develop a 
comprehensive understanding, including a long-sought definition for 
stabilization efforts. The review provides a foundation from the inter-
agency to better apply lessons learned and more efficiently manage and 
maintain personnel with the necessary skill sets to operate in 
challenging and hazardous environments, often alongside the military. 
What steps are being taken to institutionalize these findings so that 
we ensure lessons missed do not diminish our efficiency and 
effectiveness as the United States continues to respond to such complex 
crises?

    Answer. The Stabilization Assistance Review (SAR) identified ways 
that the United States can more effectively leverage diplomatic 
engagements, defense, and foreign assistance to stabilize conflict-
affected areas. Secretary Mattis, Administrator Green, and I support 
the results of this review and have directed our Departments and 
Agencies to work on implementing the SAR framework and mainstreaming 
the core principles into policy and practice. With the support of the 
National Security Council, we are developing an interagency approach 
outlining key tasks to advance the seven lines of effort in the SAR 
framework. We appreciate Congress' support for this effort to date and 
look forward to continued collaboration.

    Question. How are the findings and recommendations being employed 
to improve outcomes in Afghanistan, Iraq, Syria, Yemen, Somalia, the 
Sahel, and the Lake Chad basin?

    Answer. The Stabilization Assistance Review (SAR) identified ways 
that the United States can more effectively leverage diplomatic 
engagements, defense, and foreign assistance to stabilize conflict-
affected areas. Secretary Mattis, Administrator Green, and I support 
the results of this review and have directed our Departments and 
Agencies to work on implementing the SAR framework into policy and 
practice. Accordingly, we are working to ensure that the strategies and 
assistance plans for priority conflict-affected countries and regions 
reflect the SAR's principles. We are also working to ensure that our 
U.S. country teams and civilian teams deployed with the military in 
those places have the tools and support they need to apply the SAR 
framework. We look forward to continuing to update you about these 
efforts as they progress.

    Question. Secretary Pompeo, would you please let us know if this 
administration has raised or intends to raise with the Russian 
government the provision of information they may have regarding Korean 
War and Cold War era POW and MIAs? More specifically, will the 
administration raise with the Russian government the prospect of 
reviewing Soviet-era intelligence and military archives for records on 
interrogations of U.S. service members who were captured during the 
Korean War? More specifically still, will the administration raise with 
the Russian government the case of Major Sam Logan, a U.S. Air Force B-
29 pilot who was shot down in North Korea in September 1950 and may 
have been interrogated by Soviet officials?

    Answer. The Department is working closely with other members of the 
U.S.-Russia Joint Commission on Prisoners of War and Missing in Action 
(POW/MIA) (USRJC) as the United States engages with Russia on POW/MIA 
cases from the Korean Conflict and other U.S. conflicts and wars that 
remain unresolved. Major Sam Logan, a U.S. Air Force B-29 pilot who was 
shot down in North Korea in 1950, is one of these important cases that 
has been discussed within the context of the USRJC. The Defense POW/MIA 
Accounting Agency is aware of your request and can provide additional 
information.
                               __________

              Responses of Hon. Mike Pompeo to Questions 
                   Submitted by Senator Bob Menendez

                              north korea
    In earlier testimony before this Committee and during the hearing 
yesterday I asked you a series of questions about necessary elements 
for any deal with North Korea. Again, I would like for you to provide 
an update and answer to the following questions regarding your 
negotiations with North Korea:

    Question. Did North Korea agree to permanently dismantle and 
disable its nuclear weapons infrastructure, including test sites, all 
nuclear weapons research and development facilities, particularly with 
respect to advanced centrifuges, and nuclear weapons enrichment and 
reprocessing facilities?

    Answer. Diplomatic talks with the DPRK are ongoing. In Singapore, 
Chairman Kim agreed to our goal of achieving the final, fully-verified 
denuclearization of the DPRK. In Pyongyang, I had detailed and 
substantive discussions about next steps toward fully verified and 
complete denuclearization. During those discussions, North Korea 
reaffirmed the commitment it made in Singapore to destroy its missile 
engine test site, and its overall commitment to complete 
denuclearization.

    Question. Did North Korea agree to put forward a full, complete, 
and verifiable declaration of all its nuclear activities?

    Answer. Diplomatic talks with the DPRK are ongoing. In Singapore, 
Chairman Kim agreed to our goal of achieving the final, fully-verified 
denuclearization of the DPRK. We want denuclearization that is fully 
verified and, importantly, final--the President wants to denuclearize 
North Korea once and for all and not have the nuclear issue resurface 
again.

    Question. Did North Korea agree to dismantle all ballistic missiles 
and a prohibition on all ballistic missile development?

    Answer. Diplomatic talks with the DPRK are ongoing. In Singapore, 
Chairman Kim agreed to our goal of achieving the final, fully-verified 
denuclearization of the DPRK. We want denuclearization that is fully 
verified and, importantly, final--the President wants to denuclearize 
North Korea once and for all and not have the nuclear issue resurface 
again.

    Question. Did North agree to a robust compliance inspections 
including a verification regime for its nuclear and ballistic missile 
programs, including complete access to all nuclear related sites and 
facilities with real time verification including ``anywhere, anytime'' 
inspections and snap-back sanctions if North Korea is not in full 
compliance?

    Answer. I've been very clear with my North Korean counterparts on 
what final, fully verified denuclearization means and they understand 
and acknowledge that denuclearization absent verification makes no 
sense. The U.S. government is committed to the robust verification 
protocols and mechanism that will be required to achieve complete 
denuclearization.

    Question. What have you actually achieved regarding denuclearizing 
the Korean peninsula?

    Answer. Progress on denuclearization includes building upon the 
commitments made by President Trump and Chairman Kim. In Pyongyang, I 
had detailed and substantive discussions about next steps toward fully-
verified and complete denuclearization. During those discussions, North 
Korea reaffirmed the commitment it made in Singapore to destroy its 
missile engine test site, and its overall commitment to complete 
denuclearization.

    Question. Is North Korea making significant and meaningful steps 
towards denuclearization? Is the activity at Sohae (so-hey) 
significant, or reality TV? Are international inspectors verifying the 
significance of North Korea's actions? Are these steps irreversible? 
Are these steps ratified in a written agreement between the U.S. and 
North Korea, and part of a bigger plan to dismantle all nuclear and 
missile capabilities? Do these steps affect core North Korean 
capabilities, or are they measures North Korea can take--in the 
expectations of payment--that are in effect cost-free?

    Answer. The administration continues to work towards the full 
implementation of the commitments Chairman Kim made in Singapore, and 
to plan for the final denuclearization of North Korea, including the 
specific steps necessary to accomplish this.
    North Korea's destruction of the site at Sohae, if verified, would 
be a significant step by the DPRK towards meeting those commitments.
    The President remains committed to fully and finally resolving the 
issue of North Korea's illicit and threatening WMDs and their delivery 
systems.

    Question. Do you still maintain progress on sanctions relief should 
be dependent on dismantlement and removal of North Korea's nuclear 
weapons and ballistic missile programs?

    Answer. Our goal is clear--we must achieve the final, fully-
verified denuclearization of the DPRK as agreed to by Chairman Kim. 
Should the DPRK follow through on its commitments to denuclearization, 
the U.S. looks forward to eventually helping North Korea obtain 
prosperity and earn the respect of the world. Sanctions remain in full 
effect until North Korea denuclearizes.

    Question. Given Chinese, South Korean and Russian defections and 
pressure to adjust or end sanctions, can ``maximum pressure'' still be 
said to credibly exist? If talks break down, and the U.S. is held 
equally (or more responsible) for failure, is it realistic to expect 
that maximum pressure can be maintained, imposed, or strengthened?

    Answer. All U.N. member states are required to implement the 
obligations contained in the United Nations Security Council sanctions 
resolutions in good faith, and we expect them all to do so. The United 
States continues to work with governments around the world to ensure 
all nations are fully implementing these obligations. The pressure 
campaign will continue until the DPRK denuclearizes.
                         2)3-d printing of guns
    The State Department is engaging countries around the world for 
action to pressure the DPRK and ensure global compliance with United 
Nations Security Council resolutions. We are cooperating with many 
countries, including China, to take decisive action against entities 
involved in DPRK sanctions evasion activity.
    We will not hesitate to take unilateral action against entities 
that continue to support the DPRK regime in contravention of U.N. 
sanctions.
    The State Department is about to allow the Internet posting of 
information to enable the production of plastic firearms on 3-D 
printers. Why on Earth would the Trump administration and the State 
Department make it easier for terrorists to produce undetectable 
plastic guns to hijack aircraft and endanger or kill Americans is 
beyond belief.

    Question. Can you explain the justification for the State 
Department's decision to allow the release of this information?

    Answer. As I committed in my testimony, I will review this issue 
and have my staff provide a briefing on the complexities of this 
matter.

    Question. Does the Department really want to enable ISIS and al-
Qaeda to learn how to smuggle firearms past the TSA?

    Answer. No. As I committed in my testimony, I will review the 
Department's next steps on this issue and have my staff provide a 
briefing on the complexities of this matter.

    Question. You committed to review the Department's decision to 
allow the release of information on 3-D guns. Please describe that 
review process, the steps taken this far, and the status of that 
review.

    Answer. As I committed in my testimony, I will review the 
Department's next steps on this issue and have my staff provide a 
briefing on the complexities of this matter.

    Question. Why didn't the Department provide the Committee notice of 
its decision to release this information, in accordance with the Arms 
Export Control Act?

    Answer. Notification to Congress is not required for a temporary 
exemption under International Traffic in Arms Regulations  126.2. We 
will submit a 38(f) notification prior to any final rule that would 
revise the U.S. Munitions List (USML), remove listed items from the 
State Department's jurisdiction under the USML, and transfer them to 
Commerce's jurisdiction under the Commerce Control List.
                          daily press briefing
    Mr. Secretary, I sent you a letter on Monday regarding the lack of 
Daily Press Briefings during your tenure as Secretary and more broadly 
during this administration. Daily press briefings are critical to 
keeping the American people informed and promoting transparency and 
accountability. They also send an important signal to the rest of the 
world about the importance of a free press.

    Question. Do you commit to reinstating daily press briefings?

    Answer. The Department values media outreach and is committed to 
the principles of transparency and press freedom. The Spokesperson 
briefs journalists at televised press briefings frequently in 
Washington, DC and from abroad while supporting the Secretary's travel 
schedule. While on travel, Spokesperson Nauert has an acting deputy 
spokesperson who has gaggled with reporters in Washington. The 
Department's press officers rapidly respond to domestic and 
international journalist queries.
    The Department travels with a broad contingent of reporters. The 
Spokesperson and Secretary engage and brief them daily while traveling. 
Over the past year, we have dramatically increased journalist access by 
making available more seats on the plane. We also provide access to 
subject experts across the Department who can delve into policy issues 
in greater depth, via background briefings open to domestic and 
international reporters including on critical issues as Iran, North 
Korea, sanctions, and Russia in recent weeks.
    The Department is also emphasizing a range of venues and briefing 
opportunities to support a diverse media environment. The Department's 
regional spokespersons conduct interviews regularly on the most 
influential television channels in the Arabic, French, Hindi, Russian, 
Spanish, and Urdu media markets.

    Question. Do you agree that the free and open press is a critical 
element of democracy?

    Answer. The Department remains steadfastly committed to the 
principles of transparency and press freedom. We demonstrate that 
commitment every day in our engagement with journalists foreign and 
domestic, and this in turn serves as an example for other countries.
    We believe in the importance of a free and open press in all 
societies. I would point you to my statement this year commemorating 
the 25th anniversary of World Press Freedom Day, reaffirming our 
commitment to promoting and protecting a free press. A free press is an 
essential pillar of democracy and a key component of democratic 
governance.
    The Department Spokesperson and her team engage with individual 
American and international journalists daily to answer their inquiries 
and inform their reporting. I have sat for an increasing number of 
interviews, and have made available additional airplane seats for 
journalists on my official travel. The State Department's regional 
spokespersons conduct interviews regularly in the Arabic, French, 
Hindi, Russian, Spanish, and Urdu media markets. All these efforts 
underscore the importance the Department places on engaging with media 
and encouraging the work of a free and active press corps.

    Question. Do you agree that the State Department has a role to play 
in demonstrating to the rest of the world that the United States values 
and supports a free and open press? If so, how do you intend to 
demonstrate that?

    Answer. An independent and unfettered media is an essential element 
of any democratic, open society, and the Department remains steadfastly 
committed to the principles of transparency and press freedom. We 
demonstrate our commitment to those principles every day, and do our 
utmost to support the work of the journalists who cover the State 
Department.
    We have a robust and multi-faceted media engagement strategy, 
emphasizing a range of venues. While the Spokesperson briefs 
journalists at televised press briefings, this is only a fraction of 
the work that the Spokesperson undertakes to keep Americans, foreign 
governments and publics, and the foreign affairs community informed. 
Beyond televised press briefings, subject experts across the Department 
provide briefings on policy issues. The Spokesperson and her team also 
engage thousands of individual American and international media queries 
daily.
    Since becoming Secretary, I have made a point of reaching out to 
the press corps and supporting increased engagement. We have made 
available additional airplane seats dedicated to journalists on 
official travel, including on such critical events as the summit with 
the North Korean leadership in Pyongyang and the G7 and NATO summits as 
they unfold in real time.
                        american foreign policy
    At the end of the hearing on July 25, you stated that the words of 
the President are U.S. policy.
    Question. In a recent interview on Fox News, President Trump 
refused to use the word ``adversary'' to describe Russia because they 
``really helped us'' during World War II. A few days earlier, the 
president referred to the European Union as a ``foe'' during a 
discussion of trade policy. This is despite the fact that members of 
the armed forces of our NATO allies have served side by side with us 
for decades--as of May 2017, over 1,000 NATO soldiers alone had given 
their lives fighting with us in Afghanistan alone. Yes or no--is the 
European Union a foe?

    Answer. The European Union (EU) is one of our closest, most capable 
partners on a host of international security, economic, diplomatic, and 
humanitarian efforts. While we may have our differences, the United 
States and the EU agree far more than we disagree, as evidenced in our 
continuing close cooperation on issues of mutual importance, including: 
addressing conflicts in the Middle East, confronting malign state 
actors, countering terrorism, and improving European security. The EU 
leverages the capacities of all 28 member states to address challenges 
around the world. It is able to lead and conduct missions to secure its 
borders and project stability outside of Europe. On trade policy, as 
the President announced July 25, the United States and the EU are 
working together toward zero tariff and non-tariff barriers, including 
subsidies on non-automotive goods, increasing U.S. exports of liquefied 
natural gas to the EU, reducing bureaucratic obstacles to trade, and 
reforming the WTO to better protect European and American companies 
from unfair trade practices.

    Question. On June 13, 2018 President Trump tweeted that ``There is 
no longer a nuclear threat from North Korea.'' What steps has North 
Korean taken that provide us with confidence the North Korea nuclear 
threat has been eliminated to the United States and our Asia-Pacific 
allies?

    Answer. The President achieved his objectives at the Singapore 
Summit. He secured a DPRK commitment to complete denuclearization of 
the Korean peninsula and built a good working relationship with 
Chairman Kim. This is the beginning of the process for final, fully-
verified, denuclearization of the DPRK as agreed to by Chairman Kim.
    Our alliances remain ironclad, and ensure peace and stability in 
the region.
    The security of South Korea and Japan are essential to America's 
security, and we will continue to meet all our alliance commitments.

    Question. In May 2018, President Trump described immigrants from 
Mexico and Central America by stating, ``You wouldn't believe how bad 
these people are. These aren't people. These are animals.'' Is it U.S. 
policy that immigrants from Mexico and Central America are animals?

    Answer. The Department of State protects U.S. citizens and their 
interests abroad, supports U.S. border security, and facilitates travel 
by visitors or immigrants to the United States. The Department is 
committed to treating every visa applicant with dignity and respect.
    We have strong partnerships with Mexico and the countries of 
Central America that enhance our shared goal of promoting a more 
competitive, prosperous, and secure region in order to reduce illegal 
migration and illicit drug flow in the region. Our countries are 
neighbors and allies, strengthened by common values and strong trade 
linkages. The Department will continue to work with Mexico and the 
countries of Central America to build strong relationships and to 
address a broad range of bilateral and national security issues.
    Maintaining robust screening standards for visa applicants is a 
dynamic practice that must adapt to emerging threats. We are constantly 
working to find mechanisms to improve our screening processes, allowing 
travel and immigration to the United States while protecting U.S. 
citizens and excluding individuals who might pose a threat to the 
United States.
    In FY 2017, the Department issued 113,776 immigrant visas to 
citizens of Mexico or Central American countries.

    Question. In June 2018, President Trump described Canadian Prime 
Minister Justin Trudeau as ``very dishonest & weak.'' Is it U.S. policy 
that Prime Minister Trudeau--the head of government of a NATO ally--is 
very dishonest and weak?

    Answer. No. It remains U.S. policy to work closely with our 
Canadian allies and friends on the entire spectrum of security, 
economic, and other issues. Our 5,525 mile shared land border and our 
vast and shared economic, defense, cultural and family ties make our 
relationship with Canada unique in the world. The United States will 
continue to engage with Canada in ways that enable us to achieve our 
shared objectives.

    Question. In May 2018, President Trump, referring to his proposed 
border wall between the United States and Mexico, stated that ``in the 
end Mexico is going to pay for the wall.'' Is it the policy of the 
United States that Mexico will pay for President Trump's proposed 
border wall?

    Answer. Like the President, I am committed to securing our borders 
and protecting the homeland. Half a million people enter the United 
States from Mexico each day and too many of them do so illegally. 
Border infrastructure, to include walls, is a critical piece of 
strengthening control of the border. Securing our borders provides 
security for the American people and allows the United States to 
facilitate legitimate trade and travel, while preventing the movement 
of illicit goods and travelers. The President and Congress will 
ultimately make a decision about funding.
             president trump's summit with president putin
    Question. Did he President hold any Cabinet meetings before the 
summit to strategize his one on one meeting with President Putin?

    Answer. The Department of State in coordination with the National 
Security Council prepared extensively for the meeting in Helsinki.

    Question. Has the President held an official cabinet meeting since 
the summit to read out his national security team?

    Answer. I refer you to the White House for specifics, but as I 
mentioned in my testimony, I have spoken with President Trump multiple 
times about the subject matter of the Helsinki meetings.

    Question. Do you know with certainty whether the President and 
President Putin discussed any changes to international security 
agreements?

    Answer. There were no ``agreements'' reached in Helsinki beyond 
agreement for our two sides to keep talking on the entire range of 
issues the Presidents discussed.

    Question. Do you know with certainty whether the President called 
upon President Putin to uphold Russia's commitments, agreed to at the 
Presidential level last year in Da Nang, Vietnam, with respect to the 
de-escalation zone in southwest Syria, especially the presence of Iran 
and Iranian-aligned forces?

    Answer. The situation in Syria was one of the key issues discussed 
between President Trump and President Putin. Both agreed that the 
regular, ongoing de-confliction efforts through military channels on 
Syria are essential to avoiding miscalculations and unintended 
escalation during the Defeat ISIS Campaign.
    The United States is determined to see the removal of all Iranian 
forces from Syria and an end to Iran's continuing malign influence 
there.

    Question. What were the ``suggestions'' President Putin made to the 
President?

    Answer. The formation of two working groups was suggested to enable 
discussion on a range of issues. One is a business leadership working 
group made up of U.S. and Russian Chief Executive Officers of major 
private companies, which would present ideas to address economic 
relations between the two countries. The second proposed group is the 
political, or Track II, working group of academics and former U.S. and 
Russian officials to suggest possible solutions to issues affecting the 
bilateral relationship.
    The U.S. and Russian National Security Councils staff are 
developing a dialogue to explore these proposed working groups.

    Question. Do you know with certainty whether the President and 
President Putin talked about Paul Manafort, or his ongoing trial?

    Answer. I will not comment on every detail of private one-on-one 
conversations between President Trump and the leaders of other 
countries. As I noted during my testimony, the President was very clear 
about U.S. policy positions, and he spoke about them very firmly and 
clearly in his meeting with President Putin.

    Question. Do you know with certainty whether the President and 
President Putin talked about the Mueller investigation or about 
indictments of the President's former campaign staff?

    Answer. I will not comment on every detail of private one-on-one 
conversations between President Trump and the leaders of other 
countries. As I noted during my testimony, the President was very clear 
about U.S. policy positions, and he spoke about them very firmly and 
clearly in his meeting with President Putin.

    Question. Do you know with certainty whether the President and 
President Putin talked about Natalia Veselnitskaya--the Russian lawyer 
who met with Donald Jr.?

    Answer. I will not comment on every detail of private one-on-one 
conversations between President Trump and the leaders of other 
countries. As I noted during my testimony, the President was very clear 
about U.S. policy positions, and he spoke about them very firmly and 
clearly in his meeting with President Putin.

    Question. Do you know with certainty whether the President and 
President Putin talked about Yevgeny Prigozhin or the Internet Research 
Agency?

    Answer. As I noted during my testimony, the President was very 
clear about U.S. policy positions, and he spoke about them very firmly 
and clearly in his meeting with President Putin.
    In February, a grand jury returned an indictment presented by 
Special Counsel Mueller charging Mr. Prigozhin and the Internet 
Research Agency for committing federal crimes as part of an effort to 
interfere in the U.S. political system. Mr. Prigozhin and the Internet 
Research Agency are also subject to U.S. sanctions targeting malicious 
cyber actors, including those involved in interfering with election 
processes or institutions. The administration will continue to take 
action, including implementation of sanctions, to respond to Russian 
election interference in the United States.

    Question. Do you know with certainty whether the President and 
President Putin discussed former Ambassador Michael McFaul? Bill 
Browder?

    Answer. I will not comment on every detail of private one-on-one 
conversations between President Trump and the leaders of other 
countries. As for any current or former U.S. government employee, as I 
noted during my testimony, the United States will defend our government 
personnel, whether in the field, in Washington, or retired from 
service.

    Question. Do you know with certainty whether the President and 
President Putin discussed the issue of political prisoners with 
President Putin, including that of Oleg Sentsov, the Ukrainian 
filmmaker who has been detained for 4 years and is on hunger strike?

    Answer. During their discussions, the President raised a number of 
issues with President Putin, including Russia's election interference, 
Ukraine and the occupation of Crimea, DPRK, Syria, and arms control.
    We share your concerns about the continued wrongful imprisonment of 
Crimean film director Oleg Sentsov. The State Department continues to 
call on the Government of Russia, in both public statements and private 
discussions, to end its repressive occupation of Crimea and cease its 
campaign of pressure on opponents of the occupation, such as Mr. 
Sentsov.
    We have frequently called on Russia to release all victims of 
politically motivated prosecution, including Mr. Sentsov and the 
approximately 70 other Ukrainian citizens it has unjustly imprisoned. 
Department officials frequently meet with relatives of and advocates 
for these prisoners and we remain committed to pressing for their 
release.

    Question. Following the summit, President Putin held a press 
conference outlining the outcomes of the Helsinki meeting with 
President Trump. He also apparently had calls with the Belarusian 
President to describe the nuances of the Helsinki meeting. Why hasn't 
President Trump done the same with the American people or congress?

    Answer. President Trump and President Putin held a press conference 
outlining the details of the Helsinki meeting. For further comments, 
please refer to the White House.

    Question. Has the U.S. provided any briefings about the summit to 
our allies?

    Answer. Yes. On July 23, I sent a readout of the Helsinki 
discussions to our chiefs of mission overseas and instructed them to 
share the readout with their host country counterparts. I know that the 
National Security Council staff also held a readout session with DC-
based embassies, and I would refer you to the NSC for details on that 
briefing.

    Question. Did you speak with the interpreter following the summit?

    Answer. As I said in my testimony, I have not spoken with the 
President's interpreter.

    Question. Did you, or did anyone from the State Department or the 
national security team, speak with the interpreter or review her notes?

    Answer. As I said in my testimony, I have not spoken with the 
President's interpreter or reviewed her notes. I cannot speak for the 
national security team; I would refer you to the White House.

    Question. Were any notes by the interpreter preserved, in line with 
a request I made on July 16?

    Answer. The Department is committed to maintaining records in 
accordance with the Federal Records Act and will ensure all relevant 
Department records pertaining to the meeting are appropriately 
safeguarded as required by law.

    Question. Have all relevant documents and memos related to the 
summit been preserved, in line with a request I made on July 16?

    Answer. The Department is committed to maintaining records in 
accordance with the Federal Records Act and will ensure all relevant 
Department records pertaining to the meeting are appropriately 
safeguarded as required by law.

    Question. Is the Israeli government asking the Trump administration 
to recognize Assad regime control over southern Syria?

    Answer. We continue to consult closely with Israel on regional 
security issues, including Syria. While I will not comment on the 
content of those discussions in this format, I can say that the removal 
of Iranian and Iranian proxy forces from the country, the enduring 
defeat of ISIS, and an end to the Syrian conflict through a political 
solution remain top foreign policy priorities for the Trump 
administration.

    Question. How are you ensuring Israel's security when you rely on 
Russia, who continues to cooperate with Iran?

    Answer. We strongly support Israel's right to self-defense and 
recognize the legitimate security concerns Iran's current force posture 
in Syria poses for Israel's security. We continue to work extensively 
with likeminded countries, including Israel, to deter and disrupt 
Iranian threats. As part of our commitment to bolstering Israel's 
defense capabilities, we will begin to implement the new 10-year 
Memorandum of Understanding (MOU) in FY 2019. The MOU commits us to 
provide $3.3 billion in Foreign Military Financing funds per year as 
well as $500 million in Department of Defense funds for cooperative 
missile defense, and we completely support ensuring Israel receives all 
the assistance appropriated by Congress.

    Question. After attempts in the previous administration, and now 
this administration, to test Russian will and capability to uphold 
commitments in Syria . . . why are you now optimistic that Russia will 
successfully compel the Iranians to withdraw their forces and advisers?

    Answers. Each time I have spoken with President Trump about U.S. 
policy in Syria, both before the Helsinki meeting and after, Iran has 
been a central point of focus. The President discussed Syria with 
President Putin and talked about America's continued efforts to ensure 
that Israel was secure from threats from Syria. Despite Russia's 
complicity in the atrocities carried out by the Syrian regime, its 
considerable influence in Syria makes it an essential actor. Engagement 
with Russia by the United States and like-minded partners will continue 
to be a necessary component of any lasting solution in Syria.
    Russia and Iran lack the material resources to provide for the 
stabilization and eventual reconstruction of Syria. Russia has 
approached the United States and international partners about providing 
that assistance, but the United States and our allies will not provide 
international reconstruction assistance absent a credible political 
process in Geneva that leads unalterably to constitutional reform, U.N. 
supervised elections, and a political transition that reflects the will 
of the Syrian people.

    Question. How do you propose to address the Iranian presence in the 
rest of Syria?

    Answer. At the meeting between President Donald Trump and President 
Putin in Helsinki, key Iran-related issues were discussed. This 
included the removal of all Iranian and Iranian proxy forces from 
Syria. The United States remains committed to using every tool at its 
disposal to counter malign Iranian influence throughout the region. 
Iranian support to Assad, particularly the use of sectarian militias 
guilty of abuses against the civilian population, undermines the 
legitimate political process to resolve the conflict in Syria. 
Additionally, Russia and Iran lack the material resources to provide 
for the stabilization and eventual reconstruction of Syria. Russia has 
approached the United States and international partners about providing 
that assistance, but the United States and our allies will not provide 
international reconstruction assistance absent a credible political 
process in Geneva that leads unalterably to constitutional reform, U.N. 
supervised elections, and a political transition that reflects the will 
of the Syrian people.
               u.s.-russian nuclear arms control matters
    Secretary Pompeo, in response to a question for the record 
following your nomination hearing on April 12, you stated your belief 
that ``the New START Treaty currently contributes to preserving 
strategic stability between the United States and Russia and is in the 
national security interest of the United States.'' You added that the 
administration ``will continue to fully implement New START and will 
consider next steps related to the New START Treaty at the appropriate 
time.'' The treaty, which expires in February 2021, can be extended by 
up to five years. Following the July 16 meeting with President Trump in 
Helsinki, President Putin expressed Russia's willingness to begin 
discussions about an extension and warned that the treaty will expire 
in a year and a half unless work on an extension begins soon. For his 
part, President Trump did not publicly comment on New START during his 
time in Europe but did say of his meeting with Putin that ``Perhaps the 
most important issue we discussed at our meeting . . . was the 
reduction of nuclear weapons throughout the world. Meanwhile, the 
administration is continuing to conduct a review of the pros and cons 
of extending the treaty.

    Question. Did Presidents Trump and Putin discuss New START and a 
possible extension during their private meeting and if so how did 
President Trump respond to President Putin's willingness to begin talks 
on doing so?

    Answer. There were no ``agreements'' reached in Helsinki--beyond 
agreement for our two sides to keep talking on the entire range of 
issues the Presidents discussed, including arms control. Both President 
Trump and President Putin publicly acknowledged the fact that the 
United States and Russia possess over 90 percent of the world's nuclear 
weapons, and as such share a special responsibility to maintain a 
stable, strategic relationship. Both leaders reiterated their 
commitment to discussing issues related to strategic stability and arms 
control, of which New START is one component. The United States is 
fully committed to implementing the New START Treaty, but has made no 
decision regarding a potential extension. This decision will be made at 
the appropriate time.

    Question. What is the administration's timeline for the completing 
its review of whether to extend New START?

    [No Response Received]

    Question. Last year General Hyten, head of U.S. Strategic Command, 
said that he supports the strategic nuclear limits put in place by the 
New START Treaty. What would be the consequences if there are no data 
exchanges, reciprocal inspections or verifiable limits on U.S. and 
Russian strategic nuclear forces, which would be the case if New START 
is allowed to expire with nothing to replace it?

    Answer. The New START Treaty constrains Russia's deployment of 
strategic nuclear forces, including intercontinental ballistic 
missiles, submarine-launched ballistic missiles, heavy bombers, and 
deployed strategic nuclear warheads. The treaty further permits the 
United States to verify information about Russia's strategic nuclear 
arsenal and contributes to strategic stability. The verification regime 
under the existing Treaty includes 18 on-site inspections per year 
which are utilized to verify the thousands of notifications updating 
the status and location of nuclear forces that each side sends, a 
biannual comprehensive data exchange, and biannual meetings of the 
Treaty's Bilateral Consultative Commission to promote the 
implementation of the provisions of the Treaty. Should the New START 
Treaty expire without a replacement agreement, this information would 
no longer be provided, and U.S. and Russian strategic nuclear forces 
would be unconstrained for the first time since 1994 when the START I 
Treaty entered into force.

    The United States and Russia held a first round of strategic 
stability talks last September in Helsinki. The specific agenda was not 
disclosed. A second round of talks was slated to take place on March 7-
8 in Vienna, but Russia announced that it would not participate in the 
talks, citing the U.S. cancellation of bilateral consultations on 
cybersecurity that had been scheduled to take place in late February in 
Geneva.

    Question. Did Presidents Trump and Putin discuss the resumption of 
strategic stability talks at their July 16 meeting? What are the 
administration's goals for strategic stability discussions with Russia?

    Answer. There were no ``agreements'' reached in Helsinki--beyond 
agreement for our two sides to keep talking on the entire range of 
issues the Presidents discussed. The leaders affirmed the importance of 
continuing discussion on arms control and strategic stability, as our 
two countries hold the preponderance of the world's nuclear weapons and 
have a duty to manage our relations responsibly. We expect another 
round of strategic stability talks in the future. There are no 
specifics regarding potential topics at this time.
                            malign influence
    The Kremlin's malign interference--including corrupt influence, 
cyberattacks, disinformation, and other tools--continues not just 
against the U.S. but against multiple countries in Europe.

    Question. Have you been personally tasked by President Trump to 
coordinate with other cabinet agencies on a whole-of-government 
response to Kremlin malign interference?

    Answer. Russia has shown through its aggressive actions that it 
rejects the post-Cold War order. Russia's efforts have extended beyond 
traditional military campaigns to encompass a suite of ``hybrid'' tools 
used to gain influence. Safeguarding the United States and our allies 
and partners from Russian malign influence campaigns is a core 
component of the administration's Russia strategy, our diplomatic 
engagement with partners and allies, and our foreign assistance.
    The Department works across the interagency, as well as closely 
with allies and partners, to deter and defend against Russian malign 
activity both at home and abroad. The Department's whole-of-government 
approach combines diplomatic, foreign assistance, intelligence, and law 
enforcement lines of effort to deter and defend against these 
activities.

    Question. Echoing Bush-era CIA Director George Tenet, DNI Coats 
recently said that the ``light was blinking red again'' regarding cyber 
attacks and foreign attempts to interfere in American elections. Has 
the President issued a directive to take specific actions to disrupt 
and deter Russian interference and cyberattacks into the midterm 
elections? If so, what are they?

    Answer. Russian efforts to undermine democratic processes and the 
sovereignty of its neighbors are unacceptable and require a whole-of-
government response. The Department of State works closely with other 
departments and agencies, as well as closely with Allies and partners, 
to protect our nation against potential interference in our election 
processes.
    As the lead foreign policy agency, we communicate to the Russian 
government when its behavior is unacceptable, working with our 
interagency partners to impose costs in response, and building 
international coalitions to actively deter malign Russian activities--
including those carried out through cyberspace--and to share best 
practices. The Department will continue to support the efforts of the 
Departments of Homeland Security and Justice and, as appropriate, state 
and local officials to secure our elections, leveraging all necessary 
and available Department resources to counter Russian interference 
efforts.
    In 2016, Montenegro uncovered a planned assassination against its 
pro-Western Prime Minister that aimed to prevent Montenegro's ascension 
to NATO. Investigations are ongoing to determine the source of the 
plot, but British intelligence has said it was a Russian-backed coup 
attempt.

    Question. Does the administration believe that Russia took measures 
to prevent Montenegro's ascension to NATO?

    Answer. The evidence presented by Montenegrin prosecutors 
overwhelmingly links Russian intelligence services to the attempted 
coup plot in October 2016. In particular, the Montenegrin authorities 
have connected Russian GRU officers Vladimir Popov and Eduard 
Shishmakov, who were previously expelled from Poland for espionage, to 
the plot. There are also records of financial transactions, spoken 
testimony, seized encrypted phones, and email addresses that link to 
Moscow.
    Russian coercion and interference in Montenegro is not new; 
following NATO's decision to admit Montenegro into the Alliance, Moscow 
funded anti-NATO political groups and protests and began a propaganda 
smear campaign to harm Montenegro's tourism industry. The Montenegrin 
government has stood strong and repeatedly asserted its sovereign right 
to choose its own alliances.

    Question. Why did President Trump single out Montenegrins--recent 
victims of Russian aggression--as `aggressive' while calling U.S. 
commitment to Article 5 of the North Atlantic Treaty into question?

    Answer. The United States is proud to have supported Montenegro's 
NATO accession in 2017. The President reiterated the ironclad American 
commitment to collective defense at the recent NATO Summit. Montenegro 
continues to play an active role through its contributions to NATO's 
mission in Afghanistan, and the United States welcomes Montenegro's 
recent announcement of its intent to strengthen its commitments to NATO 
in support of operations in Iraq and Latvia. I am proud to call 
Montenegro an Ally.
                                 russia
    The Kremlin's agenda of aggression and interference toward the 
United States and our allies and interests around the globe continues 
unabated. Meanwhile, seven mandatory sanctions provisions in CAATSA 
have yet to be implemented by the Trump administration, and the 
President's public waffling on the Russian threat call into question 
his willingness and capacity to prioritize and lead a whole-of-
government effort to respond to Russian government actions. You have 
stated that you met with Russian Foreign Minister Lavrov in Helsinki 
and have had conversations with him since then.

    Question. Please describe in detail the working groups that were 
agreed to between the United States and the Russian Federation during 
the meeting in Helsinki.

    Answer. The goal of the Helsinki meetings was to have a 
conversation about the state of U.S.-Russia relations, which are their 
lowest level since the end of the Cold War, and to explore Moscow's 
willingness to address the very real issues that have led us to this 
place. There were no agreements reached in Helsinki beyond agreement 
for our two sides to keep talking on an entire range of issues.
    The U.S. and Russian National Security Councils staff are 
developing a dialogue to assist in these discussions. Two new proposed 
working groups are the initial efforts in this dialogue. The business 
leadership working group would consist of U.S. and Russian Chief 
Executive Officers of major private companies, who will present ideas 
to address economic relations between the two countries. The political, 
or Track II, working group of academics and former U.S. and Russian 
officials would suggest possible solutions on issues facing the 
bilateral relationship.

    Question. In your July 25 hearing, you said FM Lavrov raised the 
Global Engagement Center--please summarize his comments on this issue 
and your response?

    Answer. I have been clear with Foreign Minister Lavrov that Russian 
attempts to undermine democratic processes, including through 
disinformation and propaganda, are unacceptable. The Global Engagement 
Center is an important part of Department efforts to deter and defend 
against Russian sponsored disinformation and propaganda.

    Question. Did you raise with FM Lavrov in Helsinki, or in other 
venues, the issues of Kremlin interference in our and others' 
democratic processes; its deployment of cyber-attacks, disinformation, 
and corruption; its illegal annexation of territory in Ukraine and its 
support to separatists in Ukraine, Georgia and Moldova; and its support 
for the Syrian regime's brutality and its attacks on U.S. service 
members in Syria? How would you characterize his response, and how will 
you continue to address these issues with the Russian government?

    Answer. Russian efforts to undermine democratic processes, the 
sovereignty of its neighbors, and international stability are 
unacceptable and require a whole-of-government response. We are working 
across the U.S. government, as well as closely with allies and 
partners, to deter and defend against these activities both at home and 
abroad. I continue to raise concerns about Russia's destabilizing 
activity with FM Lavrov at every opportunity and our policy towards 
Russia will not change until Moscow takes demonstrable steps to disavow 
this activity.

    Question. Has President Trump convened any cabinet level meetings 
to design a strategy to stop the Russian government threats described 
above? Has the Trump administration developed any responses to punish 
and prevent the various forms of Kremlin aggression described above? 
Please describe any such responses that have been developed.

    Answer. Russia has shown through its aggressive actions that it 
rejects the post-Cold War order. Safeguarding the United States and our 
allies and partners from Russia's destabilizing activity is a core 
component of the administration's Russia strategy, our diplomatic 
engagement with partners and allies, and our foreign assistance. We've 
been clear with Russia that its malign activity has consequences. 
Moreover, this administration has sanctioned 213 individuals and 
entities in Russia for their destabilizing activity.
    The Department is part of an interagency, whole-of-government 
approach that combines diplomatic, foreign assistance, intelligence, 
and law enforcement lines of effort to deter and defend against these 
activities. As the lead foreign policy agency, we communicate to the 
Russian government when its behavior is unacceptable, work with our 
interagency partners to impose costs in response, and build 
international coalitions to actively deter malign Russian activities--
including those carried out through cyberspace. The Department will 
continue to support the efforts of the Departments of Homeland Security 
and Justice and will leverage all necessary and available Department 
resources to counter Russian interference efforts.

    Question. Using the same logic applied to the North Korea case, has 
President Trump determined that Russia is a state sponsor of terrorism? 
Is the administration considering such a determination?

    Answer. As a matter of law, in order for any country to be 
designated as a State Sponsor of Terrorism, the Secretary of State must 
determine that the government of that country has repeatedly provided 
support for acts of international terrorism. State Sponsor of Terrorism 
designations are made after careful review of all available evidence to 
determine if a country meets the statutory criteria for designation. 
The U.S. government has already taken a number of significant and 
effective steps to indicate our concern about and respond to Russian 
aggression and destabilizing behavior. We will continue applying 
pressure until Russia chooses to become a responsible member of the 
international community.

    Question. Will you identify additional sanctions targets under 
existing sanctions authorities and what considerations are guiding your 
identification of such new targets? Per your statement in the July 25 
hearing about finding ``the right places and the right leverage points 
. . . that will actually make a difference to Russia,'' what new 
sanctions authorities do you believe would be useful in curbing Kremlin 
aggression?

    Answer. We remain fully committed to implementing CAATSA, just as 
we remain fully committed to imposing costs on Russia until it has 
changed its destabilizing activities. Nonetheless, we cannot comment on 
potential specific future sanctions actions.
    We have the necessary tools to impose costs on Russia for its 
destabilizing activities, and we are actively using them. The 
administration has already designated 213 individuals and entities for 
their involvement in Russian malign activities, including through use 
of CAATSA. We are committed to utilizing existing authorities to find 
the right places and the right leverage points that will actually make 
a difference to Russia.
    Rather than hurt Russia, additional mandatory sanctions could have 
significant negative consequences on U.S. and EU businesses. U.S.-EU 
transatlantic unity is critical to the effectiveness of our sanctions 
on Russia and we want to focus the sanctions costs on the Russian 
government and minimize unintended impact on our allies. After April 6, 
U.S. and allied businesses estimated lost revenue in the millions of 
dollars as a direct result of sanctions against Russia oligarchs and 
their companies.
                                hungary
    As you know, since the Hungarian government's passage of a law last 
year curtailing academic freedom and foreign institutions in the 
country, the Central European University (CEU) sought the Hungarian 
government's agreement on a Memorandum of Understanding with the state 
of New York that would allow the university to remain in Budapest. But 
with no response from the Hungarian government side and its future in 
Budapest uncertain, CEU has been forced to develop contingency plans to 
relocate its campus to another country even as it aims to maintain 
normal operations in Budapest absent a resolution.

    Question. Have you personally raised this issue with Foreign 
Minister Szijjarto? Do you commit at the earliest available opportunity 
to raising this issue with him, and directing state officials to raise 
with their Hungarian counterparts, to encourage an agreeable resolution 
of this issue?

    Answer. I raised the issue of the Central European University (CEU) 
personally with FM Szijjarto. The State Department's Bureau of European 
and Eurasian Affairs and our embassy in Hungary also have been 
highlighting this issue with Hungarian officials for some time, and 
they have been in regular contact with CEU. Ambassador Cornstein has 
made successful resolution of this issue a priority, and we will 
continue to underscore the importance of CEU until its status is 
resolved.
                            northern ireland
    There are growing concerns that the Good Friday Agreement will be 
further jeopardized by the United Kingdom's departure from the European 
Union, and U.S. engagement to encourage full implementation of the 
agreement remains critical.

    Question. Since taking office, have you considered the appointment 
of a Special Envoy to Northern Ireland and what are the plans of the 
Trump administration to appoint someone to this position, as we 
understand it has expressed intent to do?

    Answer. The United States remains firmly committed to the Northern 
Ireland Peace Process including the 1998 Good Friday Agreement and 
subsequent agreements. We will continue to engage all parties and 
communities to work together to build a better, shared future. Through 
our Consulate in Belfast we promote reconciliation, two-way trade and 
investment, and cultural exchanges. We will work with the British and 
Irish governments, as co-guarantors of the Good Friday Agreement, and 
the European Union to ensure twenty years of gains in the peace process 
are not sacrificed by the exit of the U.K. from the EU.
    We are looking into the possibility of naming an envoy to the 
region. No personnel decision has been made.

    Question. Are you working to appoint a U.S. ambassador to Ireland, 
vacant since the beginning of the Trump administration? How does the 
lack of an ambassador there affect U.S. interests with respect to the 
Good Friday Agreement and issues surrounding Brexit?

    Answer. The President is committed to nominating an ambassador to 
Ireland as soon as possible. In the meantime, we continue to engage all 
parties and communities to work together to build a better, shared 
future through our Consulate General in Belfast and Embassies in London 
and Dublin. We will continue to work with the British and Irish 
governments, as co-guarantors of the Good Friday Agreement, and the 
European Union to ensure twenty years of gains in the peace process are 
not sacrificed by the exit of the U.K. from the EU.
                                 crimea
    There are concerns among many international observers about 
continuing human rights violations in Crimea under the Russian 
Federation's illegal occupation of the peninsula--and no doubt that 
Russia is responsible for any such violations in territories it 
illegally occupies. Recent hunger strikes by political prisoners held 
in Crimea or who have been transferred from Crimea to prison inside the 
Russian Federation demonstrate the acute risk to life from Russia's 
illegal occupation. There is also concern that resolving the situation 
in Crimea risks being overshadowed by the conflict in Eastern Ukraine.

    Question. What are you doing to raise human rights concerns in 
Crimea with your counterparts in the Russian government, and to 
advocate specifically for the release of political prisoners from 
Crimea? Have you personally raised the case of hunger striker Oleg 
Sentsov with your Russian counterpart, and if you haven't, will you 
commit to doing so at the soonest opportunity?

    Answer. We share your concerns about the appalling human rights 
situation in Crimea and about the continued wrongful imprisonment of 
Crimean film director Oleg Sentsov. The State Department continues to 
call on the Government of Russia, in both public statements and private 
discussions, to end its repressive occupation of Crimea and cease its 
campaign of pressure on opponents of the occupation. Our missions at 
the U.N. and the OSCE, and embassies in Kyiv and Moscow, have 
prioritized engagement on human rights concerns in Crimea. We have 
frequently called on Russia to release all victims of politically-
motivated prosecution, including Mr. Sentsov and the approximately 70 
other Ukrainian citizens it has unjustly imprisoned. Department 
officials frequently meet with relatives of and advocates for these 
prisoners and we remain committed to pressing for their release.
                                 mh-17
    According to a recent report, the Department of State drafted, but 
did not publish on its website, a statement on ``Remembering the Shoot 
Down of Malaysia Airlines Flight MH17.'' While the Department did 
publish the Joint Statement from the G7 Foreign Minister on MH17, the 
State Department's message--which reportedly briefly appeared on the 
website of the U.S. Embassy Moscow before being taken down--reportedly 
contained more details from the work of the Joint Investigation Team 
connecting the missile to a Russian military unit, and also had a 
stronger condemnation of Vladimir Putin's disinformation campaign and 
efforts to impede the investigation.

    Question. Did the State Department draft its own statement on the 
MH17 shoot down, but not publish it? If so, who made the decision not 
to publish the statement and what was the reason for that decision? Did 
the State Department briefly publish the statement on the U.S. Embassy 
Moscow page and then take it down? If so, who made the decision to take 
the statement down and what was the reason for that decision? Why did 
the State Department not post the G7 statement on MH17 until Wednesday, 
when other G7 governments, like those of Canada and Britain, posted the 
statement on the Sunday it was released? Is it true that the State 
Department only posted the G7 statement after it was contacted by a 
reporter asking about the matter? How specifically is this 
administration working to support an accounting by Russia of its role 
in the MH15 incident and questions on potential breaches of 
international law, as well as efforts to support justice for victims 
and accountability for perpetrators?

    Answer. I have complete confidence in the findings of the Joint 
Investigation Team (JIT), and I call on Russia to account for its role 
in the July 2014 downing of Malaysia Airlines Flight MH17 over eastern 
Ukraine. I stand by the Department's May 24 and May 25 statements on 
the downing of MH17 and I reemphasized these points with my G7 foreign 
minister counterparts in our July 15 joint statement. Our policy is 
clear in these three statements.
    Per standard practice, multiple offices at the Department of State 
work together to draft and/or coordinate statements and then determine 
the appropriate time and mode for releasing them. Given the strength of 
the multilateral G7 statement, we deemed it unnecessary to release a 
separate unilateral message we had drafted as a contingency. Generally, 
multilateral statements are posted on the relevant organization's 
website, but when the lack of a unilateral statement was misconstrued 
as a change in policy, the Department posted the G7 Foreign Ministers 
Statement to reiterate the U.S. position. There was and is, no change 
in the U.S. position regarding the MH17 investigation. The Department 
continues to engage with relevant counterparts on ways we can continue 
to support the Dutch and Australian-led effort to hold Russia to 
account for its role and in the anticipated criminal cases in the Dutch 
judicial system.
                  turkey/greece/eastern mediterranean
    Question. Is the administration is considering a new approach 
towards Turkey, in light of statements by President Trump and Vice 
President Pence about possible new sanctions? How are Turkey's 
aggressive actions against its NATO ally Greece being considered when 
sanctions or the transfer of F35s are contemplated?

    [No Response Received]

    Question. Ecumenical Patriarch Bartholomew of Orthodox Christianity 
who is headquartered in Istanbul, and the church that he leads, has had 
its properties in Turkey confiscated, its Halki Seminary closed down, 
and many religious freedoms curtailed. How are you approaching this 
situation and what priority does it take in your bilateral engagements 
with Turkey?

    Answer. The United States supports religious freedom for all, 
including the freedom for members of religious groups to govern their 
religion according to their beliefs and practice their faith freely, 
without government interference.
    The United States Charge d'Affaires in Ankara, visiting senior U.S. 
officials, and embassy and consulate officials continue to engage with 
Turkish government officials and emphasize the importance of respect 
for religious diversity and equal treatment under the law. Embassy and 
consulate representatives and visiting U.S. government officials 
continue to urge the government of Turkey to lift restrictions on 
religious groups and make progress on property restitution and specific 
cases of religious discrimination as well as to negotiate the reopening 
of Halki Seminary on terms acceptable to the Church. Embassy officials 
also meet with a wide range of religious community leaders, including 
those of the Greek Orthodox, Jewish, Armenian Apostolic Orthodox 
Christian, Protestant, Alevi, and Syriac Orthodox communities, to 
underscore the importance of religious freedom and interfaith tolerance 
and to condemn discriminatory language against any faith.

    Question. What is your policy view on the joint efforts in the 
field of hydrocarbons among Israel, Greece and Cyprus? How is the Trump 
administration responding to Turkish threats against hydrocarbon 
exploration in the Eastern Mediterranean?

    Answer. Discoveries offshore Cyprus, Israel, and potentially Greece 
have already redefined regional relationships and I believe will 
continue to be a catalyst for increased economic and political 
cooperation through interconnection and integration. The successful 
exploration, production, and export of the hydrocarbon resources in the 
Eastern Mediterranean will require exactly the political cooperation 
and economic integration that the United States has long supported in 
the region. The United States recognizes the right of the Republic of 
Cyprus to develop resources in its exclusive economic zone. I believe 
the island's hydrocarbon resources, like all its resources, should be 
shared equitably between both communities in the context of an overall 
settlement.
    I discourage any actions or rhetoric that increase tensions in the 
region. Turkey's actions in February undermine its international 
reputation and economic interests. I am monitoring the progress of 
hydrocarbons exploration in the Eastern Mediterranean very closely.
                          russia human rights
    Putin's aggressive foreign policy to undermine democratic processes 
and values in Europe and the United States is a function of his 
domestic policy to eliminate dissent and shore up his brittle, corrupt 
regime. So part of our response to Russian aggression must be to 
support to those Russians pushing for reform, transparency, and human 
rights in their own country. As you know, many of your predecessors met 
with human rights activists in Russia as a matter of course during 
their visits to Moscow, though notably, Secretary Tillerson did not.

    Question. These issues have only grown in importance after Putin's 
re-election in April showed, according to international observers, ``a 
lack of genuine choice'' and ``continued pressure on critical voices.'' 
What is the State Department specifically doing to engage the Russian 
people and support their human rights and their hope for transparent, 
accountable governance?

    Answer. The U.S. government's commitment to supporting democracy 
and civil society in Russia remains firm. The Russian people, like 
people everywhere, deserve a government that supports an open 
marketplace of ideas, transparent and accountable governance, equal 
treatment under the law, and the ability to exercise their rights 
without fear of retribution.
    Although the space for civil society and free media in Russia has 
become increasingly restricted, independent Russian organizations and 
individuals continue to express a desire to engage with the United 
States. As long as this continues to be the case, the United States 
will support opportunities for direct interaction between Russians and 
Americans, including through peer-to-peer, educational, cultural, and 
other regional programs that provide exchanges of best practices and 
ideas on themes of mutual interest.
    The United States also continues to call on the Government of 
Russia to uphold its international obligations and commitments to 
promote and protect human rights and fundamental freedoms, and to cease 
restrictions on the work of civil society organizations in Russia.
                              north korea
    Secretary Pompeo, you visited the U.N. Secretary-General Antonio 
Guterres on Friday (July 20) to discuss preparations for the U.N. 
General Assembly in September.

    Question. What plans, if any, are being made to coordinate a second 
meeting between President Trump and Kim Jong Un?

    Answer. The Singapore summit, which occurred a little over a month 
ago, created great momentum for positive change and was the first step 
in this process. President Trump has expressed openness for a second 
meeting in connection with Kim Jong Un's commitment to denuclearize, 
but at this time, no second meeting is planned. We want 
denuclearization that is fully verified and, most importantly, final--
the President wants to denuclearize North Korea once and for all and 
not have the nuclear issue resurface again.

    Question. Mr. Secretary you have visited Pyongyang three times now. 
Has the administration assembled a working-level team or teams to 
negotiate with the North Koreans? Does you intend to continue to lead 
this effort, or does you intend to appoint an official, such as a 
Special Representative for North Korea Policy? Could you provide the 
committee with the names of the experts and scientists and the names of 
the offices and agencies with whom you and your team are presumably 
consulting with to develop technically-sound proposals for 
denuclearization?

    Answer. I have established a post-Singapore Summit working group 
dedicated to directing my Department's planning, policy, implementation 
and verification of our efforts to achieve the denuclearization of 
North Korea consistent with the Singapore Summit's joint statement. The 
working group is led by Alex Wong, Deputy Assistant Secretary for East 
Asian and Pacific Affairs; Ben Purser, Deputy Assistant Secretary for 
International Security and Nonproliferation; Mark Lambert, Acting 
Deputy Assistant Secretary for Korea and includes many other 
colleagues, drawing upon the expertise of the entire Department. The 
team supports Ambassador Sung Kim's ongoing negotiation efforts. We 
will continue to closely collaborate with the interagency.

    Question. Is the administration considering offering the North 
Koreans either a political statement ending the war or a final peace 
treaty in place of the current armistice agreement? Where in a 
diplomatic sequence should a peace statement or treaty come--before, 
during, or after denuclearization? If so, what prompted the 
administration to offer this during the negotiations? Does the 
administration believe the North Koreans will follow through with their 
end of any agreement that results in a peace treaty?

    Answer. We are considering multiple options; denuclearization is an 
indispensable condition for a secure and permanent peace on the Korean 
Peninsula. I do not want to get into hypotheticals regarding timing, 
but the President is confident Chairman Kim will honor the commitments 
made in Singapore.
                north korea policy oversight act of 2018
    Senator Gardner and I have introduced the North Korea Policy 
Oversight Act of 2018 to provide congressional oversight of U.S. 
diplomacy with North Korea and any agreement that emerges from the 
administration's engagement with Kim Jong Un.

    Question. What are your views of the bill?

    Answer. As a former congressman, I believe congressional oversight 
is key, and I am committed to working with Congress on this issue.

    Question. Does the administration plan to submit a binding U.S.-
DPRK agreement to the Senate as a treaty?

    Answer. I do not want to comment on hypotheticals of what form any 
outcome of our discussions with the DPRK may take, but as a former 
Congressman, I am committed to working with Congress and ensuring 
appropriate oversight of our engagement with the DPRK.
                      north korean nuclear threat
    You stated the words of the President are U.S. policy. On June 13, 
2018 President Trump tweeted that ``There is no longer a nuclear threat 
from North Korea.''

    Question. What steps has North Korean taken that provide us with 
confidence the North Korea nuclear threat has been eliminated to the 
United States and our Asia-Pacific allies?

    Answer. The President achieved his objectives at the Singapore 
Summit. He secured a DPRK commitment to complete denuclearization of 
the Korean Peninsula and built a good working relationship with 
Chairman Kim. This is the beginning of the process for final, fully-
verified, denuclearization of the DPRK as agreed to by Chairman Kim.
    Our alliances remain ironclad, and ensure peace and stability in 
the region. The security of South Korea and Japan are essential to 
America's security, and we will continue to meet all our alliance 
commitments.
                            denuclearization
    Before the Singapore summit, President Trump said denuclearization 
should start ``without delay,'' and after the meeting, he spoke of the 
process beginning ``very quickly.'' National Security Advisor John 
Bolton said North Korea could dismantle all of its nuclear weapons, 
threatening missiles and biological weapons ``in a year.'' Now the 
President is saying ``we have no time limit. We have no speed limit on 
limit'' on the denuclearization process. This a remarkable shift. It 
appears to me the administration is satisfied with the current 
situation and is willing to allow it continue indefinitely.

    Question. What is the administrations' timeline for negotiations?

    Answer. The Singapore summit, which occurred a little over a month 
ago, created great momentum for positive change and was the first step 
in this process. We are moving together for further negotiations, and 
the United States seeks to move quickly. There is much work to be done, 
and my team looks forward to working with the DPRK to establish clear 
timelines and milestones. We want denuclearization that is fully 
verified and, most importantly, final--the President wants to 
denuclearize North Korea once and for all and not have the nuclear 
issue resurface again.

    Question. What immediate steps from North Korea are you looking for 
to determine whether North Korea will serious begin the 
denuclearization process?

    Answer. Diplomatic talks with the DPRK are ongoing. In Singapore, 
Chairman Kim agreed to our goal of achieving the final, fully-verified 
denuclearization of the DPRK. In Pyongyang, I had detailed and 
substantive discussions about next steps toward fully verified and 
complete denuclearization. I look forward to continuing discussions, 
and we remain open to any number of immediate steps the DPRK might 
take.

    Question. What sort of reciprocal steps is the United States 
considering offering North Korea if it takes concrete actions to 
denuclearize?

    Answer. We are committed to continued engagement on implementing 
the agreement reached in Singapore. Diplomatic talks with the DPRK are 
ongoing. We want denuclearization that is fully verified and, 
importantly, final--the President wants to denuclearize North Korea 
once and for all and not have the nuclear issue resurface again.

    Question. What are the specific, verifiable steps toward 
denuclearization that the administration expects North Korea to take in 
the next 12 to 24 months and how will the administration reciprocate?

    Answer. The administration continues to work towards the full 
implementation of the commitments Chairman Kim made in Singapore, and 
to plan for the denuclearization of North Korea, including the specific 
steps necessary to accomplish this.

    Question. Short of complete denuclearization, what specific 
confidence building measures would the administration welcome from 
North Korea?

    Answer. Through my discussions with North Korean officials, I have 
made it clear what gestures or actions would signal their commitment to 
denuclearization. We anticipate receiving and repatriating our fallen 
heroes' remains soon as a tangible step toward the realization of 
President Trump's and Chairman Kim's commitments in Singapore. Though 
the DPRK's dismantlement of its nuclear test site and a missile engine 
test stand are encouraging signs, steps toward denuclearization require 
verification. We would welcome the DPRK allowing international 
inspectors to verify these actions, as well as further concrete and 
irreversible actions toward North Korean denuclearization.

    Question. North Korea has cited the United States' ``hostile 
policy'' as the rationale for its nuclear program. How does the 
administration intend to reassure the North that it has no hostile 
intent?

    Answer. During the Singapore Summit, President Trump committed to 
provide security guarantees to the DPRK, while Chairman Kim reaffirmed 
his commitment to complete denuclearization. President Trump's 
objective is the final and fully verified denuclearization of the DPRK. 
We seek to accomplish that objective through diplomatic means and have 
made this clear to the DPRK.

    Question. North Korea has not tested a nuclear weapon since 
September 2017, and has not tested a ballistic missile since November 
2017. Has the administration requested North Korea make the nuclear 
test moratorium legally-binding and verifiable by signing the 1996 
Comprehensive Nuclear Test Ban Treaty? What is the administration doing 
to make this test moratorium official? Did you raise concerns about on-
going North Korean activities to continue to advance their nuclear 
programs? Did you raise concerns that we need to see meaningful and 
concrete steps to indicate North Korea's commitments, not just the made 
for TV steps North Korea has taken thus far?

    Answer. The President remains committed to fully and finally 
resolving the issue of DPRK's illicit and threatening WMDs and their 
delivery systems at the earliest opportunity. Verification is an 
essential part of complete denuclearization, and President Trump and 
Chairman Kim both committed to this in Singapore. The U.S. government 
is committed to robust monitoring and verification measures that will 
be required to achieve complete denuclearization and to not have the 
nuclear issue resurface again.

    Question. Without any interim agreement on fissile material 
production, North Korea will be free to expand its nuclear weapons 
program. Is the administration pursuing a verifiable freeze on 
production as a realistic near-term goal for denuclearization talks? If 
not, why?

    Answer. The administration is pursuing steps to denuclearize North 
Korea--which includes eliminating all of DPRK's illicit and threatening 
WMDs and their delivery systems--at the earliest opportunity. We remain 
committed to fully and finally resolving the issue of DPRK's illicit 
and threatening WMDs and delivery systems.

    Question. Given that South Korea appears interested in moving 
forward with North-South diplomacy, how do we keep the North-South 
tracks and the denuclearization tracks lashed together?

    Answer. We support the deepening of inter-Korean ties in hopes of 
establishing lasting peace on the Korean Peninsula. However, as the 
President has said, ``sanctions will be enforced and remain in effect. 
The international community cannot let up on the pressure until the 
DPRK denuclearizes.'' We are closely aligned with the Republic of Korea 
on this message.
                           china's influence
    Question. What mechanism does the United States have to break this 
stalemate and put additional pressure on North Korea to engage 
seriously in these talks? Is China allowing more or less trade into 
North Korea since the summit? How can a policy of maximum pressure be 
effective if China reengages in economic interchange with North Korea, 
as now appears to be the case after the summit?

    Answer. The United States seeks a constructive and results-oriented 
relationship with China. China must continue to hold the North Korean 
regime accountable through applying economic and diplomatic pressure in 
order to bring about our shared objective of the final and fully 
verified denuclearization of North Korea. This includes the continued 
implementation of all relevant UNSCRs, which remain critical to 
ensuring progress on the commitments North Korea made at the Singapore 
summit. We continue to engage Chinese officials at all levels on this 
objective, to include taking decisive action against entities involved 
in DPRK sanctions evasion activity. We will not hesitate to take 
unilateral action against entities that continue to support the DPRK 
regime in contravention of U.N. sanctions

    Question. I believe China, will continue to play a critical role as 
North Korea moves to halt, dismantle, and remove its nuclear weapons. 
Will you maintain a tough approach to China to assure that it, in turn, 
delivers North Korean performance?

    Answer. As North Korea's largest traditional trading partner, China 
has a special responsibility to ensure the continued implementation of 
relevant UNSCRs and to maintain pressure on North Korea.
    After the June 12 summit in Singapore, the Chinese Ministry of 
Foreign Affairs (MFA) issued a statement describing its approach to 
North Korea as ``committed to . . . tireless efforts toward 
denuclearization of the Peninsula, the maintenance of peace and 
stability on the Peninsula and resolution of issues through dialogue 
and consultations.'' We continue to engage Chinese officials to urge 
them to maintain economic and diplomatic pressure on North Korea. We 
are cooperating with many countries, including China, to take decisive 
action against entities involved in DPRK sanctions evasion activity. We 
will not hesitate to take unilateral action against entities that 
continue to support the DPRK regime in contravention of U.N. sanctions.
                      chinese political prisoners
    On behalf of Senator Schumer, from the great state of New York, we 
wanted to ask you about Americans who have been detained in China. As 
of today, there are approximately 100 Americans detained or imprisoned 
in China. There are nearly 40 other Americans who are subject to ``exit 
bans'' and are therefore unable to leave China. Amongst those 
imprisoned is Li Kai, a New Yorker who was arrested by the Chinese 
authorities in September 2016 and was recently sentenced to 10 years in 
prison.

    Question. Will you commit to advocating for the release of Li Kai 
and all Americans imprisoned in China? What actions can you take going 
forward to advocate for the prompt release Li Kai and all other 
Americans imprisoned in China?

    Answer. One of the highest priorities of the Department of State is 
to protect the lives and serve the interests of U.S. citizens overseas. 
This includes providing all appropriate assistance when a U.S. citizen 
is detained abroad. While a U.S. embassy or consulate has no authority 
to intervene in a foreign country's legal process, U.S. consular 
officers may visit and provide support to detained U.S. citizens. In 
the case of Mr. Kai Li, we have closely monitored his case and visited 
him regularly since his detention.
    The U.S. Mission in China works closely with local officials to 
ensure that consular officers have regular access to detained U.S. 
citizens and that those citizens are being treated fairly, humanely, 
and in accordance with Chinese law to include access to a lawyer and a 
fair trial. The Department routinely presses the Chinese government on 
the treatment of detained U.S. citizens, as appropriate, and in certain 
exceptional cases, the U.S. government has called for a prisoner's 
release on humanitarian or human rights grounds, based on case-specific 
facts.
                 readouts of call with foreign leaders
    Question. The White House has recently ceased making readouts of 
the President's calls with foreign leaders public. Do you support that 
decision?

    Answer. The Department is committed to transparency and 
accountability to the American people. We have multiple ways to ensure 
the U.S. and foreign publics are informed about U.S. foreign policy. 
Readouts of my calls and meetings with foreign officials are one 
important way of doing so. Since I began my tenure as Secretary, I have 
authorized release of 72 readouts (as of July 30) of my call and 
meetings.
    As the Secretary of State, I meet regularly with the President on 
all matters related to foreign policy including his contacts with 
foreign leaders. When the President speaks to foreign leaders, I am 
briefed about his conversations and meetings.

    Question. Are you still receiving readouts when the President 
speaks with foreign leaders?

    Answer. As the Secretary of State, I meet regularly with the 
President on all matters related to foreign policy including his 
contacts with foreign leaders. When the President speaks to foreign 
leaders, I am briefed about his conversations and meetings.
                         reorganization of prm
    The Bureau of Population Refugees and Migration within the 
Department of State provides critical multi-functional leadership by 
being able to pair humanitarian assistance and refugee resettlement as 
part of U.S. foreign policy and national security negotiations 
overseas. Dismantling these functions would inhibit the Bureau's and 
the State Department's effectiveness in securing U.S. interests.

    Question. What is the current state of discussions in the 
administration, and your views, vis-a-vis transfer of any of PRM's 
functions to other agencies, including USAID?

    Answer. The Bureau of Population, Refugees, and Migration is an 
integral part of State's foreign policy efforts to prevent and respond 
to crises and conflict, and promote regional stability. In response to 
Executive Order 13781 and the Executive Branch reorganization report 
issued by the White House and OMB in June that included principles for 
a review of our humanitarian assistance structures, I initiated a 
process to develop recommendations for my consideration. That process 
is underway, but nothing has been finalized. The aim of the process is 
to optimize U.S. diplomacy and assistance to displaced people around 
the world, ensure our programs are effective and efficient, and are 
structured in a way that best adheres to our mission.
                                refugees
    Violent conflict, political unrest, and uprisings have unleashed 
refugee crises of unparalleled magnitude around the world, forcing 
millions across borders and conflicts--many for years. Protecting and 
assisting refugees is inherently political.

    Question. Will you ensure that the State Department continues as 
the lead agency for high level/strategic engagement on refugees and 
humanitarian response and assistance to refugees?

    Answer. The Bureau of Population, Refugees, and Migration fulfills 
a critical role in providing humanitarian aid, durable solutions and 
other assistance for refugees, conflict victims, and stateless people. 
It is an integral part of State's efforts to prevent and respond to 
crises and conflict around the world. As part of the executive branch 
review of agencies' policies and structures in pursuit of increased 
efficiency, effectiveness, and accountability, we will optimize U.S. 
diplomacy and assistance to displaced people around the world.
                           refugee admissions
    This week you hosted a Ministerial to Advance Religious Freedom in 
Washington. However, refugee admissions of persecuted religious 
minorities, including religious minorities from Iran through the 
Lautenberg program, have plummeted.

    Question. How will you address this drastic decline in the refugee 
admissions during your Ministerial and beyond?

    Answer. The President authorized the admission of up to 45,000 
refugees in FY 2018. Over the last year and a half, U.S. government 
agencies have worked to strengthen the U.S. Refugee Admissions 
Program's security measures. While necessary to improve national 
security and public safety, these reviews and enhancements have 
lengthened processing times for some cases thus slowing the rate of 
admissions. In addition, the United States is focusing resources on the 
domestic asylum backlog, which is over 300,000 cases and growing. 
Nevertheless, the United States continues to prioritize the 
resettlement of the world's most vulnerable refugees. We work closely 
with U.N. High Commissioner for Refugees and other partners to identify 
the refugees at greatest risk and in most need of resettlement in a 
third country.

    Refugee resettlement is an important American diplomacy and 
national security lever.

    Question. How do you convince countries with much smaller GDPs 
compared to the U.S. to continue to take on the financial burden of 
hosting hundreds of thousands of refugees - countries like Jordan, 
Lebanon, and Turkey - to continue doing so when we can't reach our own 
record low cap of 45,000 refugee arrivals?

    Answer. The United States is the largest single country provider of 
humanitarian assistance worldwide, providing more than $8 billion in 
humanitarian assistance worldwide in FY 2017, including to refugees. 
Our assistance reaches tens of millions of displaced and crisis-
affected people, including those who will never be considered for 
resettlement. In addition, the United States continues to prioritize 
the admission of vulnerable refugees who have been persecuted because 
of race, political opinion, nationality, religion, or membership in a 
particular social group. In response to Executive Order 13780, 
Protecting the Nation from Foreign Terrorist Entry Into the United 
States, the U.S. government identified additional screening and vetting 
procedures to enable departments and agencies to more thoroughly review 
refugee applicants to identify potential threats to public safety and 
national security. These enhancements increased processing time for 
some cases.

    When the U.S. reduced refugee arrivals from nearly 85,000 in FY16 
to less than 55,000 in FY17, and now with the U.S. on pace to only 
resettle 21,000 refugees this year, other resettlement countries have 
also reduced their numbers.

    Question. How will you convince other countries to resettle more 
refugees when our own resettlement numbers are plummeting? How many 
refugees does the State Department support resettling next fiscal year?

    Answer. The United States is the largest single country provider of 
humanitarian assistance worldwide, providing more than $8 billion in 
humanitarian assistance, including to refugees. Our assistance reaches 
tens of millions of displaced and crisis-affected people worldwide, 
including those who will never be considered for resettlement. The 
United States continues to prioritize the admission of vulnerable 
refugees who have been persecuted because of race, political opinion, 
nationality, religion, or membership in a particular social group. The 
Presidential Determination will be made prior to the start of FY 2019, 
after consultations with Congress.
                                  lgbt
    Over the last year, in a number of places around the globe, LGBTQ 
people have been targeted, rounded up, tortured and even killed, just 
for being who they are. We've seen it in Chechnya, Egypt, Azerbaijan, 
Indonesia, Bangladesh and other places. I was therefore please to see 
your statement last month marking the International Day Against 
Homophobia, Transphobia and Biphobia that the U.S. ``opposes 
criminalization, violence and serious acts of discrimination'' against 
LGBTI persons.

    Question. Based on that, what specifically will you commit to do to 
help LGBTQ people in Chechnya, Egypt and elsewhere to ensure they are 
not targeted for abuse?

    Answer. As I confirmed in my statement on the International Day 
Against Homophobia, Transphobia and Biphobia, ``the United States 
stands with people around the world in affirming the dignity and 
equality of all people regardless of sexual orientation, gender 
identity or expression, or sex characteristics. Human rights are 
universal, and LGBTI people are entitled to the same respect, freedoms, 
and protections as everyone else.'' Under my leadership, the Department 
will continue to use a range of public and private actions to counter 
violence and severe discrimination against LGBTI persons by offering 
emergency assistance to LGBTI persons and organizations at risk and by 
imposing visa restrictions and economic sanctions, as appropriate, 
against those who violate their human rights.
                             accountability
    The events in Chechnya have been particularly disturbing, with over 
100 men arrested on suspicion of being gay or bisexual and as many as 
20 killed. Nevertheless, in May, a Russian representative told the U.N. 
that his government found no evidence of the crimes that had taken 
place there and that they could even find gay people in Chechnya. And 
it does not appear that President Trump raised the issue in his meeting 
with President Putin last week.

    Question. What will you do to hold Russia and Chechnya accountable 
for these crimes? What will the U.S. do to ensure that these crimes are 
not forgotten, so that they cannot happen again, either in Chechnya, 
Russia, or elsewhere?

    Answer. The Department of State remains deeply concerned by the 
Russian Federation's failure to hold accountable those responsible for 
the brutal campaign of extrajudicial killings, torture, mass arbitrary 
detentions and other violations and abuses perpetrated against 
suspected gay men in Chechnya, and by attempts by local authorities to 
cover up what took place. We have been clear and consistent in 
condemning these abuses through bilateral channels in Washington and in 
Moscow, including a personal letter to Foreign Minister Lavrov. We have 
insisted at the United Nations, the Organization for Security and 
Cooperation in Europe, and other multilateral fora that the Russian 
Federation act to end impunity for these and other human rights 
violations and abuses that have taken place in Chechnya under Ramzan 
Kadyrov. Moreover, we sanctioned Kadyrov and police official Ayub 
Katayev under the Sergei Magnitsky Rule of Law Accountability Act of 
2012 (Russia Magnitsky Act) in December 2017. With our allies and 
partners, we continue to shine a light on the human rights situation in 
Chechnya, and to evaluate additional diplomatic measures to ensure that 
these crimes are not forgotten and do not happen again.
          special envoy for the human rights of lgbti persons
    Question. For over a year, the State Department has not had a 
Special Envoy for the Human Rights of LGBTI persons. I was pleased that 
you also committed to appoint a Special Envoy in your answers on the 
record to the Senate during your confirmation process, but that has not 
happened yet. Do you have a timeline for making that appointment? When 
can we expect that to happen?

    Answer. Consistent with the administration's prior commitment, I 
intend to retain the position of Special Envoy for the Human Rights of 
LGBTI Persons. The Department is working to fill the position. Filling 
vacant leadership positions is a top priority of mine, and I am working 
closely with the White House to do so.
                                rohingya
    Since last summer, more than 700,000 Rohingya Muslims have been 
forced to flee a systematic military campaign by the Burmese military 
of killings, arson, rape and other mass atrocities amounting to 
genocide. For more than three decades, America stood with our allies to 
support democracy in Burma and to demand freedom for thousands of 
Burmese political prisoners. We need to show equal resolve now to end 
impunity in Burma and hold perpetrators of these most recent atrocities 
accountable.

    Question. What will the United States do next at the United Nations 
to advance accountability for the Rohingya crisis?

    Answer. On May 31, the U.N. Security Council issued a letter to the 
Burmese government calling for independent and transparent 
investigations into all allegations of human rights abuses. We are now 
working with likeminded countries and allies to determine the 
appropriate next steps at the United Nations to promote accountability 
for the Rohingya crisis. This discussion will continue to evolve as we 
discuss the findings of the State Department's upcoming report on these 
atrocities and as we review the findings and recommendations of the 
U.S.-supported U.N. Fact Finding Mission for Burma, which is due to 
release its report in September.

    Question. How can the United States use its role as P5 member to 
ensure those most responsible for atrocities are held to account? What 
steps can the United States take in the General Assembly to end 
impunity for the ethnic cleansing of the Rohingya?

    Answer. As a P5 member, the United States will continue to work 
with U.N. member states, in both the Security Council and the General 
Assembly, to look for ways to promote justice and accountability and 
encourage the Burmese government to end ongoing abuses, ensure they do 
not occur in the future, and take credible steps to redress the past 
abuses against the Rohingya and other ethnic populations. We coordinate 
closely with the United Kingdom and other like-minded partners in the 
Security Council. Further, we regularly consult with the other P5 
members and other member states to urge Burmese authorities to make 
progress toward meaningful accountability for atrocities. We also co-
sponsored the U.N. General Assembly's Third Committee resolution on the 
human rights situation in Burma last year, and look forward to working 
with Member States this year on a resolution that addresses the human 
rights situation there.

    Question. Do you support action by the Treasury Department to make 
additional sanctions designations to hold to account Tatmadaw and other 
Burmese officials responsible for atrocities against Myanmar's ethnic 
and religious minorities?

    Answer. In December of 2017, the President sanctioned former 
Western Command Major General Maung Maung Soe for his role in the 
events related to the ethnic cleansing of the Rohingya and 
administration officials have publicly discussed the possibility of 
further targeted sanctions, among other actions, against those 
responsible for or associated with serious human rights abuses.
        coordinating aid across state, usaid, and other agencies
    Question. How do you intend to partner with USAID Administrator 
Mark Green going forward to ensure that both U.S. foreign policy 
objectives and longer-term development objectives are not only 
achieved, but serve our national security interests? What can the U.S. 
Government do to improve coordination, oversight, and accountability of 
foreign aid administered by a multitude of aid agencies, including but 
not limited to State or USAID? How might creating a U.S. Global 
Development Strategy that guides policy for all U.S. development 
agencies help further clarify roles and responsibilities, while serving 
as a complement to our National Security Strategy?

    Answer. Administrator Green and I share a strong commitment to 
using foreign assistance dollars in support of our foreign policy goals 
to secure our national interests. At my direction, the Office of U.S. 
Foreign Assistance Resources works to promote strategic coordination of 
U.S. foreign assistance resources, working to align foreign assistance 
with the National Security Strategy, the State/USAID Joint Strategic 
Plan, as well as country and sector strategies. I am supportive of a 
strategy for all of foreign assistance, which encompasses much more 
than development assistance. Such a strategy would help ensure that all 
of the taxpayer dollars committed to our foreign policy goals, and the 
agencies that program them, are aligned. The administration, including 
the National Security Council, the Department of State, USAID, and the 
Office of Management and Budget, is currently discussing the framework 
for such a strategy.
                     build act/development finance
    Bicameral, bipartisan legislation called the Better Utilization of 
Investments Leading to Development Act or BUILD Act (S.2463/H.R.5105) 
would enhance U.S. development finance tools by creating a new 
Development Finance Corporation (DFC). The legislation's goals are 
supported by the White House, and the House version of the legislation 
was recently passed via voice vote.

    Question. Since the BUILD Act designates you as board chairman of 
the International Development Finance Corporation (DFC), will you 
commit to making sure that the achievement of development outcomes is 
central to the DFC's mission and that the all projects the DFC supports 
demonstrate clear development goals?

    Answer. As board chair, I would commit to make our foreign policy 
priorities including national security, commercial and development 
objectives central to the mission of the USIDFC. The BUILD act provides 
for the establishment of strong institutional linkages to the United 
States Agency for International Development (USAID) and the USAID 
Administrator would serve as Vice Chair will help insure achievement of 
development goals.

    Question. Should the achievement of development outcomes be the 
central goal of our development finance institution's missions?

    Answer. Achievement of U.S. foreign policy goals, including 
development priorities, is the mission of the USIDFC. The reformed 
USIDFC would provide new, modern tools and enable enhanced government-
wide coordination to achieve improved development outcomes.

    Question. How do you see U.S. development finance partnerships 
supporting U.S. national security?

    Answer. Building private sector partnerships, especially with U.S. 
companies will help promote the U.S. economic model globally by serving 
as an alternative to state-driven models. Catalyzing private 
investments in developing countries will drive economic growth in 
developing countries helping them graduate from foreign assistance and 
form strategic partnerships with the United States. This helps the 
United States maintain and expand our global influence. These 
partnerships will also promote market access and opportunities for U.S. 
commercial interests and benefit the U.S. economy.
                       foreign assistance review
    It has come to my attention that OMB has instructed USAID to 
undertake a significant review of all foreign assistance programs. 
Administrator Green has confirmed to the Foreign Relations Committee 
that this review is happening.

    Question. What role is the State Department playing in this review? 
When do you anticipate this review to be complete? Will the State 
Department, USAID and/or OMB brief the Senate Foreign Relations 
Committee on the preliminary finding and results of the review prior to 
publication? What is motivating this review? If you do not know, and 
you feel that this question is more appropriately directed to OMB, why 
don't you and why are you not more engaged in this review process? 
Given that this is a directive from OMB, not from experts with the 
appropriate experience, what guarantees can you provide that this 
review will be a verifiably objective assessment of U.S. foreign 
assistance programs?

    Given the very public skepticism that some of the administration's 
political leadership have expressed towards the value of foreign 
assistance, including the very public threats to cancel foreign 
assistance to certain countries and withhold U.S. contributions to 
various multilateral funds . . . What assurances can you provide the 
committee that the final review of this project will be based on 
objective evaluations of foreign assistance programs? Do you have any 
assurances from OMB or the White House that they will publish or make 
publicly available USAID's raw and objective analysis? How do you 
anticipate this review will impact foreign assistance programs, or be 
used to justify future budget requests or programs allocations?

    Answer. The administration, including the National Security 
Council, the Department of State, USAID, and the Office of Management 
and Budget, is currently discussing the framework for continuing to 
ensure that U.S. foreign assistance aligns with our core national 
interests. At the same time, interagency policy reviews of foreign 
assistance for specific countries are ongoing. The details of the 
strategy effort are not yet determined, nor have the reviews been 
completed. Delivering foreign assistance is an important mission of the 
Department of State and USAID, and I am committed to working with 
Congress to ensure it serves our national security interests.
          transitioning over time away from foreign assistance
    For the last several years, Congress has approved appropriations 
bills with an important provision requiring all future country 
development strategies to include a plan for transitioning over time 
away from foreign assistance.

    Question. How are you working with both USAID Administrator Green 
and Congress to approach strategic transition planning?

    Answer. ``The Journey to Self-Reliance'' is a simple idea that the 
purpose of foreign assistance is to end its need to exist. We want to 
build the capacity and commitment of our partner countries so they no 
longer need our financial help to be strong economic, political, and 
national security partners for the United States. When that day comes 
that a country has surpassed the need for development assistance, the 
U.S. Government should move away from providing dollars, and 
strategically transition that country to a new relationship model built 
on private- sector trade and mutual benefit.
    The strategic transition planning that the U.S. Agency for 
International Development (USAID) is undertaking is a way for us to 
assess when and how the U.S. Government will transition its 
relationships with certain partner countries. Our strategic transitions 
effort will (1) identify USAID's most-self-sufficient partners through 
our new Self-Reliance Metrics that track countries' progress; (2) 
closely examine the nature of each partnership through heavy 
consultations with our Country Teams; (3) assess whether or not a new 
form of a partnership might be more appropriate, given a country's high 
level of self-reliance through a series of strategic and analytical 
lenses; and, (4) if so, determine how to move towards a new partnership 
model and over time. This assessment and planning will take place in 
close coordination with my Department and the rest of the interagency, 
as well as in broader consultation with both the host country and the 
Congress. We are currently working closely with Administrator Green on 
choosing two pilot countries to flesh out this approach, and I look 
forward to discussing them further with you in the coming months as we 
bring to life the proposed transitions.

    Question. What do you believe is the appropriate way for the U.S. 
Government to help countries move responsibly along a continuum of 
partnership with the United States?
    Answer. Administrator Green's vision of the Journey to Self-
Reliance is about understanding each country's own ability to plan, 
finance, and implement solutions to solve its own development 
challenges. Insofar as we are talking about a continuum of partnerships 
with the United States in the development space, this vision is 
compelling--the Journey to Self-Reliance provides a common framework by 
which we can assess more precisely what a country needs to take on, in 
terms of responsibility for its own development journey, so that we, as 
the U.S. Government, can evolve the development-focused aspects of our 
partnerships accordingly over time. Ultimately, the goal is to end the 
need for foreign assistance in a country by building our partners' 
abilities to plan, finance, and implement solutions to solve their own 
development challenges--their self-reliance--and Administrator Green's 
framework provides a way to do just that.

    Question. Do you believe that supporting partner countries in their 
Journey to Self-Reliance supports the goals of the National Security 
Strategy?

    Answer. Absolutely. Specifically, the Journey to Self-Reliance is 
built upon assessing each country's commitment and capacity to plan, 
finance, and implement solutions to solve its own development 
challenges. In particular, we will assess areas like a country's 
commitment to open and accountable governance, inclusive development, 
fundamental freedoms, and sound- economic policy choices--including 
openness to direct foreign investment and U.S. trade. These are, of 
course, areas reflective of our own American values, and what we 
believe constitute the prerequisites for a robust development pathway. 
In addition, these areas map closely to the President's National 
Security Strategy (NSS)--in particular, the priority actions cited 
under the Champion American Values dimension of Pillar IV, Advancing 
American Influence. If we support countries to focus on these areas and 
build capacity therein, then the approach of the Journey to Self-
Reliance will directly support the NSS through its alignment to the 
goals of Pillar IV.

    The transitions to deeper forms of strategic and economic 
partnership with the U.S. worked well in South Korea and Panama because 
the partner country was able to increasingly mobilize their own 
resources for development. The FY19 budget requests $75 million for 
domestic resource mobilization (DRM) assistance.

    Question. Please describe this approach to scaling up development 
finance in greater detail. Specifically, what agencies are contributing 
and what are the desired near and long-term outcomes?

    Answer. Domestic Resource-Mobilization (DRM) is an important 
component of the Agency's goal to end a country's need for foreign 
assistance, as it improves countries' abilities to raise and manage 
public revenues to pay for their own services. With the FY19 budget 
request, USAID intends to expand the reach of its DRM programming by 
including staff and resources from a suite of economic-growth areas. 
These include generating and managing public revenues and expenditures, 
improving border-management and promoting trade-facilitation, 
harnessing private-sector growth, deepening financial markets, 
empowering women, and improving entrepreneurial opportunities and the 
business environment.
    USAID, MCC, PEPFAR, and the Office of Technical Assistance (OTA) at 
the U.S. Department of the Treasury have intensified cooperation so our 
collective investments in DRM are complementary. USAID will capitalize 
on its ability to assist partner governments' capacity to simplify 
regulations, streamline and enhance procedures. OTA will leverage its 
peer-to-peer model to deliver expert advisory services where requested 
by partner-country governments. MCC will contribute to DRM improvements 
in countries where its constraints analysis methodology identifies DRM 
as a binding limitation on investment and economic growth.
          harmful impact of budget cuts on national interests
    Question. The President's budget request will leave the Department 
of Defense without strong U.S. diplomatic or development partners. 
Given the importance of cultivating institutional development expertise 
within our civilian workforce, I am deeply concerned about the proposed 
budget cuts to the State Department and USAID and the ongoing staffing 
vacancies. Now that the State Department-imposed hiring freeze has been 
lifted, are you confident that you will be able to put in place the 
21st-century workforce your agency needs and demands? Can you share 
with the committee your staffing plan?

    Answer. On May 15, I lifted the hiring freeze on Foreign Service 
(FS) and Civil Service (CS) employment in the Department. We are 
recruiting and hiring to ensure our highest priority mission-critical 
vacancies are filled with a diverse, well equipped workforce ready to 
meet 21st-century challenges.
    Our staffing plan complies with the direction provided by Congress 
in our 2018 Appropriation and accompanying statements. It calls for 
hiring levels well above attrition and when fully executed will bring 
the Department to staffing levels that are 454 above the December 31, 
2017 levels referenced in the Appropriations Act.

    Question. Congress recently enacted the Global Food Security Act, 
the Electrify Africa Act, the Water for the World Act, and the Foreign 
Aid Transparency and Accountability Act--each empowering USAID to 
deliver development results in a more sustainable, accountable way. How 
would severe budget cuts to development assistance impact these 
initiatives, our development objectives, our security, and our 
strategic partnerships around the world?

    Answer. The President's Budget Request for Fiscal Year 2019 
prioritizes foreign assistance in regions, and on programs, that most 
advance our national interest and support the administration's most 
critical priorities. These initiatives are prime examples of how we are 
delivering results in an efficient and effective way. While development 
needs will always exceed available resources, we are committed to 
partnering with nations on their journey to self-reliance, maximizing 
the impact of these initiatives for the American taxpayer, and 
encouraging other donors to do more.
                      nsc non-ooperation with gao
    Question. The National Security Council (NSC) has implemented a 
policy of non-cooperation with the Government Accountability Office 
(GAO) and is refusing to respond to any GAO inquiries. As a former 
congressman, you are aware that these inquiries are meant to help 
Congress meet our constitutional oversight responsibilities, and are 
made as a part of the GAO's statutory authority under the Legislative 
Reorganization Act of 1970. The NSC has refused to respond to two GAO 
inquiries regarding nuclear security and nuclear proliferation, issues 
which also fall concern State Department equities and are especially 
critical developments in North Korea and Iran. This lack of cooperation 
from the NSC hampers the work of Congress and our ability to support 
the State Department in its efforts on these issues. Will you commit to 
raising this issue with National Security Advisor Bolton and encourage 
him to direct the NSC to resume cooperation with GAO?

    Answer. As you know, the Department and the GAO have maintained a 
strong and consistent working-relationship and we look forward to 
continuing this cooperation. I am happy to convey to the NSC our 
experience and the benefits of this relationship to the Department and 
the Congress.
                               __________

              Responses of Hon. Mike Pompeo to Questions 
                    Submitted by Senator Marco Rubio

    Question. The difficult political situation in Iraq, including the 
fallout from the last election, is being exacerbated by competition 
among Gulf Arab countries, making the formation of an Iraqi government 
more difficult and creating an opening for Iran to exploit divisions. 
This chaos could lead to an Iraqi government that is close to, if not 
beholden to, Iran. How can we encourage Qatar, Saudi Arabia, and other 
Gulf partners to put aside their current differences and work together 
to move Sunni-dominated coalitions in Iraq to join the governing 
coalition?

    Answer. Our regional partners recognize that, absent U.S., Gulf, 
and broader international engagement, Iraq risks devolving into an 
unstable, more sectarian state that Iran and extremist groups like ISIS 
could exploit. Together with the United States, many Gulf countries are 
urging Iraqis to form a moderate, reformist government, with meaningful 
participation by all of Iraq's communities and a commitment to an 
enduring partnership with the United States, based on the Strategic 
Framework Agreement. The new government should be willing and able to 
protect Iraq's sovereignty, preserve its democratic processes, fight 
corruption, and deliver services to its citizens. This outcome would 
doubtless serve our partners' interest in regional stability and 
inhibit Iran's malign influence.

    Question. Haiti has become a more attractive transit point for 
contraband and narcotraffickers. What can the U.S. government do to 
assist the Government of Haiti to prevent contraband at its border with 
the Dominican Republic?

    Answer. I consider it important that the Haitian government be able 
to control its borders, and we have several programs in place to 
achieve that goal. USAID has an ongoing Customs Support Project, a $4 
million initiative helping to modernize Haiti's customs service 
processes for revenue collection, traveler processing, and contraband 
interdiction. This program is assisting the Haitian government to 
better manage its border and increase revenue collection. Additionally, 
the Partnership Encouragement Act of 2006 (HOPE), the Food Conservation 
and Energy Act of 2008 (HOPE II), and the Haiti Economic Lift Program 
of 2010 (HELP) legislation explicitly call for U.S. Customs and Border 
Protection to provide technical assistance to Haitian customs. The 
State Department, through the work of the Bureau of International 
Narcotics and Law Enforcement (INL), will continue its longstanding 
support for the Haitian National Police. INL's support includes 
training and equipping the Haitian border police and Haitian 
counternarcotics unit in order to strengthen Haiti's capacity to combat 
illicit trafficking and transnational organized crime at its land, sea, 
and air borders.

    Question. Anonymous shell companies are too often used for illicit 
purposes, including laundering money into the United States, human 
trafficking, financing terrorism, evasion of sanctions, healthcare 
fraud schemes, transnational corruption, and organized crime. Do you 
agree that the use of anonymous shell companies is a threat to national 
security? Does the Trump administration support increasing transparency 
to crack down on transnational criminal organizations and foreign 
governments using shell companies to operate unseen throughout the 
United States?

    Answer. I believe keeping our financial system secure is critical 
to U.S. national security and our efforts to combat corruption and 
transnational organized crime globally. The Department of the Treasury 
is the executive branch lead for addressing anonymous entities and 
their impact on our financial system. In May 2018, the Treasury began 
enforcing a new Customer Due Diligence Rule that clarifies and 
strengthens customer due diligence requirements for covered financial 
institutions and adds a new requirement for financial institutions to 
verify the identities of the actual people who own, control, and profit 
from companies - the beneficial owners. Earlier this year, my 
colleagues in the Department of Justice and the Department of the 
Treasury testified before the Senate Committee on the Judiciary and the 
House Committee on Financial Services, respectively, that the 
collection of this information will generate better law enforcement 
leads and speed up investigations by improving financial institutions' 
ability to monitor and report suspicious activity. This will help law 
enforcement identify assets and accounts of criminals and national 
security threats. This will also facilitate compliance with sanctions 
programs and other measures to cut off assets to corrupt actors, 
terrorists, and criminal networks.
                               __________

              Responses of Hon. Mike Pompeo to Questions 
                Submitted by Senator Benjamin L. Cardin

                                  iran
    On July 22 at 8:24pm, President Trump tweeted: ``TO IRANIAN 
PRESIDENT ROUHANI: NEVER, EVER THREATEN THE UNITED STATES AGAIN OR YOU 
WILL SUFFER CONSEQUENCES THE LIKES OF WHICH FEW THROUGHOUT HISTORY HAVE 
EVER SUFFERED BEFORE. WE ARE NO LONGER A COUNTRY THAT WILL STAND FOR 
YOUR DEMENTED WORDS OF VIOLENCE & DEATH. BE CAUTIOUS!''

    Question. Did the President's all caps tweet signal that the use of 
force against Iran is imminent?

    Answer. No. Our Iran strategy involves placing unprecedented 
economic and diplomatic pressure on Iran to force it back to the 
negotiating table to achieve a better, comprehensive deal.

    Question. Has the State Department worked with the Department of 
Defense and the inter-agency to determine casualty estimates in the 
event of a U.S.-initiated war with Iran?

    Answer. No, and I refer you to the Department of Defense on this 
matter.

    Question. [If yes] Walk me through the potential scenarios for war 
with Iran being contemplated by the administration.

    Answer. I refer you to the Department of Defense on this matter. 
The President's strategy seeks to avoid conflict with Iran.

    Question. [If he talks about classification] Why do you believe the 
American people do not have a right to know the potential ways in which 
the United States might get entangled in a conflict with Iran? Will you 
provide an unclassified assessment of potential war scenarios to this 
committee?

    Answer. I refer you to the Department of Defense on matters 
involving any such scenarios. Our Iran strategy involves placing 
unprecedented economic and diplomatic pressure on Iran to force it back 
to the negotiating table to achieve a better, comprehensive deal. The 
strategy does not envision military conflict with Iran; rather, it 
seeks to avoid conflict.

    Question. Will you pledge to appear again before this committee in 
a classified setting to discuss these scenarios?

    Answer. I intend to continue my close cooperation with Congress.
                              north korea
    Last month, before the Subcommittee on East Asia, the Pacific, and 
International Cybersecurity Policy, Joseph Yun, Senior Advisor at the 
United States Institute of Peace discussed next steps in U.S. policy 
towards North Korea. In his testimony, Yun emphasized that a 
negotiation with North Korea ``must produce a clear timeline for the 
ultimate goal: the disablement and dismantlement of all nuclear and 
North Korean ICBM facilities, material, and devices,'' and that only a 
swift timeline would silence skeptics in DC, Seoul, Tokyo and beyond.

    Question. Given North Korea's continued production of material that 
can be used to make nuclear bombs, do you agree with President Trump's 
assertion that there is ``no rush'' to the negotiating process?

    Answer. It may take some time to get where we need to go, but all 
of this will be taking place against the backdrop of continued full 
implementation of existing sanctions. We want denuclearization that is 
fully verified and, importantly, final--the President wants to 
denuclearize North Korea once and for all and not have the nuclear 
issue resurface again.

    Question. Have you and your North Korean counterparts agreed on any 
working level teams for the follow-up negotiations on key issues? If 
so, what issues are each of those teams assigned to address? Who is in 
the lead of each of these working level teams for the U.S. side?

    Answer. I have established a post-Singapore Summit working group 
dedicated to directing my Department's planning, policy, implementation 
and verification of our efforts to achieve the denuclearization of 
North Korea consistent with the Singapore Summit's joint statement. The 
working group is led by Alex Wong, Deputy Assistant Secretary for East 
Asian and Pacific Affairs; Ben Purser, Deputy Assistant Secretary for 
International Security and Nonproliferation; Mark Lambert, Acting 
Deputy Assistant Secretary for Korea and includes many other 
colleagues, drawing upon the expertise of the entire Department. The 
team supports Ambassador Sung Kim's ongoing negotiation efforts. We 
will continue to closely collaborate with the interagency.

    Question. In the course of your discussions with your NK 
counterparts, have you reached an agreed understanding of what 
``denuclearization of the Korean peninsula'' entails, and, whether 
there is agreement or not, please describe your understanding of what 
denuclearization should cover?

    Answer. In my engagements with Chairman Kim and other North Korean 
officials I have made the U.S. position towards denuclearization 
abundantly clear. Our goal is to achieve the final, fully-verified 
denuclearization of the DPRK. This goal was agreed to by Chairman Kim 
in Singapore.

    Question. What are the specific, verifiable steps toward 
denuclearization that the administration expects North Korea to take in 
the next 12 to 24 months and how will the administration reciprocate?

    Answer. The administration continues to work towards the full 
implementation of the commitments Chairman Kim made in Singapore, and 
to plan for the denuclearization of North Korea, including the specific 
steps necessary to accomplish this.
                               nicaragua
    More than 300 people have died in protests across Nicaragua in the 
past few months. The conflict shows no sign of abating at this time.

    Question. What is the United States doing to reduce violence and 
increase dialogue in Nicaragua?

    Answer. We are urging the Nicaraguan government to immediately 
cease all government-sponsored violence. We are calling for early, 
free, and fair elections with credible domestic and international 
electoral observation. We continue to help expose and hold accountable 
those responsible for the violence and intimidation campaign.
    The Department has imposed visa restrictions on Nicaraguans 
responsible for or complicit in human rights abuses or undermining 
democracy in Nicaragua. On July 5, we placed financial sanctions under 
the Global Magnitsky Human Rights Act on three Nicaraguan officials who 
have been involved in serious human rights abuses or engaged in 
corruption. The Department is considering a variety of additional 
options. We worked closely with our regional partners in the 
Organization of American States to pass a resolution on July 18 
condemning ongoing ``violence, repression, and human rights violations 
committed by police, para-police groups, and others'' in Nicaragua, and 
continue to engage with allies at the OAS to ensure effective follow up 
mechanisms are in place to support OAS engagement regarding Nicaragua. 
This also includes support for the monitoring and investigative efforts 
of the independent Inter-American Commission on Human Rights (IACHR).

    Question. Are you concerned that an increasingly unstable Nicaragua 
will destabilize its neighbors and cause national security issues for 
the United States?

    Answer. Yes. We are very concerned with the ongoing political 
crisis in Nicaragua. We see a secure, stable, and prosperous Nicaragua 
as essential to promoting a prosperous and secure Central America, 
which is key to U.S. national security and broader U.S. interests.
    We continue to press the Ortega regime to immediately cease all 
government-supported violence. We support the proposal of many sectors 
of Nicaragua society for early, free, and fair elections with credible 
domestic and international electoral observation. And we continue to 
expose and hold accountable those responsible for the violence and 
intimidation campaign currently being perpetrated by the Ortega 
government.
    We are working closely with partners and international 
organizations, including the Organization of American States, to 
condemn human rights violations and abuses by the Nicaraguan government 
and its supporters, press for democracy, and urge the government to 
hold accountable individuals who have committed human rights violations 
and abuses.

    Question. Do you still believe that sending back the thousands of 
Nicaraguan TPS holders living in the United States makes sense at this 
time, both from national security and moral perspective?

    Answer. The authority to make decisions regarding TPS resides with 
DHS, after consultation with appropriate agencies, including the 
Department of State. On November 6, 2017, DHS announced the decision to 
terminate TPS for Nicaragua, with a delayed effective date of 12 months 
to allow for an orderly transition. Nicaraguan TPS beneficiaries are 
authorized to remain in the United States through January 5, 2019, at 
which time they will revert to the immigration status they had before 
being granted TPS or any other status they subsequently acquired, 
unless that status has otherwise expired.

    Question. Will this administration commit to reconsidering the 
Nicaragua TPS decision, and other TPS decisions, as factors on the 
ground change?

    Answer. The authority to make decisions regarding TPS resides with 
DHS, after consultation with appropriate agencies, including the 
Department of State. The Department of State is prepared to provide 
relevant country conditions information on Nicaragua to Secretary 
Nielsen should she initiate a review of conditions in Nicaragua.
                         nationalism in europe
    Nationalism is on the rise in Europe as evidenced by historic gains 
by Italy's League party and Germany's AfD party in recent elections. 
The rise of these parties has accompanied an increase in anti-immigrant 
and anti-Semitic sentiments across the continent. This administration 
has engaged in outreach to specific far-right political parties, as 
evidenced by U.S. Ambassador Richard Grenell's intention to ``empower 
the right'' in Germany.

    Question. What is the Trump administration's strategy behind its 
outreach to far right political parties?

    Answer. It is not the policy of the United States to endorse 
political candidates or parties in other countries. We meet with 
parties across the political spectrum in the course of our regular 
diplomatic engagement.

    Question. Do you agree with Ambassador Grenell and the President's 
comments in support of right-wing nationalist parties in Europe?

    Answer. Ambassador Grenell has clarified his comments were taken 
out of context, made clear he is not endorsing any particular 
candidates or political parties, and further confirmed it is not the 
policy of the United States to endorse political candidates or parties 
in other countries.
                        anti-immigrant policies
    Question. In his recent visit to the United Kingdom, President 
Trump stated that Europeans are ``losing'' their culture, and 
``allowing millions of people to come into Europe is very, very 
sad.''Do you think supporting such anti-immigrant rhetoric furthers our 
standing in the world, or reflects the values of the United States?

    Answer. Our global humanitarian leadership and robust humanitarian 
assistance programs reflect the deeply-held values and generosity of 
the American people. The United States is the largest single-country 
provider of humanitarian assistance worldwide--more than $8 billion in 
humanitarian assistance in FY 2017. Our assistance provides urgent, 
life-saving services, including child protection programs, women's 
protection and empowerment activities, food, shelter, healthcare 
services, and access to clean water for tens of millions of displaced 
and crisis-affected people worldwide. This commitment to the world's 
most vulnerable individuals remains a critical component of U.S. 
national security policy.
                        anti-immigrant policies
    Question. Is the United States better off with New START, and the 
on-site verification of Russia's nuclear forces that comes with that 
treaty, or better off without it?

    Answer. Through the Treaty's verification regime, which includes 
short-notice, on-site inspections at New START Treaty-related bases and 
facilities, the United States is able to verify information about the 
strategic nuclear arsenal of the Russian Federation. The verification 
regime provides both countries insight into each other's strategic 
nuclear delivery systems, warheads, and facilities. Since the Treaty's 
entry into force, the United States and Russia have exchanged more than 
15,800 notifications regarding the location, movement, and status of 
their strategic nuclear forces, performed 15 data exchanges with a full 
accounting of exactly where weapons systems are located, and conducted 
over 260 on-site inspections of strategic nuclear weapons-related 
facilities. Each side has conducted their full complement of up to 18 
such inspections annually. The Treaty's consultative body, the 
Bilateral Consultative Commission (BCC), has met 15 times since entry 
into force of the Treaty. The two BCC delegations maintain a pragmatic 
relationship, working to solve New START Treaty implementation issues 
to mutual benefit. The Treaty's implementation is also facilitated by 
the Department of State's Nuclear Risk Reduction Center, which for 
decades has maintained dedicated resources and infrastructure to 
support this mission.
    Russia is in compliance with the Treaty, and both sides 
successfully met the Treaty's central limits on February 5, 2018. As 
noted in the 2018 Nuclear Posture Review, the United States will 
continue to implement the New START Treaty, and remains committed to 
arms control efforts which advanced U.S., allied, and partner security; 
are verifiable and enforceable; and include partners that comply 
responsibly with their obligations.

    Question. Is there a process in place for deciding whether the 
United States will support extending the treaty?

    Answer. Any decision regarding a potential extension of the New 
START Treaty will be made at the appropriate time, and will consider 
whether extending the Treaty is in the national security interest of 
the United States, as well as our allies and partners. The United 
States remains committed to fully implementing the Treaty. There has 
been no decision on extension, and we are in the process of weighing 
next steps.
                         haiti border security
    Question. Is there more that we could be doing to strengthen 
Haiti's border security, and should the State Department continue and 
expand its support to programs that address revenue collection?

    Answer. I consider it important that the Haitian government be able 
to control its borders, and we have several programs in place to 
achieve that goal. USAID has an ongoing Customs Support Project, a $4 
million initiative helping to modernize Haiti's customs service 
processes for revenue collection, traveler processing, and contraband 
interdiction. This program is assisting the Haitian government to 
better manage its border and increase revenue collection. Additionally, 
the Partnership Encouragement Act of 2006 (HOPE), the Food Conservation 
and Energy Act of 2008 (HOPE II), and the Haiti Economic Lift Program 
of 2010 (HELP) legislation explicitly call for U.S. Customs and Border 
Protection to provide technical assistance to Haitian customs. The 
State Department continues its longstanding support for the Haitian 
National Police to strengthen Haiti's readiness to address border 
security issues. I will pursue additional efforts to improve Haiti's 
cooperation with the border authorities of the Dominican Republic.

    Question. What will the administration do moving forward to 
encourage and support enhanced border control measures and a crackdown 
on contraband trade?

    Answer. I consider it important that the Haitian government be able 
to control its borders in order to combat illicit trafficking and 
transnational organized crime, and we have several programs in place to 
achieve that goal. USAID has an ongoing Customs Support Project, a $4 
million initiative helping to modernize Haiti's customs service 
processes for revenue collection, traveler processing, and contraband 
interdiction. This program is assisting the Haitian government to 
better manage its border and increase revenue collection. The State 
Department through the work of the Bureau of International Narcotics 
and Law Enforcement (INL) will continue its longstanding support for 
the Haitian National Police. INL's support includes training and 
equipping the Haitian border police and Haitian counternarcotics unit 
in order to strengthen Haiti's capacity to combat illicit trafficking 
and transnational organized crime at its land, sea, and air borders. 
Moving forward, I would support a study proposed by the Center for 
Strategic and International Studies engaging both the Haitian and 
Dominican governments and private sectors in designing a comprehensive 
and lasting solution to these complicated border challenges.
                               __________

              Responses of Hon. Mike Pompeo to Questions 
                  Submitted by Senator Jeanne Shaheen

    Question. Are you concerned about reports of Russian ties to 
extremist groups in the United States? We are seeing increased reports 
of Russian-funded proxies such as the Russian Imperial Movement (RIM) 
and the far-right political party Rodina supporting extremist groups in 
the United States. How is the U.S. monitoring the influence of these 
entities on groups in our own country? What can the U.S. do to track 
the activities of individuals known to be connected to Russian groups 
with a history of supporting extremism in Western democracies? Do these 
Russian organizations pose a threat to Americans' safety and security?

    Answer. As the lead foreign policy agency, the Department of State 
does not monitor activity within the United States. I have made it 
clear at the highest levels of the Russian government that any efforts 
to interfere in domestic affairs or undermine stability are 
unacceptable and will be met with swift and significant consequences.

    Question. Secretary Pompeo, when you testified before the 
Appropriations Committee on June 27th, we discussed your efforts to 
repatriate the remains of American service members missing in action 
from the Korean War, which are currently under the control of the North 
Korean government. What is the status of these transfers and is there a 
set timeline for these transfers?

    Answer. On July 20, the United States provided 55 transfer cases to 
the DPRK for the return of U.S. service members' remains. We anticipate 
receiving and repatriating our fallen heroes' remains soon as a 
tangible step toward the realization of President Trump's and Chairman 
Kim's commitments in Singapore.

    Question. Compared to North Korea's denuclearization, the return of 
these remains would seem to be a relatively straightforward matter if 
Kim Jong Un wishes to resolve it. Given that President Trump personally 
discussed this matter with Kim Jong Un in Singapore on June 12th, how 
do you interpret North Korea's foot dragging on this issue in the wider 
context of your negotiations on denuclearization?

    Answer. At his meeting with President Trump, Chairman Kim made a 
commitment to repatriate the remains of American service member 
remains. I am pleased he is following through on that commitment. This 
humanitarian gesture should not be conflated with our goal of achieving 
the final, fully verified denuclearization of the DPRK. I look forward 
to continued progress on that front.

    Question. Secretary Pompeo, I think you will agree that in order to 
negotiate in good faith with North Korea and ultimately achieve an 
agreement that is complete and verifiable, we first need to know the 
scope of their nuclear weapons program, which means declaration of all 
of their warheads, nuclear material, facilities and so forth. Have the 
North Koreans agreed to take this step, and if so, who will be the 
arbiter of that declaration process? When will it begin?

    Answer. A full, verified declaration of all of North Korea's WMDs, 
delivery systems, and related sites will be an integral part of and 
critical initial step in our overall denuclearization effort. We will 
remain focused on securing such a declaration at the earliest possible 
time.

    Question. Secretary Pompeo, does the President have the appropriate 
constitutional and legislative authority to withdraw from treaties 
without the expressed consent of Congress?

    Answer. The President has the constitutional authority to terminate 
or withdraw from treaties without need for separate action by the 
Congress. Previous presidents have exercised this well-established 
authority on dozens of occasions in the past century. Questions of 
legal authority aside, the Department welcomes engagement with the 
Senate on questions related to our treaty relationships.
                               __________

              Responses of Hon. Mike Pompeo to Questions 
                     Submitted by Senator Tim Kaine

                             russian threat
    Question. At the recent Aspen Summit, Chairman of the Joint Chiefs 
of Staff, General Dunford, reaffirmed his assessment that because of 
its nuclear capability, cyber capabilities, actions in Georgia, Crimea 
and Ukraine, Russia is the greatest threat America faces from a state 
actor. Do you agree with General Dunford's assessment that Russia is 
the greatest threat the U.S. faces from a state actor? Why or why not?

    Answer. President Trump and I are well aware of the challenges that 
Russia poses to the United States and our partners and allies. Russia 
has shown through its aggressive actions that it rejects the post-Cold 
War order and seeks to undermine stability, democracy, and core Western 
institutions. Russia's ongoing military modernization program, nuclear 
and cyber capabilities, invasions of Ukraine and Georgia, and 
willingness to use hybrid threats and tools against the United States 
and its allies and partners are clear threats to our national security.
    To counter, expose, and respond to Russia's destabilizing and 
malign influence activities, the National Defense Strategy and the 
Russia Integrated Strategy outline an approach to steadily raise the 
costs of Russia's aggression until President Putin chooses a less 
confrontational foreign policy. We must be clear-eyed about Russia's 
transgressions, frank in our dialogue with Russia, and resolute in 
raising the costs of their behavior, including the use of military, 
diplomatic, and law-enforcement tools. We must also continue to build 
the resilience of the countries on Russia's periphery with a whole-of-
government approach that includes working with Allies, partners, and 
institutions such as NATO and the EU.
    We remain deeply concerned about Russia's failure to fulfill its 
arms control and other international commitments.
                         russia in afghanistan
    Question. Senior U.S. military officials have accused Russia of 
trying to destabilize Afghanistan by supporting the Taliban, to include 
smuggling Russia weapons across the Tajik border to arm the group. 
There are also indications that in addition to supporting the Taliban's 
military efforts, Russia has begun providing financial backing to anti-
American politicians in Afghanistan. What do you assess to be Russia's 
current level of support to the Taliban and what are Russia's goals in 
increasing this support despite being historic foes? How about to other 
anti-American groups or factions in Afghanistan? Does the Department 
believe Russia is trying to undermine a continued U.S. troop presence?

    Answer. We are aware of reports that the Russians continue to 
provide weapons and other support to the Taliban. Russia has shown an 
increased willingness to publicly acknowledge its diplomatic engagement 
with the Taliban.
    Regional states like Russia should instead take steps to 
significantly increase their contributions to support the Afghan 
government and an Afghan peace process that includes direct 
negotiations between the Taliban and the Afghan government. These 
formal negotiations between the Taliban and the Afghan government are 
the only way to end the conflict, and the Taliban's leaders are 
standing in the way of progress. The Taliban must understand that they 
have no viable alternative but to enter into direct talks with the 
Afghan government.
    At this time, we do not assess that Russia is supporting other 
anti-American groups in Afghanistan.
                  state department officials in syria
    Question. In your testimony on the substance of the President's 
one-on-one meeting with President Putin, you said there has been no 
policy change on ``deconfliction with Russia'' regarding the U.S. troop 
presence and activities in Syria. With regards to State Department 
personnel serving in Syria, whether traveling to Syria for temporary 
duty or permanently stationed there, have there been any instances in 
which State Department personnel have been in harm's way due to Russian 
military activity, and what was the impact of existing deconfliction 
mechanisms? What mechanisms are in place to ensure their safety going 
forward?

    Answer. There have been no incidents between Russian personnel and 
USAID and State Department personnel on the ground in Syria. The United 
States and Russia continue to utilize the de-confliction channel, which 
has been effective in enabling stakeholders to safely conduct 
operations in Syria against ISIS. Syria Transition and Response Team 
(START) Forward personnel are co-located with DoD assets on the ground 
and are protected by the Department of State's Bureau of Diplomatic 
Security as well as DoD. This relationship has enabled State and USAID 
to continue to invest in communities across the region to remove 
explosive remnants of war; get electricity and water turned back on; 
and repair and refurbish medical facilities, schools, and basic 
infrastructure in order to enable families to safely and voluntarily 
return home and strengthen community resilience.
                    u.s.-israel cooperation on iran
    Question. Press has alleged that the U.S. and Israel have formed a 
joint working group to support internal efforts to encourage protests 
within Iran and put pressure on the Iranian government, saying this was 
part of a U.S.-Israeli framework document on countering Iran. Is the 
U.S. collaborating with Israel on such an initiative? If so, please 
provide us with specific details or a copy of this agreement.

    Answer. The United States, our allies, and our partners around the 
world recognize the threat Iran's malign activity poses to nations in 
the region and particularly to Israel. We are committed to working with 
Israel to help maintain its security and continue close collaboration 
on a range of issues, including Iran.
                               __________

              Responses of Hon. Mike Pompeo to Questions 
                 Submitted by Senator Edward J. Markey

                                 lgbti
    Question. Over the last year, in a number of places around the 
globe, LGBTQ people have been targeted, rounded up, tortured and even 
killed, just for being who they are. I was therefore pleased to see 
your statement last month marking the International Day Against 
Homophobia, Transphobia and Biphobia that the U.S. ``opposes 
criminalization, violence and serious acts of discrimination'' against 
LGBTI persons. What will you specifically commit to do to help LGBTQ 
people in Chechnya, Egypt and other places to ensure they are not 
targeted for abuse? What will you do to hold Russia and Chechnya 
accountable for these crimes?

    Answer. As I confirmed in my statement on the International Day 
Against Homophobia, Transphobia and Biphobia, ``the United States 
stands with people around the world in affirming the dignity and 
equality of all people regardless of sexual orientation, gender 
identity or expression, or sex characteristics. Human rights are 
universal, and LGBTI people are entitled to the same respect, freedoms, 
and protections as everyone else.'' The Department uses public and 
private actions to counter violence and severe discrimination by 
offering emergency assistance to LGBTI persons and organizations at 
risk and by imposing visa restrictions and economic sanctions, as 
appropriate, against those who violate their human rights.
    In relation to Chechnya, we have been consistent in condemning 
abuses targeting the LGBTI community through bilateral channels, 
including a personal letter to Foreign Minister Lavrov. We have 
insisted at the United Nations and the Organization for Security and 
Cooperation in Europe that the Russian Federation end impunity for 
human rights violations in Chechnya. In addition, we sanctioned Ramzan 
Kadyrov and police official Ayub Katayev under the Sergei Magnitsky 
Rule of Law Accountability Act of 2012 (Russia Magnitsky Act) in 
December 2017 for their role in perpetrating abuses.

    Question. For over a year, the State Department has not had a 
Special Envoy for the Human Rights of LGBTI persons. I was pleased 
that, in your answers on the record to the Senate during your 
confirmation process, you also committed to appoint a Special Envoy, 
but that has not happened yet. Do you have a timeline for making that 
appointment? When we can we expect that to happen?

    Answers. Consistent with the administration's prior commitment, I 
intend to retain the position of Special Envoy for the Human Rights of 
LGBTI Persons. The Department is working to fill the position. Filling 
vacant leadership positions is a top priority of mine, and I am working 
closely with the White House to do so.

    Question. I am pleased to see that you have begun to name senior 
level staff to fill key positions, vacancies that had been backlogged 
under your predecessor. However, I am concerned about a number of these 
nominees' records on women's rights, refugees, and LGBTQ human rights. 
What are you doing to ensure that all nominees understand the broad 
range of human rights issues in their portfolios and that they must 
take into account the very real persecution that women, LGBTQ people 
and other groups face around the globe?

    Answer. Nominees for positions across the Department of State are 
extensively briefed on the foreign policy priorities of the 
administration, including the promotion of human rights and fundamental 
freedoms. Promoting human rights and defending the dignity of all 
persons is in the best interests of the United States.
                         singapore/north korea
    Question. The statement issued by President Trump and Chairman Kim 
says the United States and North Korea ``join their efforts to build a 
lasting and stable peace regime on the Korean Peninsula . . . and the 
DPRK commits to work toward complete denuclearization of the Korean 
Peninsula.'' Have the North Koreans agreed to a common understanding of 
what ``denuclearization of the Korean Peninsula'' covers?

    Answer. I have been very clear with my North Korean counterparts on 
what final, fully-verified denuclearization means, and they understand 
and acknowledge that it will require verification.

    Question. Has North Korea agreed to suspend the production of 
fissile material and suspend the production of ballistic missiles? Is 
there any verifiable evidence of significant progress toward 
denuclearization?

    Answer. The administration is pursuing steps to fully denuclearize 
North Korea--which would include eliminating all of the DPRK's illicit 
and threatening WMDs as well as its delivery systems--at the earliest 
opportunity.
    In Pyongyang, North Korea reaffirmed the commitment it made in 
Singapore to destroy its missile engine test site, which, if completed 
and verified, will constitute positive movement. We continue to work to 
secure the necessary action on the part of the DPRK to accomplish the 
final, fully-verified denuclearization of North Korea.

    Question. What is preventing the United States from agreeing to 
Japan's request to compel North Korea to sign the 1996 Comprehensive 
Nuclear Test Ban Treaty and make its nuclear test moratorium legally-
binding and verifiable?

    Answer. Verification is an essential part of complete 
denuclearization, and President Trump and Chairman Kim both committed 
to this in Singapore. The U.S. government is committed to the robust 
monitoring and verification measures that will be required to achieve 
complete denuclearization and to not have the nuclear issue resurface 
again.

    Question. Secretary Pompeo, have you and your North Korean 
counterparts agreed on any working level teams for the follow-up 
negotiations on key issues? If so, what issues are each of those teams 
assigned to address?

    Answer. I have established a post-Singapore Summit working group 
dedicated to directing my Department's planning, policy, implementation 
and verification of our efforts to achieve the denuclearization of 
North Korea consistent with the Singapore Summit's joint statement. The 
working group is led by Alex Wong, Deputy Assistant Secretary for East 
Asian and Pacific Affairs; Ben Purser, Deputy Assistant Secretary for 
International Security and Nonproliferation; Mark Lambert, Acting 
Deputy Assistant Secretary for Korea and includes many other 
colleagues, drawing upon the expertise of the entire Department. The 
team supports Ambassador Sung Kim's ongoing negotiation efforts. We 
will continue to closely collaborate with the interagency.
    We are moving together for further negotiations, and the United 
States seeks to move quickly. There is much work to be done, and my 
team looks forward to working with the DPRK to develop a clear, shared 
timeline to accomplish the final, fully-verified denuclearization of 
North Korea, as agreed to by Chairman Kim.

    Question. South Korean President Moon has recently reiterated that, 
by the end of 2018, he would like the United States, the DPRK, and the 
RoK to make a political declaration on the end of the Korean War. This 
is a concept that President Trump has said might be helpful and that 
North Korea would presumably see as a step in the direction of building 
a lasting and stable peace regime on the Korean Peninsula. Could such a 
political declaration, in your view, contribute to that goal? And could 
it potentially help move North Korea toward more meaningful and 
irreversible steps on denuclearization?

    Answer. We are committed to building a peace mechanism with the 
goal of replacing the Armistice agreement when North Korea has 
denuclearized. The administration firmly believes any warming in 
relations between Pyongyang and Seoul must happen in tandem with the 
denuclearization of the DPRK. Right now, our primary focus is the 
final, fully verified denuclearization of the DPRK.
           helsinki/u.s.-russian nuclear arms control matters
    Question. Following the July 16 meeting with President Trump in 
Helsinki, President Putin expressed Russia's willingness to begin 
discussions about an extension of the New START Treaty and warned that 
the treaty will expire in a year and a half unless work on an extension 
begins soon. Did Presidents Trump and Putin discuss New START and a 
possible extension during their private meeting and if so how did 
President Trump respond to President Putin's willingness to begin talks 
on doing so? What is the administration's timeline for the completing 
its review of whether to extend New START?

    Answer. The administration does not have a specific timeline for 
reviewing a potential extension of the new START treaty. The United 
States remains committed to fully implementing the treaty. The 
interagency has made no decision on extension, and we will weigh next 
steps at the appropriate time. This decision will be taken in the 
context of the international security environment, and will 
holistically weigh whether extending the treaty benefits the national 
security of the United States, our allies, and our partners.
                  export controls for 3-d-printed guns
    In 2015, Defense Distributed and the Second Amendment Foundation 
sued the State Department, challenging the State Department's 
determination that Defense Distributed violated federal export controls 
and its demand that Defense Distributed remove from the internet its 
blueprints for 3-D printable firearms. Throughout the course of the 
lawsuit, the government maintained that its position was well-supported 
under the Arms Export Control Act and the International Traffic in Arms 
Regulations (ITAR).

    Despite the court's twice siding with the government's position, in 
a stunning reversal of course last month, DOJ settled the suit and 
agreed to allow for the public release of Defense Distributed's 3-D 
firearm printing blueprints in any form. Specifically, the State 
Department has agreed to allow Defense Distributed to publish its 
blueprints by July 27, 2018--by making a ``temporary modification'' of 
the United States Munitions List (USML) and granting Defense 
Distributed an ``exemption'' from ITAR regulations.

    Anyone--including criminals and terrorists--will now have access to 
blueprints for making deadly weapons, including semi-automatic firearms 
like the AR-15 used in the Parkland, Florida shooting.

    Question. In your testimony before our committee, you committed to 
reviewing the decision to allow Defense Distributed to publish its 
blueprints online. Would you please confirm for this committee that you 
will not allow the publication of blueprints online while you undertake 
this review?

    Answer. As I committed in my testimony, I will review the 
Department's next steps on this issue and have my staff provide a 
briefing on the complexities of this matter.
                             taiwan/taipei
    Question. Bloomberg news reported July 26 that U.S. airlines are 
altering their website displays for Taiwan, meeting a deadline set by 
the Chinese government for such references to reflect China's claim on 
the island. I understand that that the U.S. government has expressed 
concern on behalf of U.S. air carriers to the Chinese government and 
consulted with the airlines. What messages have you delivered to the 
Chinese? Now that U.S. air carriers have elected to conform to the 
Chinese government request, what other steps is the State Department 
contemplating to advocate on behalf of U.S. companies, given the 
likelihood of further economic coercion in the future?

    Answer. I am very concerned by Beijing's coercive actions. We have 
consistently told China that the United States strongly objects to the 
Chinese government's attempts to compel private firms, including 
airlines, to publicly employ specific language of a political nature.
    We will continue to call on China to stop threatening and coercing 
American companies and citizens. I will work with partner governments 
and authorities to promote market-based economics; support good 
governance and liberty; and insulate them from external pressure.
                               __________

              Responses of Hon. Mike Pompeo to Questions 
                  Submitted by Senator Cory A. Booker

                              afghanistan
    I had the opportunity to go to Afghanistan in May and met with 
General Nicholson and Ambassador Bass. We have been in Afghanistan for 
nearly two decades and I heard the word ``stalemate'' again and again 
to describe the state of play there.

    Question. Do you believe there is a military solution to this 
conflict?

    Answer. There is no military solution this to this conflict. As 
President Trump said last August, ``Military power alone will not bring 
peace to Afghanistan or stop the terrorist threat arising in that 
country.'' The administration's overall goal for Afghanistan is to 
support a negotiated political settlement between the government and 
the Taliban. To this end, we are using all tools, including military 
and diplomatic tools, in concert, to support Afghan efforts to secure 
peace.

    Question. I was glad to see reports last week that stated the U.S. 
will seek to directly engage the Taliban in negotiations. Do you 
support directly negotiating with the Taliban?

    Answer. There is no military solution this to this conflict. As 
President Trump said last August, ``Military power alone will not bring 
peace to Afghanistan or stop the terrorist threat arising in that 
country.'' The administration's overall goal for Afghanistan is to 
support a negotiated political settlement between the government and 
the Taliban. To this end, we are using all tools, including military 
and diplomatic tools, in concert, to support Afghan efforts to secure 
peace.

    Question. If no, why not? Do you support the indefinite deployment 
of U.S. and NATO troops in the country?

    Answer. I do not support the indefinite deployment of U.S. and NATO 
troops in Afghanistan. When President Trump described our strategy last 
August, he noted that the United States would have a conditions-based 
approach to our presence in Afghanistan, focused on enabling a peaceful 
Afghanistan that can prevent the resurgence of terrorist safe havens 
that threaten America. We will not allow the Taliban a military victory 
in Afghanistan and are prepared to stay until the conditions are met 
that secure our core national security interest. The Taliban will not 
be able to wait out the United States and its allies.

    Question. What is the United States' strategy to leverage direct 
negotiations with the Taliban to jumpstart an inclusive Afghan peace 
process?

    Answer. The core goal of the United States in Afghanistan is a 
peace agreement that brings stability to Afghanistan and prevents the 
resurgence of terrorist safe-havens that threaten the United States. 
The only way to reach this goal is through an inclusive political 
settlement between the Afghan government and the Taliban. The United 
States cannot be a substitute for the Afghan government in negotiations 
with the Taliban. However, as I said in June, the United States is 
ready to support, facilitate, and participate in negotiations between 
the Taliban and the Afghan government. The United States is using all 
tools, including military and diplomatic ones, to press the Taliban to 
begin formal negotiations with the Afghan government.

    Question. Would you support appointing and fully supporting a 
senior official mandated to focus on negotiating a settlement of the 
conflict at the Embassy?

    Answer. As the Senior Bureau Official of the South Asia Bureau, 
Ambassador Alice Wells is focused on pursuing a negotiated settlement 
to the conflict in Afghanistan. She has a dedicated team that focuses 
exclusively on initiating and supporting a peace process and 
coordinates with other regional and functional experts across the 
Department. Because of her broader responsibilities relating to other 
countries in the region, she is well positioned to ensure that U.S. 
engagement in South and Central Asia is both coherent and synchronized 
among decision-makers in Washington. Ambassador Wells works closely 
with Ambassador Bass and General Nicholson, who have established an 
interagency Peace and Reconciliation Action Group (PRAG) to ensure 
unity of effort in the field and with Washington.
                                 syria
    Senators Cardin, Kaine and I sent a letter to President Trump 
sharing our concerns about the halt in stabilization funding to Syria. 
The answer that I received from Assistant Secretary Waters was 
incomplete and frankly an insult to our ability to conduct oversight.

    The letter we received did not answer our questions or concerns 
about when this funding would be restored, the effect of the funding 
freeze on Iranian and Russian influence, or the input that was provided 
from the State Department, USAID, and Defense Department before 
stabilization funding was frozen.

    Question. When will the stabilization funding for Syria be 
restored?

    Answer. In line with President Trump's request to review all 
foreign assistance, the administration is evaluating all bilateral 
foreign assistance for Syria to identify appropriate assistance levels 
and determine how those funds might best be utilized. Approximately 
$6.6 million has been released to fulfill U.S. funding commitments to 
the White Helmets and the International Impartial Investigative 
Mechanism. While the stabilization review is ongoing, we are 
encouraging the Global Coalition and our regional partners to 
contribute more of their resources and take a greater role in 
stabilizing liberated areas of Syria. To that end, the Department has 
raised approximately $300 million in Coalition funds for stabilization 
efforts in northeastern Syria. While details are being finalized, we 
expect some of these funds will support stabilization assistance 
programs implemented by the U.S. Government through the Department and 
USAID.

    Question. Were you, Administrator Green, and Secretary Mattis 
consulted before the stabilization funding was halted and were you part 
of the decision to halt the funding?

    Answer. I fully support the administration's decision to evaluate 
Syria stabilization assistance levels and how best these funds might be 
used. Moreover, in line with the President's call for international 
partners to assume more of a share in Syria stabilization efforts, we 
have secured approximately $300 million in Coalition contributions for 
stabilization programming in northeastern Syria and will continue to 
engage our partners to support our ongoing stabilization efforts.

    Question. What do you believe will be the effect on Iranian and 
Russian influence in Syria if the U.S. is not part of the stabilization 
of Syria?

    Answer. Russia and Iran lack sufficient material resources to 
stabilize and eventually reconstruct Syria. Russia has approached the 
United States and international partners about providing that 
assistance, but the United States and our allies and partners will not 
provide international reconstruction assistance absent a credible 
political process in Geneva that leads unalterably to constitutional 
reform, U.N. supervised elections, and a political transition that 
reflects the will of the Syrian people. In the meantime, the United 
States will continue to work with our partners in the Global Coalition 
to Defeat ISIS to support immediate stabilization and early recovery 
efforts in areas liberated from ISIS control, including Explosive 
Remnants of War removal, the restoration of essential services, and 
building local capacity to support longer-term sustainability. Both 
Iran and Russia provide military and diplomatic support to the Syrian 
regime and will continue to do so for the foreseeable future. The 
United States is actively using all available tools to counter malign 
Iranian influence in Syria and throughout the region.

    Question. Do you believe we risk losing gains we have made in Syria 
by withdrawing stabilization efforts?

    Answer. The administration has repeatedly emphasized that we are 
committed to completing the fight against ISIS, rooting out its 
remaining havens, and ensuring ISIS cannot return. The United States 
works with our partners in the Global Coalition to Defeat ISIS to 
support immediate stabilization and early recovery efforts in areas 
liberated from ISIS control, including Explosive Remnants of War 
removal, the restoration of essential services, and building local 
capacity to support longer-term sustainability. To this end, the 
members of the Global Coalition to Defeat ISIS have pledged 
approximately $300 million since April to support the continuation of 
stabilization and early recovery efforts in northeast Syria implemented 
by the USG through the Department and USAID.

    Question. Were you briefed on the entirety of what the President 
and Putin discussed during their two-hour one on one conversation in 
Helsinki?

    Answer. As mentioned in my testimony, I have spoken with President 
Trump multiple times about the subject matter of the Helsinki meetings, 
and I was present when Presidents Trump and Putin gave us a sense of 
what they discussed immediately afterwards.

    Question. Were General Dunford, General Votel, Secretary Mattis, or 
Director Coats briefed on the conversation?

    Answer. As mentioned in my testimony, I had multiple discussions 
with the President about the subject matter of the Helsinki meetings, 
and I was present when Presidents Trump and Putin gave us a sense 
immediately afterwards of what they discussed.
    I refer you to the Department of Defense and the Office of the 
Director of National Intelligence for specifics on any briefings by the 
White House with General Dunford, General Votel, Secretary Mattis, or 
Director Coats.

    Question. What discussion if any was there about increased U.S.-
Russian cooperation in Syria during the discussion between President 
Trump and President Putin?

    Answer. There were no agreements made in Helsinki between the 
United States and Russia. We continue to speak to the Russians about 
the range of issues, including those the Presidents discussed. 
Continued U.S. engagement with like-minded partners and with Russia 
will be a necessary component of any lasting solution in Syria. The 
U.S. policy in Syria continues to prioritize the enduring defeat of 
ISIS, as well as the removal of all Iranian forces from the country and 
deescalating the violence to create the conditions for an U.N.-led 
political solution that reflects the will of the Syrian people and 
brings the conflict to an end.

    Question. Was there a discussion of a joint U.S.-Russian military 
effort to facilitate the return of Syrian refugees during the 
discussion between President Trump and President Putin? Do you agree 
that you would have to come back to Congress to get the necessary 
authorities before doing so?

    Answer. There were no agreements made in Helsinki between the 
United States and Russia--beyond agreement for our two sides to 
continue talking about the entire range of issues the Presidents 
discussed. Contrary to press reports, and to Russian officials' public 
statements, the United States has not agreed to any proposal related to 
refugee returns to Syria. The United States strongly supports the 
position of the United Nations High Commissioner for Refugees that the 
situation in Syria is not yet conducive to large-scale facilitated or 
assisted returns, and that any refugee returns should be voluntary, 
safe, and dignified. In addition, it is our policy that there will be 
no U.S. reconstruction assistance to regime-held areas in Syria absent 
a credible political process in Geneva that leads unalterably to 
constitutional reform, U.N. supervised elections, and a political 
transition that reflects the will of the Syrian people. The 
administration values input from Congress and will continue to consult 
with the committee.

    Question. Has your Russian counterpart, Sergie Lavrov, come to you 
about implementing any agreements coming out of the discussion between 
President Trump and President Putin?

    Answer. There were no ``agreements'' reached in Helsinki--beyond 
agreement for our two sides to keep talking on the entire range of 
issues the Presidents discussed and we continue to do so.
                              north korea
    Question. Did President Trump consult with President Moon or 
Secretary Mattis about canceling military exercises with South Korea? 
Why not why not?

    Answer. As the Pentagon stated in a June 18 press statement, the 
suspension of select combined military exercises with the Republic of 
Korea was coordinated with our Republic of Korea ally and additional 
decisions will depend upon the DPRK continuing to have productive 
negotiations in good faith. This decision is consistent with President 
Trump's commitment to make every effort to create space for diplomatic 
engagement with the DPRK. There is absolutely no change to our ironclad 
commitment to the defense of the Republic of Korea.

    Question. Has there been any effort to tie suspension in exercises 
to missile testing moratorium?

    Answer. The Alliance decision to pause our combined military 
exercises was made independent of any missile testing moratorium. This 
is a good faith gesture on the part of the United States and Republic 
of Korea to further productive discussions aimed at the final, fully 
verified denuclearization of the DPRK.

    Question. If not, what have we actually gotten in return for the 
suspension of military exercises?

    Answer. We did not seek any quid pro quo for our pause in combined 
military exercises with the Republic of Korea. This decision was made 
in good faith to provide space for diplomatic engagement as we move 
towards our ultimate goal of final, fully verified denuclearization of 
the DPRK.

    Question. In the course of your talks with North Korean officials, 
have you reached an agreed and detailed understanding of what 
``denuclearization of the Korean peninsula'' entails?

    Answer. In my engagements with Chairman Kim and other North Korean 
officials I have made the U.S. position on denuclearization abundantly 
clear. Our goal is to achieve the final, fully-verified 
denuclearization of the DPRK. This goal was agreed to by Chairman Kim 
in Singapore.
    North and South Korea concluded a denuclearization agreement in 
January 1992 by which they declared: 1. The South and the North shall 
not test, manufacture, produce, receive, possess, store, deploy or use 
nuclear weapons. 2. The South and the North shall use nuclear energy 
solely for peaceful purposes. 3. The South and the North shall not 
possess nuclear reprocessing and uranium enrichment facilities.

    Question. Would you say that declaration provides a good working 
definition of the ``denuclearization'' of the Korean peninsula? Yes, or 
no?

    Answer. Denuclearization includes the elimination of all of North 
Korea's threatening WMDs, their delivery systems, and all associated 
facilities and infrastructure. North Korea's implementation of its 1992 
agreement with South Korea would be a welcome development.

    On July 1, National Security Advisor Bolton said experts have 
devised a program for North Korea to dismantle all of their WMD and 
ballistic missile programs in a year.

    Question. Given that, as Bolton admitted in that same interview, 
North Korea has yet to fully disclose the details of its program, do 
you think the one year timeline is feasible? When would that one year 
go into effect?

    Answer. We continue to work towards the implementation of Chairman 
Kim's commitments to President Trump in Singapore at the earliest 
possible time. Given the opportunity, we are prepared to help North 
Korea denuclearize as soon as possible.

    Question. Is there a meeting scheduled between North Korean and 
American technical experts to begin the process of documenting all the 
elements and facilities of the North Korean nuclear program? If not, 
why not?

    Answer. U.S. experts are fully prepared to begin discussions with 
DPRK counterparts on steps to accomplish the final, fully verified 
denuclearization of North Korea, pursuant to Chairman Kim's commitments 
in Singapore.

    Question. Given that you said at the hearing that North Korea 
continues producing fissile material, how can we say we are making 
progress on denuclearization?

    Answer. North Korea has taken some steps that indicate it intends 
to move towards the implementation of Chairman Kim's commitments at 
Singapore. We continue to work to secure the action necessary on the 
part of the DPRK to accomplish the final, fully verified 
denuclearization of North Korea.
                           russia/north korea
    In the Helsinki press conference on July 16, President Trump said: 
``I am very sure that President Putin and Russia want very much to end 
that problem'' regarding North Korea's nuclear and ballistic missile 
programs.

    Russian oil tankers reportedly supplied fuel to North Korea via sea 
transfers on several occasions in 2017, which, if accurate, would be in 
violation of U.N. sanctions. President Trump himself said in January 
that ``Russia is not helping us at all with North Korea. What China is 
helping us with, Russia is denting.'' Russia's envoy to the U.N. 
recently said we should raise the question of easing sanctions on the 
North Korea.

    Question. Does the administration consider Russia to be a reliable 
partner in challenging North Korea?

    Answer. U.S. policy remains to maintain economic and diplomatic 
pressure on North Korea to support our objective of achieving the 
final, fully-verified denuclearization of North Korea, as agreed to by 
Chairman Kim. As I stated in my testimony, Russia's commitment to help 
us achieve denuclearization of North Korea did come up in Helsinki. We 
will continue to press Russia to comply fully with all required U.N. 
Security Council Resolutions, maintain economic pressure on North 
Korea, avoid expanding any economic ties with the country, and 
repatriate the DPRK laborers now working in Russia. The President and I 
raised the topic of North Korea with President Putin in Helsinki, and 
our discussions on these and other key international issues will 
continue as we engage with Russia in the future.

    Question. If so, what concrete changes have occurred to provoke a 
change in assessing that Russia is helping, rather than hurting, on 
North Korea?

    Answer. On July 17, President Trump stated his firm conviction that 
``diplomacy and engagement are preferable to conflict and hostility.'' 
These principles have guided our actions on North Korea. President 
Trump's diplomacy de-escalated a situation in which the prospect for 
conflict was rising daily. Americans are safer because of his actions.
    Until North Korea eliminates its weapons of mass destruction, our 
sanctions, and those at the United Nations will remain in effect. 
Multiple resolutions of the U.N. Security Council, which includes 
Russia, require North Korea to eliminate all of its weapons of mass 
destruction and ballistic missile programs. Those resolutions were 
passed unanimously and they remain binding. We urge every single 
nation, including Russia, to maintain the enforcement of those 
sanctions. The path ahead is not easy, but our hopes for a safer world 
and a brighter future for North Korea endure.
                              north korea
    In your testimony, you said ``our objective remains the final, 
fully-verifiable denuclearization of North Korea.'' At a speech on May 
2 at the State Department, you said, ``We are committed to the 
permanent, verifiable, irreversible dismantling of North Korea's 
weapons of mass destruction program, and to do so without delay.'' And 
yet, your testimony doesn't include the words ``permanent'' or 
``irreversible.''

    Furthermore, in an interview with George Stephanopoulos, you said 
the following: ``We're going to require those steps--we use the word 
irreversible with great intention. We're going to require those steps 
that demonstrate that denuclearization is going to be achieved.''

    Question. Have your expectations of what denuclearization means 
changed over the past couple months?

    Answer. No. The President remains committed to fully and finally 
resolving the issue of DPRK's illicit and threatening WMDs and their 
delivery systems.

    Question. Was it now your intention to remove ``irreversible'' from 
your definition of denuclearization?

    Answer. The President remains committed to fully and finally 
resolving the issue of DPRK's illicit and threatening WMDs and their 
delivery systems.
                                 russia
    Question. President Trump met one-on-one with Russian President 
Putin on the sidelines of the G20 summit in Hamburg in July last year. 
Were staff, advisors, or a note taker present during that one-on-one 
meeting between President Trump and President Putin?

    Answer. No notetaker, staff, or advisers participated in the one-
on-one meeting between President Trump and President Putin.

    Question. Were you or other members of President Trump's national 
security staff briefed on the discussions of that conversation after 
the meeting?

    Answer. As mentioned in my testimony, I have spoken with President 
Trump multiple times about the subject matter of the Helsinki meetings, 
and I was present when Presidents Trump and Putin gave us a sense of 
what they discussed immediately afterwards.
                u.s. ambassador to israel david friedman
    Last month, at a conference on the news media, U.S. Ambassador to 
Israel David Friedman accused the press--expressly including American 
news outlets--of major bias against Israel in its coverage of violence 
at the Gaza fence-line, telling reporters to ``keep your mouths shut 
until you figure it out.''

    More than an inappropriate degradation of the free press by a 
sitting U.S. ambassador, Ambassador Friedman's egregious attack 
dangerously echoes efforts to discredit and intimidate the press in the 
United States, Israel and around the world.

    Question. Do you think these were appropriate comments for a U.S. 
Ambassador to make?

    Answer. Ambassador Friedman's remarks were taken out of context. 
Speaking by invitation at an event on media coverage of Israel, 
Ambassador Friedman emphasized the importance of a free press to a 
functioning democracy. He noted that he expects and appreciates 
criticism of the U.S. government. Ambassador Friedman stated that facts 
matter and called for objectivity in reporting on Israel. He noted many 
press critiques of Israel Defense Forces' (IDF) rules of engagement 
during recent demonstrations on the Gaza fence-line failed to cite 
military or security experts on the challenges IDF faced in deterring 
arson and other violent attacks from Gaza into Israel. He called for 
reporters to eschew political bias in favor of objective analysis.

    Question. What steps did you take to address these comments with 
him?

    Answer. The Department Spokesperson clarified from the podium that 
Ambassador Friedman's remarks were taken out of context. The 
Ambassador's speech to an event on media coverage of Israel focused on 
the importance of a free press to a functioning democracy. He also 
cited certain press critiques of Israeli Defense Forces' (IDF) rules of 
engagement during recent demonstrations on the Gaza fence-line as an 
example of the need for reporters to consult with subject-matter 
experts and eschew political bias in favor of objective analysis.
                                 niger
    In response to terrorist threats in the broader Sahel-Maghreb, the 
United States military has deployed more than 800 U.S. troops to 
conduct train and equip missions, and to construct an airfield in 
Agadez to provide additional Intelligence Surveillance and 
Reconnaissance coverage. However, this deep security cooperation has 
coincided with significantly eroded progress toward democratic 
governance. An example of this disturbing trend involves the arrest of 
several dozen civil society leaders between March and April of this 
year, in connection with demonstrations against the country's new 
finance law.

    Question. How is the State Department communicating to Niger's 
leaders that they should not interpret our counterterrorism cooperation 
as license for shirking their responsibilities for good governance?

    Answer. The United States is committed to promoting the peace and 
prosperity of Niger. We work towards this outcome by supporting Niger's 
democratic institutions and civil society organizations; promoting 
human rights, fundamental freedoms, and good governance; strengthening 
country-led development; and training and equipping Niger's security 
forces. For example, Niger is an exemplary partner in the Security 
Governance Initiative, a program designed to improve the governance of 
security and justice sector institutions. As part of the initiative, 
the Nigerien Ministry of Defense has made meaningful improvements in 
how it manages human and financial resources, as well as how it 
communicates with the Nigerien public.
    In light of recent concerning events suggesting the deterioration 
of the freedoms of expression and assembly as well as the rule of law, 
our Ambassador and his team have repeatedly delivered messages 
stressing the importance of protecting the freedoms of expression and 
assembly to high-level members of the government and to the people of 
Niger. Our messages underscore the importance that the U.S. government 
attaches to the promotion of democracy, respect for human rights, 
support for effective and accountable government, and the maintenance 
of open political space with freedom to peacefully express dissent, 
including views critical of the government.

    Question. Will the State Department to speak out in support of 
Nigerien civil society leaders jailed for exercising their freedom of 
expression, association, and assembly, which are protected under the 
Nigerien constitution and international human rights norms?

    Answer. Although a verdict in the case of several activists 
arrested for organizing a banned protest was rendered on July 24, 
providing for the immediate release of the majority of those charged, 
we continue to express our concerns to the Government of Niger, and 
will continue to do so as long as merited. Our conversations with the 
Government of Niger included concerns about the more than four months 
these individuals spent in pre-trial detention, harsh sentences for 
some of those charged, and a number of due process violations raised by 
lawyers for the defense. We continue to monitor the cases of those who 
still await trial as well as actions taken by the Government of Niger 
that signal the further restriction of the fundamental freedoms of 
assembly, association, and expression.
    Our messaging has not fallen on deaf ears: the Government of Niger 
has made it clear that it values its partnership with the United States 
and takes U.S. criticism very seriously.
                                 russia
    News reports indicate Saudi Arabia, the United Arab Emirates, and 
Israel have sought out Trump administration officials at various points 
aimed at improving the U.S.-Russia relationship as a way to gain 
leverage over Iran. One reportedly proposed deal would have the United 
States lift sanctions on Russia over its invasion of Crimea in exchange 
for Russia pushing Iran out of Syria.

    Question. Is the State Department reviewing any U.S.-Russia deals 
being proposed/brokered by the Saudis, Emiratis, or Israelis, or any 
combination thereof?

    Answer. The Department continues to consult closely on issues 
related to Syria with key regional allies, including Israel. While we 
cannot comment on the content of those discussions in this format, we 
remain strongly committed to the Defeat ISIS Campaign, the removal of 
Iranian and proxy forces from Syria, and an end to the Syrian conflict 
through a political solution.
                                  iran
    Question. The Iranians have indicated that they will restart 
elements of their nuclear program that were frozen under the JCPOA if 
Europe can't ensure European business will continue to flow into Iran 
amid renewed American sanctions. What is the Trump administration's 
plan should Iran take this course of action?

    Answer. President Trump has been clear about the serious 
consequences if Iran continues its nuclear aspirations. Our strategy is 
intended to impose maximum pressure on Iran to address the totality of 
its malign behavior, including nonproliferation issues and other 
concerns.
                               __________

          Buzzfeed News Article Submitted by Senator Tim Kaine

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	



            Arab News Article Submitted by Senator Tim Kaine

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	



                Statement of President Donald J. Trump 
                  Submitted by Senator Cory A. Booker

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	


                                  [all]
</pre></body></html>
